<html>
<title> - H.R. 3283, A BILL TO IMPROVE RECREATIONAL FACILITIES AND VISITOR OPPORTUNITIES ON FEDERAL RECREATIONAL LANDS BY REINVESTING RECEIPTS FROM FAIR AND CONSISTENT RECREATIONAL FEES AND PASSES.</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
   H.R. 3283, A BILL TO IMPROVE RECREATIONAL FACILITIES AND VISITOR 
 OPPORTUNITIES ON FEDERAL RECREATIONAL LANDS BY REINVESTING RECEIPTS 
        FROM FAIR AND CONSISTENT RECREATIONAL FEES AND PASSES.

=======================================================================

                           LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                         Thursday, May 6, 2004

                               __________

                           Serial No. 108-93

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-531                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 6, 2004............................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Peterson, Hon. John E., a Representative in Congress from the 
      State of Pennsylvania......................................    13
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Regula, Hon. Ralph, a Representative in Congress from the 
      State of Ohio..............................................     4
        Prepared statement of....................................     7
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................    11
    Udall, Mark, a Representative in Congress from the State of 
      Colorado...................................................    13

Statement of Witnesses:
    Brown, David L., Executive Director, America Outdoors, 
      Knoxville, Tennessee.......................................    69
        Prepared statement of....................................    70
    Denner, Roy, President & CEO, Off-Road Business Association, 
      Santee, California.........................................    64
        Prepared statement of....................................    66
    Funkhouser, Robert, President, Western Slope No-Fee 
      Coalition, Dorset, Vermont.................................    75
        Prepared statement of....................................    77
    Hill, Barry T., Director, Natural Resources and Environment, 
      U.S. General Accounting Office, Washington, D.C............    30
        Prepared statement of....................................    32
    Jourdain, Christine, Executive Director, American Council of 
      Snowmobile Associations, and Board Member, American 
      Recreation Coalition, East Lansing, Michigan...............    59
        Prepared statement of....................................    61
    King, Aubrey C., President, National Alliance of Gateway 
      Communities, Washington, D.C...............................    53
        Prepared statement of....................................    54
    Scarlett, Lynn, Assistant Secretary for Policy, Management 
      and Budget, U.S. Department of the Interior, Washington, 
      D.C........................................................    15
        Prepared statement of....................................    17
    Thompson, Tom, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture, Washington, D.C...    24
        Prepared statement of....................................    26


 LEGISLATIVE HEARING ON H.R. 3283, TO IMPROVE RECREATIONAL FACILITIES 
AND VISITOR OPPORTUNITIES ON FEDERAL RECREATIONAL LANDS BY REINVESTING 
RECEIPTS FROM FAIR AND CONSISTENT RECREATIONAL FEES AND PASSES, AND FOR 
                            OTHER PURPOSES.

                              ----------                              


                         Thursday, May 6, 2004

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 1334, Longworth House Office Building, Hon. George P. 
Radanovich presiding.
    Present: Representatives Radanovich, Peterson, Souder, 
Christensen, Mark Udall, and Bordallo.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. The Subcommittee will come to 
order, and today the Subcommittee on National Parks, 
Recreation, and Public Lands will receive testimony on H.R. 
3283, legislation introduced by Congressman Ralph Regula of 
Ohio, to improve recreational facilities and visitor 
opportunities on Federal recreation lands by allowing the 
Federal land managers to reinvest receipts from recreational 
fees.
    Mr. Radanovich. Many of you will recall back in 1996 when 
the then Chairman of the House Interior Appropriations 
Subcommittee, Ralph Regula, created an innovative program 
called the Recreational Fee Demonstration Program. The program 
authorized in Section 315 of the Omnibus Consolidated 
Appropriations Act of 1996 directed Federal land managers to 
implement a fee program to demonstrate the feasibility of user-
generated cost recovery for the operation and maintenance of 
recreation areas or sites and habitat enhancement projects on 
Federal lands. Each Secretary was to select no fewer than 10, 
but as many as 50 areas, sites, or projects for fee 
demonstration. Fundamental to this program was that up to 80 
percent of the fees collected at each Federal unit would stay 
at the site to enhance the quality of the visitor experience 
and for backlog maintenance and repair projects.
    Today, it is no secret that the agencies have enjoyed the 
success of the program because it gives them a stream of 
revenue that is not subject to the uncertainly of an 
appropriation process. In Fiscal Year 2002, the Rec Fee Demo 
Program was reauthorized by the Appropriations Committee and 
the Congressionally mandated limit of 100 demonstration sites 
was lifted. The National Park Service shifted all of its 
remaining recreational fee sites into the Fee Demo Program, 
increasing the number of fee demo projects from 100 to 233. As 
of September 30, 2002, there were 104 U.S. Fish and Wildlife 
Service projects, 100 Bureau of Land Management projects, and 
92 U.S. Forest Service projects.
    Originally a 3-year trial authorization, the Rec Fee 
Program has now been reauthorized by Congress six times and is 
due to expire on December 31, 2005. In terms of revenue, the 
Federal land managers have collected over $900 million in 
recreation fees from the public since its inception.
    Some on the Committee are concerned that with its success 
may come less appropriated funds for programs that can be 
funded by recreational fees. It has always been my 
understanding that fees collected under this fee program were 
to supplement, not replace, annual appropriations.
    While the program is popular with a number of 
constituencies and has certainly been effective in raising 
important additional revenue for the agencies to enhance their 
visitor experience, it has also created a great deal of 
animosity among some of the very recreational users it was 
designed to support. By now, many in the audience have heard 
those horrible stories where an agency actually began charging 
for a view off the side of a road. Obviously, that was not the 
intent of Congressman Regula when he created the program, nor 
were funds raised through the Rec Fee Program, I envision, to 
be used for an endangered species survey at the expense of 
enhancing a popular recreational experience.
    The Recreational Fee Demonstration Program is now 
approaching 8 years of operation, all through the actions of 
the House Appropriations Committee. As Chairman Pombo stated on 
the House Floor last year during the debate on the Fiscal Year 
2004 Interior appropriations bill, it is time that the 
Committee on Resources, the authorizing committee, step up to 
the plate and determine the future of this program. Today, this 
Subcommittee begins that charge.
    I look forward to the testimony of all of our witnesses and 
the opportunity to engage in a fruitful discussion on H.R. 
3283, as well as issues surrounding the future of the program.
    [The prepared statement of Mr. Radanovich follows:]

   Statement of The Honorable George Radanovich, a Representative in 
                 Congress from the State of California

    Good morning. The Subcommittee will come to order.
    Today, the Subcommittee on National Parks, Recreation and Public 
Lands will receive testimony on H.R. 3283, legislation introduced by 
Congressman Ralph Regula of Ohio to improve recreational facilities and 
visitor opportunities on Federal recreational lands by allowing the 
Federal land managers to reinvest receipts from recreational fees.
    Many of you will recall back in 1996 when, then-Chairman of the 
House Interior Appropriations Subcommittee, Ralph Regula created an 
innovative program called the Recreational Fee Demonstration Program. 
The program, authorized in Section 315 of the Omnibus Consolidated 
Appropriations Act of 1996, directed Federal land managers to 
``...implement a fee program to demonstrate the feasibility of user-
generated cost recovery for the operation and maintenance of recreation 
areas or sites and habitat enhancement projects on Federal lands.'' 
Each Secretary was to select no fewer than 10, but as many as 50 areas, 
sites or projects for fee demonstration. Fundamental to this program 
was that up to 80% of the fees collected at each Federal unit would 
stay at that site to enhance the quality of the visitor experience and 
for backlogged maintenance and repair projects. Today, it is no secret 
that the agencies have enjoyed the success of the program because it 
gives them a stream of revenue that is not subject to the uncertainty 
of the appropriation process.
    In FY 2002, the Rec Fee Demo Program was reauthorized by the 
Appropriations Committee and the Congressionally mandated limit of 100 
demonstration sites was lifted. The National Park Service shifted all 
of its remaining recreational fee sites into the Fee Demo Program 
increasing the number of Fee Demo projects from 100 to 233. As of 
September 30, 2002, there were 104 U.S. Fish and Wildlife Service 
projects, 100 Bureau of Land Management projects and 92 U.S. Forest 
Service projects.
    Originally a three-year trial authorization, the Rec Fee Program 
has now been reauthorized by Congress six times and is due to expire on 
December 31, 2005. In terms of revenue, Federal land managers have 
collected over $900 million in recreational fees from the public since 
its inception. Some on the Committee are concerned that with its 
success may come less appropriated funds for programs that can be 
funded by recreational fees. It has always been my understanding that 
fees collected under this fee program were to supplement, not replace, 
annual appropriations.
    While the program is popular with a number of constituencies and 
has certainly been effective it is raising important additional revenue 
for the agencies to enhance the visitor experience, it has also created 
a great deal of animosity among some of the very recreational users it 
was designed to support. By now, many in the audience have heard those 
horrible stories where an agency actually began charging for a view off 
the side of a road. Obviously, that was not the intent of Congressman 
Regula when he created the program. Nor were funds raised through the 
Rec Fee Program, I believe, envisioned to be used for an endangered 
species survey at the expense of enhancing a popular recreational 
experience.
    The Recreational Fee Demonstration Program is now approaching eight 
years of operation--all through the actions of the House Appropriations 
Committee. As Chairman Pombo stated on the House Floor last year during 
the debate on the FY 2004 Interior Appropriations bill, it is time that 
the Committee on Resources--the authorizing Committee--step up to the 
plate and determine the future of this program. Today, this 
Subcommittee begins that charge.
    I look forward to the testimony of all our witnesses and the 
opportunity to engage in a fruitful discussion on H.R. 3282 as well as 
issues surrounding the future of this program.
    I would ask unanimous consent that Congressman Walden be permitted 
to sit on the dais for the duration of the hearing and that Congressman 
Regula be permitted to sit on the dais following his statement. Without 
objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen, for any opening 
statement she may have.
                                 ______
                                 
    Mr. Radanovich. I would ask unanimous consent that 
Congressman Walden be permitted to sit on the dais for the 
duration of the hearing and that Congressman Regula be 
permitted to sit on the dais following his statement.
    Without objection, so ordered.
    I now turn to Ranking Member, Mrs. Christensen, for any 
opening statements she may have.

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    Welcome Chairman Regula.
    Assistant Secretary Scarlett, it is good to see you again 
too.
    Mr. Chairman, I join you in welcoming all of our 
distinguished witnesses and thank them for making the time to 
join us here today.
    The issue of charging visitors for the use of their public 
lands is complex and controversial. For many Members on both 
sides of the aisle, including myself, charging a fee of any 
kind is unacceptable given that these are public resources 
which have been acquired and managed using funds supplied by 
the American taxpayer. To then assess those taxpayers a further 
fee in order to actually use these resources appears to be 
double taxation.
    Of course, user fees would be unnecessary were the 
Administration and Congress able to work together better to 
provide our National parks, refuges, and other public lands 
sufficient funds to meet all of their needs. Other members, 
however, view user fees as an equitable solution to the growing 
problem of deferred maintenance within our public land system. 
What most members do agree on, however, is that the current Fee 
Demo Program is not the ideal solution to this problem. Fees 
should either be abandoned completely, or if we are to have a 
fee program, it should be properly authorized rather than 
continue to exist in this limbo of sporadic extensions through 
Interior appropriations bills.
    Congressman Regula is to be commented for taking an 
important step by introducing H.R. 3283. This is a 
comprehensive piece of legislation and provides a valuable 
starting point for this debate.
    Again, I want to welcome our witnesses and I look forward 
to their testimony.
    Mr. Radanovich. Thank you very much, Donna.
    And again I want to welcome our first panel member, the 
Honorable Ralph Regula, representing the 16th District of Ohio.
    Ralph, welcome to the Subcommittee, and we enjoy the 
opportunity of hearing about your bill.

    STATEMENT OF THE HON. RALPH REGULA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Regula. I would ask that my full statement be entered 
into the record.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Regula. We have all have limited time. I might hit a 
few highlights and then respond to questions that you might 
have.
    When we created this, our goal was to deal with backlog 
maintenance. So what I discovered when I took the chairmanship 
of the Interior Subcommittee is that there is a huge backlog of 
maintenance needs, and one of the ways to address these was to 
provide a modest fee that could be used for that purpose, and I 
think that has happened in most instances. We provided that the 
money collected from fees should be used for maintenance, 
backlog maintenance, and to enhance the visitor experience, and 
I think that has been achieved as one of our goals.
    The requirement that 80 percent of the revenue generated 
stay in the park or the facility that generates it ensures that 
it would be used for that purpose, and as I have visited parks, 
I have had a number of maintenance people come up to me and say 
we are so thankful because we have been neglecting safety 
issues, we have been neglecting health issues, we have been 
neglecting the trails at one of the facilities, and now we have 
some money to do this with. And I talk to visitors, and they 
don't object to paying a modest amount. In fact, I urge all 
these superintendents to put a sign up at the entrance saying 
that the money that you pay here in fees will be used for this 
facility, and I think people welcome that understanding and 
they welcome an opportunity to have a better facility for their 
experience.
    I would point out that I was at The Presidio this past 
weekend, and, of course, that and Golden Gate includes a number 
of facilities. They do have a rec fee in part of their 
facilities, not the Christy Field, for example, not the trails 
within the Presidio, but two of the locations that they have do 
have rec fees, and of course about a third of their visitors 
come from all offshore that don't pay any taxes toward the 
maintenance of those facilities, but they do pay the rec fee 
which helps to give them a better experience.
    I think that the features that were outlined in the bill 
are good. You have tried to address these and we have tried to 
address these in the language we provide. One of the things 
that I have been struck with is the superintendents telling me 
that their vandalism level has been reduced when they have a 
rec fee because people have an ownership because they know that 
they are there. I still remember so clearly, I visited Angeles 
National Forest, and there they had this beautiful--because 
that is basically the park or the open space for the people who 
live in Los Angeles, but it abuts right up against the city.
    So they built this lovely area with picnic tables, with 
swings, with cooking burners where you could charcoal and so 
on. It was a beautiful area for the public to use. A couple of 
days before we visited this, somebody came in with one of these 
vehicles with huge balloon tires and crushed everything, just 
drove over it, smashed it. Now, what mentality would cause 
somebody to do that totally escapes me, but if that individual 
had to stop and pay a couple of bucks, five dollars maybe to 
get in there, they would be very reluctant to do that because 
they would know that there was some possible way of identifying 
them as being in the facility, and I think it wouldn't have 
happened, frankly.
    This is what superintendents tell me, that this sense of 
ownership, this sense of people knowing that somebody knows 
they are there has reduced the level of vandalism, and we 
hadn't anticipated that, but it is one of the benefits.
    As you pointed out, it raised almost a billion dollars, and 
I have to say at the outset I made it very clear that this was 
not done in the appropriations process to replace the level of 
dollars that we put in these systems, and I don't think the 
evidence would indicate anything else. What it does is supplant 
what we appropriate, and it does give the park superintendents 
and their maintenance crews something to work with to, at Muir 
Woods, for example, improve the trails. I visited Muir Woods, 
and they were using porta-potties at one time. That is a heck 
of a way to treat the public, and of course I came back and put 
in a line item and took care of that.
    Sid Yates was Chairman of our Appropriations Committee and 
I have been on Interior Appropriations for 30 years, but Sid 
said, I can't afford to have you travel because you come back 
and you want to take care of all these problems that you saw 
when you were out. And it is true. If you go the Muir Woods 
today, they have an excellent sanitary system, but the 
superintendent also told me when I visited there a few years 
back that she had done a lot with trail improvement with this 
money, and she was so grateful that they had this little extra 
money that they got from the fee collections.
    I think if you make this program permanent, and that is the 
way it ought to be done rather than on a temporary basis 
through the Interior appropriations bill. It will enable 
superintendents to do planning. It will enable them to ensure 
that they can deal with the maintenance problems. I pushed hard 
as Chairman of Interior to deal with the backlog maintenance, 
and we made some progress, because you have to take care of 
facilities. I was in Yellowstone, and my wife said the 
restrooms there need some help. They weren't porta-potties, but 
they needed some improvements. So we suggested to the 
superintendent that might be a good place to use some of the 
fee money, because we want visitors to have a good experience. 
We want the roads to be safe. We want the campsites to be 
reasonably attractive. We want the hiking trails to be that 
way.
    And I might say that this bill doesn't put fees on back 
country trails and that type of thing. It is to deal with the 
backlog maintenance of the facilities that the public are 
using, and certainly in my conversations with the visitors, 
they don't feel at all that they are being put upon to provide 
a modest fee.
    I know there has been some discussion that maybe we should 
limit it to the Park Service. The only comment I would have is 
this, that I think the Forest Service more and more is going to 
be part of our recreational base for this country, because they 
have the vast acreage. They have beautiful trails in places 
that people want to go, and the pressure is going to be on for 
more and more open space, and because of the limitations we put 
on harvesting, I see the forests and BLM and all these agencies 
getting more and more into the recreation business; and 
therefore, I think with maybe some changes in the language, 
they should be part of it.
    But certainly the parks should have the ability to do the 
rec fee, and if it is permanent, they have they can plan 
accordingly and embark on long-term maintenance programs that 
will enhance the visitors' experience, safety, and, frankly, 
the pressure is going to grow and grow on the parks. I was 
interested to note that the fees collected in the past year 
have gone up substantially because more people are visiting, 
and in my experience out at The Presidio this weekend, it was a 
busy place, and people really seek outdoor experience.
    And I'll just share one last experience: When I travel, I 
like to visit parks in other countries. When I was in Warsaw, I 
said show me your best park. We were there for an NATO meeting. 
So they took me 30 miles out to show me this park. I say said, 
This is the best you have? Yes, that is the best. Well, they 
had a few campsites. They had a few of these charcoal burners, 
and it wasn't Yellowstone, I can tell you, or The Presidio. I 
said, Look, do you get many visitors. He said, On the weekends, 
this is wall to wall, because there is such a craving for open 
space.
    I thought this morning driving in, what in the world are we 
going to do in this city 50 years from now when the population 
is doubled when the traffic is almost impossible. Well, we are 
setting the stage for a growing, growing population, and I 
think growing, growing interest in recreational opportunities 
and open space, and this program offers a way to ensure that 
the system can keep up and keep current with their maintenance 
and with providing safety facilities and so on, and I believe 
that the public would be very supportive and has demonstrated 
they are very supportive for a modest fee for this purpose.
    User fees are not anything unusual in our society. We pay 
user fees in a lot of different ways, and if you want the most 
persuasive testimony, just talk to a park superintendent and 
especially talk to the maintenance crew. I was in--what is the 
one in the State of Washington, right up in the northwest 
corner of the State of Washington? I forgot.
    Mr. Radanovich. Olympic?
    Mr. Regula. Olympic. The superintendent says to me, he 
said, You are the hero of our maintenance crew. He said they 
have been so frustrated because the budget is always so tight 
that they don't have money to do the repairs they need, and now 
they do. And he said they are very conscientious, and my 
experience with park personnel, they are extremely 
conscientious people. They care. They really care, and this 
enables them to ensure that the public has a good experience.
    Maybe it needs a little tweaking. I worked with the 
departments to try to get a bill that would work. We don't 
mandate a specific fee level. There is no requirement that you 
have to purchase a National plan. That is not privatized land 
management, and we are not going to put anybody in jail for 
failing to pay a fee, but I don't think you can underestimate 
how important it is to give people a good experience and how 
important it is to ensure that they get an element of ownership 
which reduces this vandalism problem.
    And I will be happy to answer questions that you might 
have, but I hope you will give this a lot of consideration in 
making it a permanent program so that our managers, starting 
with the director Nationally, and each park site can plan to 
enhance the visitor experience and can plan to meet the growing 
pressures that exist on these systems as the population grows. 
We have the Cuyahoga Valley between Cleveland and Akron, and 
any weekend you go out there and there are no fees there. There 
are too many entrances, but every weekend you go out there, 
there is just thousands of people on the trails, on the bicycle 
paths, and so on. As the population grows over the next many 
years, it is important that we address those needs.
    And I thank you for giving us this opportunity.
    [The prepared statement of Mr. Regula follows:]

 Statement of The Honorable Ralph Regula, a Representative in Congress 
                         from the State of Ohio

    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify before you today on an issue that I feel strongly about. 
Maintaining and enhancing our national parks, forests and other Federal 
recreation areas is not easy or inexpensive. As demands exceed 
available funding, routine maintenance is too often deferred and 
improvements postponed, which in turn degrades the recreation 
experience for our constituents. I am hopeful that after many years of 
hearings, debates, and experiments on this subject that we can work 
together to find a solution to provide these lands with adequate 
funding and the necessary services to enhance visitors' experiences.
    In 1995, when I became Chairman of the House Subcommittee on 
Interior Appropriations, I decided to do something about the 
deteriorating conditions in our national parks, forests, and refuges. 
As part of this effort, I established a demonstration program to charge 
nominal fees and use the revenue for maintenance and improvements at 
the site where they were collected. Specifically, no less than 80 
percent of the revenue collected would stay at the site and would go 
towards needs identified by visitors.
    Since its inception in 1996, the Rec Fee Demo Program has generated 
over one billion dollars. These dollars have gone towards reducing the 
growing backlog of deferred maintenance, protecting natural resources, 
enhancing facilities, and improving visitor services and safety. For 
the price of less than a movie ticket, visitors are able to enjoy 
cleaner facilities, well-maintained trails and an overall better 
recreation experience. Because visitors have a financial stake in the 
land, they are much less likely to commit vandalism and property 
damage. In addition, I have heard of no instances in which this program 
has blocked public access or reduced visitation. In fact, visitation 
has increased as services have improved.
    Based on these positive results, I worked with the land management 
agencies to draft legislation to move this program out of the 
experimental phase. The result is, H.R. 3283, the Federal Lands 
Recreation Enhancement Act. Included in the bill are several new 
initiatives based on recommendations from outside sources and from 
experiences learned from the demo program. Among these improvements are 
restricting fees to only sites where there is a federal capital 
investment, establishing different fee levels to reflect the level of 
that investment, allowing access to many or all sites with the same 
pass, and making agencies more accountable for how they spend money.
    We are already beginning to see changes in the way fees are being 
administered and collected. Since the implementation of the Forest 
Service Blueprint in January they have dropped fees at over four 
hundred sites. All this is part of the new policy to make the fees more 
consistent nationwide, and to have fees at sites only where there is a 
capital investment, not just for access. Making the recreation fee more 
consistent between sites and creating a structured fee system based on 
the service performed and costs incurred by that site will go a long 
way towards creating a seamless fee and collection system. It has been 
established that visitors are willing to pay a fee as long as the fee 
stays at the site and will be invested in maintaining and upgrading 
facilities they use.
    Some people have complained that the fees do not stay at the 
recreation site and instead go towards collecting fees and 
administering the recreation fee program. Others claim that up to fifty 
cents from every dollar is used for administering the program and 
collecting fees. This could not be further from the truth. The cost of 
collection for the agencies over FY00 through FY02 has remained roughly 
consistent at about 20 percent of fee revenue. This number will only 
decrease as the program continues to improve and coordination of 
programs is enhanced.
    There is tremendous value for the American public in maintaining 
this fee authority for the Forest Service. Much of the controversy 
surrounding the Forest Service was due to the entrepreneurship its 
employees exhibited when the rec fee demo began. I commend this agency 
for really testing a variety of fee mechanisms, and for being 
responsive to public concern of the implementation during the 
experimental, demonstration phase. In the long run, we have learned 
from this process, and we are now better situated to implement a 
permanent program. The funds retained at many Forest Service recreation 
sites are essential to providing quality recreation experiences to the 
public, and this should not be discontinued.
    Accountability is essential on the part of the agencies that value 
these funds. They must be accountable for the use of their receipts and 
use them to reduce the backlog maintenance and for visitor service 
enhancements. The receipts should not be used to replace Federal 
appropriations. They should work in concert with the Federal 
investment. Recreation fees are not double taxation; rather, they serve 
as partial payment for use of special recreation sites. Under my bill, 
fees are not charged for access to back country, only for use where 
there is developed infrastructure.
    I believe, if made an authorized program, the Fee Demo Program will 
continue to yield positive results. Never has it been more apparent 
than during these difficult budget times that our Federal Lands need 
these funds to maintain their facilities, provide for the increase in 
visitors, and homeland security costs. In FY03 the Fee Demo Program 
raised $176 million for all four agencies involved, approximately a $1 
million increase over FY02. Without these fees Federal Lands would not 
be able to provide our constituents with the amenities they desire and 
deserve, such as clean restrooms, maintained trails and staff for 
customer service.
    I would also like to take this time to clear up several 
misconceptions about this legislation:
    <bullet>  This bill would not mandate a specific fee level. Each 
fee would be determined by the land management agencies, based on a 
number of factors, including the value of the visitor experience and 
the level of federal investments. In fact, this bill establishes a fee 
structure so that fees would be more uniform from site to site. Several 
kinds of visits would be exempt from fees. For example, there will be 
no fee for a visitor seeking to see a sunset or a vista, and for back 
country visitors;
    <bullet>  There is no requirement for anyone to purchase a national 
pass to visit a local national park or forest. While the bill does give 
people the option of purchasing one pass to visit all sites, it also 
provides for an annual site-specific agency pass as well as regional 
passes. This is done to give the visitor more choices;
    <bullet>  This bill will not privatize land management. On the 
contrary, this program empowers public land managers, giving them 
additional resources to do their jobs better;
    <bullet>  This bill will not put people in jail for failure to pay 
the fee. It brings fee nonpayment in line with other recreation 
offenses, such as littering and driving off road, which are classified 
as Class B Misdemeanors. Of course, no one is put in jail for these 
offenses. The bill only seeks to create uniformity within the law. As a 
practical matter, the fine (usually around $50) for fee nonpayment will 
stay the same. These fees go directly to the U.S. Treasury so that the 
agencies have no incentive to impose fines other then as a last resort. 
In addition, these fees are not arbitrarily decided, they are based on 
a scale and a Magistrate rules on every one. To date the maximum fine 
ever given by any of the land agencies is $250; and
    <bullet>  This bill does not discriminate against those who cannot 
afford the fees. Federal lands should be accessible to all regardless 
of income. That is why this legislation proposes numerous fee free days 
and encourages volunteerism as an alternative to easily earn recreation 
permits without having to pay the fees.
    While I am a supporter of the fee demo, I understand the need to be 
critical and make improvements to the program. If we expect Americans 
to spend money to take their families to our lands, the fees must be 
fair, equitable, consistent and convenient. We as Representatives have 
the responsibility to maintain our public lands while at the same time 
ensuring Americans that when they visit the Federal recreation sites 
they will be receiving a service that is worth their hard-earned money.
    I have seen firsthand the benefits of the fee demo program. When I 
first became Chairman of the Interior Subcommittee on Appropriations 
our nation's parks were in decline. This is why following several 
hearings I decided to implement a fee demo program. Clearly there was a 
precedent for this action as the National Park Service had been 
collecting fees for years. Why not try this with other land agencies? I 
recognize there are flaws in the program and there used to be many more 
seven years ago, but we have worked collectively to improve the program 
and should continue to do so.
    It is time now for Congress to take action and authorize the fee 
demo program. The funds generated from the program are critical to the 
land agency's ability to provide meaningful and efficient recreation 
experiences to the public. Services could be cut back and the aesthetic 
beauty and appeal of these lands could be lost. We have made 
significant strides in reducing the maintenance backlog, improving our 
public recreation lands and managing fees since the implementation of 
the demo. We must continue on this path to ensure that decades from now 
Americans can continue to benefit from the natural beauty our nation's 
lands have to offer. I fully intend for this bill to be the starting 
point, not the end product and I look forward to working with members 
of the House Resources Committee to bring it to fruition.
                                 ______
                                 
    Mr. Radanovich. My pleasure, Mr. Regula.
    If I may start off with one question, I am curious as 
Chairman of the Appropriating Committees, do you have a concern 
over the 80 percent of the fee that goes to the park that is 
not subject to appropriation?
    Mr. Regula. Well, I suppose there is some mechanism you 
could do on that. I think more important would be a more 
accountability system to ensure. I also always had a little 
concern that at some park, there would be a scandal, if you 
will, where the fees were used for purposes other than what we 
intended. To the best of my knowledge, that has not happened, 
and I think it reflects that you have very conscientious people 
in the Park Service. It always amazes me how many volunteers 
they get in these parks. I think they told me at The Presidio 
they have 15,000 people in one way or other another 
volunteering. That is terrific. Particularly it is wonderful 
for retirees. It gives them a mission.
    But I think accountability would perhaps ensure that we 
have that built into the system.
    Mr. Radanovich. Very good. Thank you, sir.
    Donna, any questions.
    Mrs. Christensen. Thank you, perhaps one.
    As I said in my opening statement, you know, I think this 
helps us to begin to talk about an important issue to parks. In 
Saint John, we have a Demo Program which has not been without 
controversy, of which I have been in the middle of it, of 
course, but it has been helpful to the superintendent there to 
better maintain Trunk Bay and the other areas where it is in 
place. But at this time, the National Park Service, for 
example, is reaching out to population groups that have not 
really fully taken advantage of our parks and visited our 
parks. A lot of our them are poorer populations, minority 
populations and so forth.
    Would you have any concern or how do you think we could 
address those groups that don't usually use the parks and the 
fact that a fee pay may present an additional barrier as we 
reach out and try to include more population groups in 
utilization of the parks?
    Mr. Regula. Well, I think you could have special programs 
for seniors, for school groups, so that students would learn 
the pleasure and the wonderful things that take place in the 
park. The fees are pretty modest, generally, in most of the 
parks, and we do, I think in the bill, allow fee-free days to 
ensure that if you have those kind of situations, that no one 
is ever excluded from the facility. They might pick the fee-
free day, and also volunteers do earn credit toward whatever 
fee there might be.
    People do have a love affair with the parks, and I think we 
should in every possible way make them accessible, but we want 
them accessible where they are safe, where their trails are 
maintained, and the rest of restrooms and the sanitary 
facilities of all kinds, campsites are attractive, and this 
would help a lot with that.
    Mrs. Christensen. Thank you for your answer. I don't have 
any other questions. And thank you for considering taking those 
issues into consideration as the bill was followed.
    Mr. Regula. Well, I don't want anybody denied, and in some 
places near the big metropolitan centers, like the Cuyahoga 
Valley where there are five or six million people in the base, 
there are no fees collected there because there are multiple 
entrances, and I talked with the superintendent in the Golden 
Gate, and he said much of the area at The Presidio within 
Presidio within San Francisco's boundaries is open to 
everybody. There are no fees, and I saw thousands of people 
there on the weekends.
    Some areas you have trails. You have campsites. You have 
water, sanitation problems, and this gives them a helping hand, 
but we still have the free days to ensure that everybody gets a 
crack at it.
    Mrs. Christensen. Thank you, and I am going to plan some 
trips for you to communities where there are high health care 
disparities. We will be talking to you about that at another 
time. Thanks.
    Mr. Regula. OK.
    Mr. Radanovich. Thank you, Donna. Mr. Souder, any 
questions?

   STATEMENT OF THE HON. MARK E. SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Thank you.
    Good to see you, Mr. Chairman. I wanted to mention a couple 
other things that I have raised to you in the past, and this is 
a good opportunity to get it on the public record.
    One thing is I am concerned about the National Parks pass. 
As we increase the demo fees at some of the major parks, we are 
pushing more people to move to that pass, which defeats the 
whole point of the demo fee, which I think has been an amazing 
thing with very little opposition anywhere in the country, and 
it is time to make it permanent and I applaud your leadership; 
but one thing that I think that we need to do is push to have 
the National pass price raised, because we have some of these 
parks at $20, or as you see the Utah parks where there are five 
of them in a row, unless you are kind of naive or uninformed, 
you are going to get a pass at the beginning or the end or get 
it before you plan a major vacation, which defeats the whole 
point of getting the money to the parks to enable them to do 
the maintenance fee.
    And I like the idea of a National pass, and I always get 
one myself, but we need to have a market adjustment in the pass 
as we are making the market adjustments in the park, or we will 
defeat the whole point of the program, and that is one thing I 
am going to raise at a number of points here.
    Mr. Regula. Well, probably with a creative staff, you can 
figure out a way to deal with that, and I know we have 
discussed that, but I think there are ways to do this, and of 
course part of the 20 percent would go to that too.
    Mr. Souder. And Dr. Christensen raised another point that 
probably we won't be able to put inside this bill without 
getting jurisdiction with Ways and Means. We are going to check 
and see, because I think it would be scored so low, it wouldn't 
matter, but to address her concern, I have long advocated 
picking a number, whether it is 30,000 or 40,000 in income, and 
anybody below that income gets an automatic tax credit to 
offset the cash price of a National Parks card, so that no one 
in low income would be excluded from the park. For a middle 
income or higher income family, this is nothing. It costs less 
than a day at an amusement park to get a National Parks pass 
for the whole year, and it is just one person, not counting 
food or anything else they do at an amusement park.
    But I believe, personally, that less than 10 percent of the 
total of that National Parks pass total probably goes to low 
income people, in which case it is such an asterisk in the 
budget, I am not even sure it can't go under suspension and not 
come under the jurisdiction of Ways and Means, because I don't 
think most low income people are buying the parks pass, and 
that would address the question of if we raise that fee, that 
low income people would be excluded.
    Mr. Regula. Well, I think that anything that can be done 
creatively in the language to give more people access, because 
once people visit a park and have the experience, they like it, 
and they go back, as evident in Poland and Warsaw and their 
system. They have this new thing that you get a stamp. My wife 
started the National First Ladies Library, which is now the 
National First Ladies Historic Site, and she is always 
surprised how many people come in there and the first thing 
they want to is to get their stamp, because apparently the Park 
Service--I don't know if they fill it out or something, but it 
a challenge for them to get a stamp from as many parks as 
possible, and that, again, fits with what you are saying about 
getting a pass.
    Mr. Souder. And as you pointed out, the largest attendance 
by far in the parks right now are Golden Gate, Gateway, Santa 
Monica, Cuyahoga Valley, the urban parks where you have often a 
metro population of a lower income that isn't impacted.
    I want to raise one other thing that I just learned a few 
minutes ago. Apparently, the Governor of California has just 
announced that he has pulled the guard off the Golden Gate 
Bridge and stuck the National Park Service with the Homeland 
Security costs at Golden Gate Bridge. This is kind of the last 
straw in how we are going to be able to deal with Homeland 
Security in the National Parks, because the bridge is under 
special attack all over the United States. It will take an 
incredible number of rangers that will have to be pulled off 
the rest of the Golden Gate, and I urge the Appropriations 
Committee to do something about getting some of the Homeland 
Security costs shifted from the National Park Service, because 
if this starts to hit things like that Golden Gate Bridge, I 
don't know how they can possibly keep the parks functioning 
unless we figure how to address the Homeland Security.
    Mr. Regula. Yes. I heard a lot about that when I was at The 
Presidio this past weekend, and when I thought it about it 
myself when we crossed the bridge, we went up to Fort Baker, 
which is part of Golden Gate, because I have had an interest in 
that as a destination, and it is a marvelous potential site, 
and I thought to myself these things are really vulnerable, 
trains, bridges, and so on. And I heard about it had been under 
guard and it was not at some points.
    So that would be an enormously significant burden for the 
park system if they have to take on that.
    Mr. Radanovich. Excuse me, Mark. We are going to try to 
stick to our 5-minute rule. If you could wrap it up, we will do 
another round of questions.
    Mr. Souder. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. I don't really have 
any questions for the Chairman, but I do want to point out that 
on Guam, all of our public areas, parks and so forth, both 
Federal and local, there are no fees, and I think that we will 
be able to maintain things a little bit better if we do impose 
fees.
    So I will have a question for the next round.
    Mr. Radanovich. Thank you very much.
    Mr. Peterson.

  STATEMENT OF THE HON. JOHN E. PETERSON, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Peterson. I would just like to commend the Chairman for 
his leadership on this issue. I concur with this proposal, and 
I guess the point I wanted to make on the discussion previously 
about people being prevented, all parks have lot of free areas 
that are not fee. Am I correct?
    Mr. Regula. I think that is correct.
    Mr. Peterson. I think the fee system has been sort of 
targeted at those facilities that cost a lot of maintain and 
that people who utilize them, like boat launches and I know in 
the National Forests, the four-wheeler trails. I mean, these 
are $6,000 toys that people play with. A small annual fee to 
maintain those trails is, I don't think, out of the way, and I 
don't hear any complaints because they are just looking for 
places to run their snowmobiles and four-wheelers and their 
toys, which are expensive play toys, and that is why I have 
always been supportive of the fee system.
    Historically, Congress has not adequately funded the 
maintenance of some of the most beautiful lands we have in this 
country, and I think users, especially high-end users who are 
using things that cost a lot of money, should pay for that, and 
hopefully it will enable us to enhance these parks to where we 
even have more attractions and can keep them beautiful and in 
shape so that it is the kind of experience people expect when 
they go to a park.
    I would like to commend the Chairman on his leadership.
    Mr. Regula. Thank you.
    Mr. Radanovich. Thank you, Mr. Peterson.
    Mr. Udall.

STATEMENT OF THE HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Mark Udall. Thank you, Mr. Chairman.
    I wanted to welcome you, Mr. Chairman, to this 
Subcommittee. I think you know it is the best run subcommittee 
on the Hill except for that little subcommittee you head. Mr. 
Radanovich does a great job over here.
    Mr. Regula. Well, I commend you for your attendance. I have 
been to a lot of committee hearings where the chairman is it. I 
have been in a number of those myself.
    Mr. Mark Udall. I appreciate the way that you are 
proceeding. We have had some of these debates over the last 
couple of years through the appropriations process, and I think 
it is timely that we are going to debate this fee demo issue 
through an authorization process, and I want to thank you for 
your leadership.
    I did miss the early part of your testimony. If I might, I 
would ask you just to discuss the question of whether a 
permanent fee program would tend to replace appropriations or 
supplement them. That is, as you know, a heated discussion all 
over the country.
    Mr. Regula. Well, I made the statement, and we did this 
when I initiated it has as Chairman of the Interior, that 
absolutely not. That is the reason we wrote in the language 
that it would be used for backlog maintenance. It would be used 
to enhance the visitor experience, and I don't believe there 
has been any evidence whatsoever that the Interior 
Appropriations Committee, either House or Senate, have said, 
well, we don't have to do as much because they are collecting 
feed.
    The fees are collected where there a facility that will 
benefit from additional efforts, and I have had any number of 
times when I visited parks that the maintenance crew, I am 
their hero sort of because they have had to neglect 
maintenance. It is not very sexy to fix a roof or a step or a 
trail, or in a case of Muir Woods, at one point they had porta-
potties. We should make these parks attractive, the visitor 
sites, the camp grounds, and that is what this is designed to 
do, and it does not impact on the appropriations.
    Mr. Mark Udall. I appreciate that clarification. Obviously, 
one of the opportunities we have here, but one of the 
challenges is to do a better job, and when I say we, I mean all 
of us in the Congress, but also the land agencies of informing 
the general public about the benefits of the Fee Demo Program 
and how it is reinvested. There are cases where we haven't done 
that very effectively, and I think that has led to some 
misperceptions.
    Mr. Regula. Well, I have pushed everybody that will listen 
to put a big sign out there at the entrance to say that the fee 
you pay will be used to deal with maintenance and with your 
experience here. In a couple of parks I visited, I could tell 
the paint was still wet, and we were getting their attention 
anyhow.
    Mr. Mark Udall. I know that in an area in my district, one 
of the operators of a little marina--this is the Green Mountain 
Reservoir in northern Summit County--they were actually in a 
position where the local Forest Service, I believe--now, BLM 
land abuts the Forest Service land there, so I may not have my 
facts correct here about which agency was managing the fee demo 
project, but they were not actually collecting the receipts. So 
the owners of this small business were collecting the receipts, 
and they were in a way happy to do that, but they also had 
gotten an impression that the agency didn't really care 
particularly about this fee demo project.
    So I think we also have to work to ensure that the agencies 
have the capable of actually administering the Fee Demo 
Program.
    If I could make one other comment also, maybe there is an 
opportunity here to involve the public a little bit more on the 
front end. At some point, the process could bog down, but there 
is perhaps a way to do that to allay some of the suspicions and 
the feeling that get generated.
    Mr. Regula. Well, my experience in visiting in the parks 
and with visitors is that they are supportive. As you point 
out, when they see where it is going into the park where it is 
generated, there is very little resistance.
    Mr. Mark Udall. I would just conclude and thank you for 
your leadership. My predecessor, Congressman Skaggs always 
appreciated his working relationship with you and would come 
home to Colorado and say there is a guy in Ohio that really 
gets it here when it comes to our public lands in the west. So 
thank you for your leadership.
    Mr. Regula. Thank you.
    Mr. Peterson. [Presiding] Does anyone have any further 
questions that they would like to ask the Chairman?
    I would like to thank the Chairman for coming and putting 
his bill out there--I agree with it--and for his leadership on 
this issue, and we just want to thank you for coming and 
sharing it with us today.
    Mr. Regula. Well, thank you for this opportunity.
    Mr. Peterson. OK. If you would like to join us at the 
podium, you are welcome to, Mr. Chairman.
    Mr. Regula. I will stay for a few minutes. You know how we 
all have too many things to do.
    Mr. Peterson. OK. We understand that.
    Mr. Peterson. We would like the second panel to come 
forward and take a seat: Ms. Lynn Scarlett, Assistant Secretary 
for Policy Management and Budget for the Department of 
Interior; Mr. Tom Thompson, Deputy Chief, National Forest 
System, U.S. Forest Service; Mr. Barry T. Hill, Director of 
National Resources and Environmental, General Accounting 
Office, Washington, D.C.
    If you all would take your seats, we would like to remind 
you that you all have 5 minutes to present your views and 
thoughts and share with the Committee, and then we will take 
questions after all three of you have spoken.
    Mr. Peterson. Ms. Scarlett, you are on, and welcome.

   STATEMENT OF LYNN SCARLETT, ASSISTANT SECRETARY, POLICY, 
    MANAGEMENT AND BUDGET, U.S. DEPARTMENT OF THE INTERIOR, 
                        WASHINGTON, D.C.

    Ms. Scarlett. Thank you, Mr. Chairman, and Members of the 
Committee for the opportunity to present the Department of the 
Interior's views on H.R. 3283 regarding recreational fees and 
passes. I would like to especially thank Congressman Regula for 
introducing the bill and his critical role in the creation and 
the extension of the Fee Demo Program over the last several 
years. The Department strongly supports this bill with several 
technical amendments.
    A permanent multi-agency recreation fee program does allow 
us to substantially and significantly improve our ability to 
meet visitor demands for enhanced visitor services and 
facilities. It also enhances our efforts, as Mr. Regula pointed 
out, to address maintenance backlog needs on our public lands. 
Growing numbers of Americans are visiting public lands in our 
parks, our forests, our wildlife refuges, as well as Bureau of 
Land Management Lands. Indeed, that recreation has increased 
most dramatically on Fish and Wildlife Service and Bureau of 
Land Management lands. Since 1985, recreation demand has 
increased approximately 65 percent on Bureau of Land Management 
lands, 80 percent within Fish and Wildlife Service refuges.
    The Administration strongly supports ensuring that visitors 
have outstanding recreation experiences. Fees have provided 
nearly $200 million each year in recent years that are invested 
directly at the sites where the recreation activities are 
occurring. At Chincoteague National Wildlife Refuge, for 
example, recreation fees totaled approximately 40 percent of 
that refuge's ability to add and enhance and serve the public 
for recreation activities. At Moab in Utah, recreation fees 
contributed over 69 percent of the total recreation moneys 
available to the Bureau of Land Management to build campsites, 
provide toilet facilities, provide boating ramps, and related 
infrastructure. These revenues are the backbone of special 
services to the user public, and they complement rather than 
substitute for appropriations funding provided by Congress.
    As we look at recreation and visitation patterns, we 
conclude that is it is not the agency label that is relevant. 
Many lands, regardless of which agency manages them, display 
similar features in terms of recreation activities, amenities, 
and visitation levels. Red Rock Canyon National Conservation 
Area, for example, has striking similarities to Arches National 
Park and the Sedona Recreation Area. Red Rock offers visitors 
world class rock climbing, a visitor center, bookstore, toilet 
facilities, picnic areas, and many other infrastructure. 
Chincoteague National Wildlife Refuge and Assateague Island 
National Park protects similar environmental and wildlife 
resources, and both offer visitor centers, a bookstore, toilet 
facilities, observation decks, and hunting blinds.
    Our visitor surveys show strong support for the recreation 
fee program when these dollars are invested back on the site to 
better serve visitors. We support provisions in H.R. 3283 that 
keep a majority of recreation fees at the site to enhance 
visitor facilities and services. Visitors have come to count on 
the extra services and special amenities that these fees have 
enabled us to provide. At Lake Havasu, for example, there are 
now over 3.1 million annual visits. To serve these visitors, 
the Bureau of Land Management has replaced 50 leaking and 
deteriorating fiberglass outhouses and 36 block wall accessible 
restrooms. They have installed 700 feet of river bank block 
walls and used the recreation fees to now maintain this very 
substantial infrastructure.
    We are aware of concerns that some Members of Congress 
have, particularly concerns that fees might be charged where no 
recreation amenities exist. H.R. 3283 would address this issue. 
Many of these concerns arise from practices applied during the 
experimental introduction of fees at the outset of the Fee Demo 
Program. All agencies have learned from those experiences, and 
we have made adjustments to address public concerns.
    All Interior agencies now have discipline processes for 
making determinations regarding the introduction of recreation 
fees. At the Bureau of Land Management, most locations must 
first be designated in a land use plan as a special recreation 
management area with the sort of public engagement and 
involvement that Mr. Udall has suggested. This process includes 
notice in the Federal Register and several opportunities for 
public comment and ultimate approval by the state director as 
well as an appeals process.
    The Fish and Wildlife Service similarly has a rigorous 
review process and public engagement as they develop proposals 
for fee sites. Using these management procedures, the result 
for Interior has been that a very small percentage of Fish and 
Wildlife Service and BLM sites actually utilize recreation 
fees. Eighty-nine percent of BLM sites do not charge fees. 
Seventy-eight percent of Fish and Wildlife sites do not charge 
fees.
    We believe another key provision as we move forward with 
fees is to develop collaborative partnerships that allow 
counties that provide services to visitors to share revenues 
and maintain the nexus between the visitors who pay the fees 
and the benefits. H.R. 3283 would provide for the creation of 
regional multi-entity passes so that Federal, state, and local 
sites can provide visitors with combined and streamlined 
quality recreation. This is exactly the model that we are now 
using at places like Sand Flats where we also have a 
cooperative agreement with the county, and the county actually 
collects the fees and we jointly manage state lands and BLM 
lands for recreation services.
    Mr. Chairman and Members of the Committee, we believe that 
H.R. 3283 would translate our experiences over the past several 
years into a permanent fee program that would enable us to 
better serve the public, continue to enhance the infrastructure 
that they have, and be the best that we can be. I look forward 
to any questions you might have and appreciate your strong 
interest in this issue.
    Thank you very much.
    [The prepared statement of Ms. Scarlett follows:]

    Statement of P. Lynn Scarlett, Assistant Secretary for Policy, 
         Management and Budget, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3283, a bill to improve 
recreational facilities and visitor opportunities on Federal 
recreational lands by reinvesting receipts from fair and consistent 
recreational fees and passes, and for other purposes.
    The Department of the Interior (Department) strongly supports H.R. 
3283, and we along with the Forest Service would like to offer several 
technical amendments. The establishment of a permanent multiagency 
recreation fee program would allow us to meet visitor demands for 
enhanced visitor facilities and services on our federal lands. The 
recreation fee program is vital to our ability to provide our visitors 
with a quality recreational experience. It significantly enhances the 
Department's efforts to support the President's initiative to address 
the deferred maintenance backlog at our National Parks and enables us 
to better manage other federal lands. H.R. 3283 would allow the 
agencies the certainty that is needed to better-serve visitors by 
making long-term investments, streamlining the program, and creating 
more partnerships.
    Our federal lands boast scenic vistas, breathtaking landscapes, and 
unique natural wonders. On these lands, many patriotic symbols, 
battlefields, memorials, historic homes, and other types of sites tell 
the story of America. Federal lands have provided Americans and 
visitors from around the world special places for recreation, 
education, reflection, and solace. The family vacation to these 
destinations is an American tradition. We want to ensure that the 
federal lands continue to play this important role in American life and 
culture. Fulfilling this mission requires that we maintain visitor 
facilities and services, preserve natural and historic resources, and 
enhance visitor opportunities. Such efforts require an adequate and 
steady source of funding that can quickly respond to increases in 
visitor demand. Recreation fee revenues provide us important 
supplemental funding that better enables us to serve those using 
recreation amenities.
    Although recreation fees date back to 1908, Congress first 
established broad recreation fee authority in 1965 under the Land and 
Water Conservation Fund (LWCF) Act. In enacting this authority, 
Congress acknowledged that the visitors to federal lands receive some 
benefits that do not directly accrue to the public at large and that 
charging a modest fee to that population is equitable to the user and 
fair to the general taxpayer. In 1996, Congress took that idea one step 
further when establishing the Recreation Fee Demonstration (Fee Demo) 
program for the National Park Service (NPS), the Bureau of Land 
Management (BLM), the U.S. Fish and Wildlife Service (Fish and Wildlife 
Service), and the U.S.D.A. Forest Service (Forest Service). During the 
105th Congress, a House Appropriations Committee Report noted that the 
Fee Demo program was developed in direct response to the federal 
agencies' concern over their growing backlog maintenance needs. The Fee 
Demo program allowed participating agencies to retain a majority of 
recreation fees at the site collected and reinvest those fees into 
enhancing visitor facilities and services. This authority was 
deliberately broad and flexible to encourage agencies to experiment 
with their fee programs. Congress has demonstrated its support of the 
Fee Demo program by extending the program seven times and expanding the 
program by lifting the initial one hundred site limit per agency.
    H.R. 3283 reflects the lessons we have learned in implementing the 
Fee Program over the last eight years by creating a permanent 
multiagency recreation fee program that balances the desire to restrict 
authority only to sites where an investment is made in visitor 
facilities or services with the need to provide enough flexibility to 
meet the changing recreation demands of our visitors. We would like to 
share our views on some of the key provisions of this bill as well as 
some of our observations about recreation activity on federal land.

A Multiagency Permanent Recreation Fee Program
    We strongly agree with H.R. 3283's creation of a multiagency 
permanent recreation fee program. The Department has found that the 
pattern of recreation on our federal lands has changed dramatically. 
National Parks continue to be a destination favorite for American 
families. However, more than ever, Americans also are choosing to 
recreate on lands managed by other federal agencies, such as BLM and 
the Fish and Wildlife Service. Since 1985, recreation demand has 
increased approximately 65 percent on BLM lands and 80 percent on 
National Wildlife Refuges. Over the same time period, the Bureau of 
Reclamation estimates an increase of 12.5 percent or 10 million 
recreation visits for a total of 90 million visits to their 288 lakes. 
With this increase in visitation is an increase in visitor demand for 
adequate visitor facilities and services. Because many of our visitors 
do not distinguish among federal land management agencies, many expect 
to find the same amenities typically provided at National Parks, 
including hosted campgrounds, permanent toilet facilities, and potable 
drinking water. This increase in visitor use on these other federal 
lands also creates a greater need to expend funds to protect natural 
and cultural resources--the resources that are often the very reason 
visitors are drawn to the particular site. A permanent multiagency 
recreation fee program allows each agency to respond to the needs of 
the visiting public.
    Many lands, regardless of which agency manages them, display 
similar features in terms of recreation activities, amenities, and 
visitation levels. For example, Red Rock Canyon National Conservation 
Area (NCA), managed by the BLM, has striking similarities to Arches 
National Park, managed by NPS and to Sedona Recreation Area, managed by 
the Forest Service. Both Red Rock Canyon NCA and Arches National Park 
were created to protect their unique geological features and offer 
visitors world-class rock-climbing, a visitor center, book store, 
toilet facilities, and picnic areas. Both sites charge a modest 
recreation fee, a majority of which stays at the site to enhance 
facilities and services. As in other BLM sites, visitation at Red Rock 
Canyon NCA has increased substantially in recent years. Visitation 
increased 5.5 percent from 761,445 recreation visits in FY 2001 to 
803,451 recreation visits in FY 2003.
    Chincoteague National Wildlife Refuge and Assateague Island 
National Seashore both protect exceptional beaches, maritime forests, 
saltwater marshes, wild horses, Atlantic flyway and migratory bird 
sanctuaries, and cultural resources. These sites offer visitors similar 
amenities such as a visitor center, a bookstore, toilet facilities, 
observation decks, and hunting blinds. In FY 2003, the park received 
approximately 2 million recreation visits on its 39,723 acres while the 
refuge received approximately 1.5 million recreation visits on its 
14,062 acres. The park has two entrance stations, and the refuge has 
one entrance station and several public boat landings. Both sites 
charge a modest recreation fee, a majority of which stays at the site 
to enhance facilities and services. To accommodate visitors' enjoyment 
of both sites and to minimize fee layering, the park and the refuge 
have entered into a reciprocal fee agreement. A visitor who purchases a 
single visit entry or a site specific annual pass at either the refuge 
or park or holds a National Parks Pass or a Federal Duck Stamp can 
enter either site for no additional fee.

[GRAPHIC] [TIFF OMITTED] T3531.001


    As with some National Parks, recreation fees can represent a 
substantial contribution to a FWS or BLM site's total budget. In Moab, 
Utah, recreation fees contribute over 69 percent of the total 
recreation budget. Recreation fees total $500,000 while the recreation 
resource management appropriations total $196,000. In Chincoteague 
National Wildlife Refuge, recreation fees totaled approximately 40 
percent of that refuge's base budget in FY 2003. Chincoteague collected 
just over $650,000 in recreation fee revenues and its base budget and 
maintenance project money was approximately $1,655,500 that year.

A Permanent Multiagency Recreation Fee Program that is Limited to Areas 
        that Provide Enhanced Facilities or Services
    We understand that our visitors seek a broad range of experiences 
when they choose to visit their federal lands and that a successful 
recreation fee program would enable us to offer these recreation 
options to the public. H.R. 3283 would provide this opportunity by 
limiting the program to areas where the visitors are provided enhanced 
facilities and services. Some visitors, for example, choose our federal 
lands because they want a unique individualized experience with 
nature--they seek out areas where they can camp under the stars at 
undeveloped sites, hike alone along a river, and enjoy the solitude. 
These visitors do not mind carrying all of their food in and all of 
their garbage out, and they would prefer areas that do not have picnic 
tables, toilet facilities, or visitor centers. Even under the broad 
authority of the Fee Demo program:
    <bullet>  89 percent of BLM sites do not charge Fee Demo fees;
    <bullet>  78 percent of FWS sites open to visitation do not charge 
Fee Demo fees;
    <bullet>  75 percent of all Forest Service sites do not charge Fee 
Demo fees; and
    <bullet>  40 percent of all NPS sites do not charge Fee Demo fees.
    In contrast, we understand that other visitors enjoy a more 
structured recreation experience. These visitors enjoy viewing 
interpretive films, attending lectures about geology, history and 
culture at a visitor center or museum, and riding trams or other types 
of transportation to see the sites. Their preferred lodging is a 
developed cabin or hotel. For these reasons, these visitors often 
choose to visit destination National Parks.
    Still other visitors prefer a little bit of both experiences. These 
visitors often visit areas managed by one of many different agencies, 
including the BLM, FWS, and the Forest Service. These visitors enjoy a 
less structured experience and more direct interaction with the land 
and its unique resources, but still want certain facilities, such as 
toilet facilities, interpretive exhibits, boat ramps, and developed 
parking areas. Other areas that appeal to these visitors are the 
popular weekend destinations that are located near major urban centers. 
Because of the sheer number of visitors at these locations, the need 
for visitor services increases. Such services include increased medical 
and emergency services, increased maintenance of toilet facilities and 
trails, and greater protection of natural, cultural, and historic 
resources. Modest recreation fees that primarily stay at the site of 
collection make such enhanced facilities and services possible.
    To ensure that the Recreation Fee Program enhances the recreation 
experience for our visitors, BLM and FWS have made a commitment not to 
charge basic or expanded recreation fees:
    <bullet>  At areas with no facilities or services;
    <bullet>  For persons who are driving-through, walking-through, or 
hiking through federal lands without using the facilities or services;
    <bullet>  For undesignated parking; and
    <bullet>  For overlooks or scenic pullouts.
    Through the Interagency Recreation Fee Leadership Council (Fee 
Council), which was created in 2002 to facilitate coordination and 
consistency among high-level officials of the Department of the 
Interior and U.S. Department of Agriculture (USDA), the Department also 
identified seven principles critical to a successful fee program. These 
guiding principles indicate that fees should be: 1) beneficial to the 
visiting public; 2) fair and equitable; 3) efficient; 4) consistent; 5) 
implemented collaboratively; 6) convenient; and should 7) provide for 
accountability to the public. The Department has committed to applying 
these guiding principles to any administrative and legislative effort 
concerning the recreation fee program.
    Toward this end, all agencies have administrative processes to 
limit the expansion of the program to areas where the visitors are 
provided enhanced facilities and services. For BLM, areas with entrance 
or use fees must first be designated a Special Recreation Management 
Area (SRMA). These designations are made in land-use plans and require 
publication in the Federal Register, environmental analysis and public 
participation. Any change in nationwide fees, including those that 
impact commercial, competitive, and organized groups, requires BLM to 
publish notice in the Federal Register. For changes to Recreation Use 
Permits, BLM provides opportunities for the public, user groups and 
gateway communities to get involved when establishing or designating a 
fee area or establishing fees. Every addition or modification to the 
fee program in the FWS requires the development of a proposal and 
approval by the Director.
    In the Cascade Resource Area that spans 169,400 acres, BLM only 
charges an entrance fee at one 550 acre area with developed recreation, 
the Wildwood Recreation Site. Thus, visitors who seek a more natural 
experience and do not wish to use facilities and services can recreate 
free of charge in over 99 percent, or 168,850 acres, of the Cascade 
Resource Area. Those who choose to use the facilities and services at 
the Wildwood Recreation Site, which include a learning center, the 
Cascade Streamwatch interpretive trail featuring an in-stream fish 
viewing window, a wetlands boardwalk trail, 2.5 miles of paved trails, 
two large group picnic shelters, and an athletic field, pay a modest $3 
per vehicle per day fee, $10 for an annual site pass, or a group 
facility fee. Visitors who walk-in or bike-in and school groups can use 
the Wildwood Recreation Site free of charge. Although construction of 
most of the facilities was paid for out of other funds, just as it is 
in many National Park Service sites, recreation fees provided the site 
with $37,000 in FY 2003, a modest, but significant, contribution to the 
maintenance and upkeep of the facilities. These services, along with 
environmental education and interpretive programs, enhance the visitor 
experience and would not be possible without the recreation fee 
program.
    At Moab, Utah, BLM manages 1.8 million acres. Portions of these 
lands consist of dramatic geologic structures and canyons through which 
the Colorado River cuts. The area has become a premier destination for 
mountain bikers, campers, rock climbers, and off-road vehicle 
enthusiasts. To provide opportunities for these visitors, BLM has 
constructed and manages around 400 campsites, groomed and marked miles 
of trails with signage, provided toilet facilities, and other 
amenities. These sites attract over 1.6 million visitors annually. The 
recreation fees charged at these sites generate over $500,000, 
comprising two-thirds of the recreation management budget for these 
areas. At another area near Moab, BLM operates under a joint agreement 
to provide biking, camping, and off-road vehicle opportunities in an 
area that includes BLM and State Lands. Through a recreation fee, the 
partners generate over $250,000, which enables them to offer trails, 
toilets, signage, campgrounds, paved parking, and other amenities. 
Other BLM areas are open to recreation, free of charge for visitors.
    These areas abut Arches National Park and Canyonlands National 
Park, where entry fees are charged. The two parks have 94 campsites, 
small amounts of OHV recreation opportunities and offer educational and 
interpretation at the visitor centers and around the parks. The NPS, 
BLM and Forest Service jointly participate with a County association in 
operating a downtown visitor center in the heart of Moab.

A Permanent Multiagency Program that Provides for Standardized 
        Recreation Fees, Allows for Development of a Streamlined Pass 
        System, and Minimizes Fee Layering
    H.R. 3283 would standardize recreation fees and provide the 
authority to create a streamlined pass system that allows for creative 
options based on visitor demand. In working administratively to improve 
the recreation fee program, the Department has found that the issues of 
standardizing recreation fees across agencies, creating a streamlined 
and sensible pass system, and minimizing fee layering--or what might 
better be thought of as tiered fees--are all interrelated. Historical 
fee definitions in the LWCF Act and differences among agencies in 
legislative fee authorities have led the agencies to develop slightly 
different definitions of what activities are covered by ``entrance'' 
fees and those covered by ``use'' fees. The result has been that, at 
some sites, a use fee was established rather than an entrance fee, and 
at other sites, an additional use fee was charged for the primary 
attraction of the site when the activity should have been covered by an 
already-paid entrance fee. The lack of consistency among and within 
agencies has led to visitor confusion and some expression of 
frustration about fee layering and the related issue of when the Golden 
Passes established under the LWCF Act and the National Park Passport 
may be used.
    In the Department's testimony before this Congress during the 107th 
Congress, we proposed addressing these concerns by creating a new 
system of ``basic'' and ``expanded'' recreation fees that would be 
consistently applied across all agencies and would minimize fee 
layering by ensuring that the basic fee covers the primary attraction 
of the site. Under this system, restrictions would be put in place to 
ensure that the visiting public is not charged if the agency is not 
making a certain level of investment in visitor facilities or services. 
H.R. 3283 contains such important provisions.
    The Department supports the provisions in H.R. 3283 that would 
allow for the streamlining of a multiagency pass and the creation of 
regional multientity passes with a standardized package of benefits. 
The visiting public is interested in having a variety of pass options. 
Multiagency and regional passes can provide visitors, including nearby 
residents, with convenient and economical ways to enjoy recreation on 
federal lands. Passes also can serve as a means to educate the American 
public about their federal lands and available recreational 
opportunities. Because of the lack of standardization of fees, however, 
some confusion has resulted from the existing pass system. Visitors 
should be able to expect and receive the same amenities for their pass 
regardless of which agency manages the site they are visiting.
    The Department and USDA have moved forward administratively to 
address these issues, where possible. Although we are retaining the 
LWCF terminology, the agencies are making adjustments to standardize 
the classification of fees to decrease visitor confusion about the 
passes and minimize fee layering. For example, the Forest Service has 
expanded and clarified the benefits of the Golden Passes to include 
1,500 additional sites. The previous pass policy at those sites was 
extremely confusing: the Golden Eagle Pass was not accepted; Golden Age 
and Access passholders were given a 50 percent discount; while a 
regional pass, like the Northwest Forest Pass, was accepted in full. 
NPS is evaluating whether passes could be accepted at an additional 30 
sites that currently do not accept passes for the primary attraction. 
BLM has evaluated all of its sites and is now accepting the Golden 
Eagle Pass at 12 additional sites.
    The Department is streamlining the recreation fee system. Our 
experience has shown that eliminating all fee-tiering is neither fair 
nor equitable, especially for specialized services such as camping, 
reservations, enhanced tours, or group events. The notion behind 
charging a fee beyond the basic recreation fee is that certain 
recreation activities require additional attention by agency staff or 
involve costs that should not be borne by the general public through 
taxpayer funds or by the rest of the visiting public through the basic 
recreation fee. The system must balance fairness and equity principles 
by carefully considering the relationship between who pays and who 
benefits.
    Another important consideration is fee levels. The Department is 
committed to ensuring access to all visitors. Recreation fees represent 
a tiny percentage of the out-of-pocket costs that an average family 
spends on a typical vacation. Recreation fees are reasonable in 
comparison to those charged for other recreational activities. For 
example, in Jackson Hole, Wyoming, a family of four pays $20 for a 
seven day pass to both Grand Teton National Park and Yellowstone 
National Park. In contrast, in Jackson Hole, the same family pays 
$27.50 for 2-3 hours of entertainment at a movie theatre.

A Permanent Multiagency Program That Ensures that a Majority of 
        Recreation Fees Stay at the Site to Enhance Visitor Facilities 
        and Services
    Visitor support of recreation fees is strong when the fees remain 
at the site for reinvestment into visitor facilities and services. H.R. 
3283 would do this by ensuring that not less than eighty percent of the 
recreation fees collected remain at the site of collection. We believe 
that this is an essential component of any permanent multiagency 
recreation fee program. We understand that it is not only important to 
make these critical investments, but also to ensure that we communicate 
to the public how recreation fees are spent to enhance the visitor 
experience. Recreation fees are sometimes spent in ways that may not be 
apparent, but would be noticed by visitors if the investment did not 
occur. Recreation fees are spent on such services as maintaining and 
upgrading toilet facilities, trails, and parking lots. For example, at 
Moab, Utah, which receives over 1 million visitors annually, it costs 
BLM $50,000 per year just to service the toilet facilities.
    At the Lake Havasu Field Office in Arizona, BLM has replaced 50 
leaking and deteriorating fiberglass outhouses with 36 block wall 
accessible restrooms. BLM also has installed 700 feet of riverbank 
block walls, which will help protect the newly constructed restrooms as 
well as stabilize the campsites' eroding shoreline. Recreation fees 
contribute to the maintenance and upkeep of these investments and will 
help ensure that the visiting public will be able to use these 
facilities for many years in the future.
    The Fish and Wildlife Service has used fees to offer some unique 
opportunities to visitors consistent with the six priority recreation 
uses outlined in the National Wildlife Refuge System Improvement Act of 
1997--hunting, fishing, wildlife photography, wildlife observation, 
environmental education, and interpretation. At California's Modoc 
National Wildlife Refuge, the Fish and Wildlife Service used recreation 
fees to benefit hunters and photographers by replacing an old hay bale 
blind with a new wooden, more accessible hunting and photo blind, 
complete with access ramp. At the National Elk Refuge, the Fish and 
Wildlife Service collects an Elk hunt permit recreation fee of $1 per 
hunter at the weekly hunter drawings in October, November, and 
December. These recreation fees are used to rent a fair pavilion 
building from the county to conduct refuge hunt orientation and permit 
drawings at the beginning of each hunting season. Hundreds of hunters 
attend each year. In addition, the modest recreation fee allows the 
Fish and Wildlife Service to purchase retrieval carts and sleds for the 
hunters' use and shooting sticks to encourage ethical hunting.
    As public recreation grows in scope and form of recreation, 
increasingly, all of our land management agencies are meeting these 
needs. Sites that attract thousands of visitors each day and tens of 
thousands of visitors each year, must invest in sanitation facilities, 
parking, campgrounds, shelters, boat ramps, and other infrastructure 
that helps ensure access, safety, and resource protection so the very 
feature that attracts the visitor remains available for the future. 
Many BLM, Forest Service, FWS, and NPS sites share identical or similar 
characteristics, including significant infrastructure. These sites 
vary--not by the agency label--but by the particulars of location. Sand 
Flats, in Moab, Utah, includes BLM lands and a single point of entry 
into canyon area trails and campgrounds. The Everglades National Park 
in Florida stretches over 1.5 million acres and has multiple points of 
access. Recreation fees are charged in some parts of the park and not 
others, much like the situation on BLM lands in Moab.
    These and the many other important enhancements made possible by 
the recreation fee program are described in our annual Recreational Fee 
Demonstration Program report to Congress. All of these reports are 
available on http://www.doi.gov/nrl/Recfees/RECFEESHOME.html. The 
FY2003 annual report is currently in the final stages of review, and we 
expect to transmit it to Congress shortly.

Collaborative Partnerships with States, Counties, and Gateway 
        Communities
    We view counties and gateway communities as potential partners in 
our effort to provide a quality recreation experience for our mutually-
shared visitors. The Department supports the provisions in H.R. 3283 
that would provide the Secretary authority to enter into collaborative 
partnerships with public and private entities for visitor reservation 
services, fee collection or processing services. This provision would 
allow us, among other things, to more vigorously seek out opportunities 
to engage gateway communities through the recreation fee program and is 
consistent with Secretary Norton's emphasis on cooperation and 
partnerships to achieve public goals.
    It is critical that we recognize the positive impact the presence 
of recreation sites on nearby federal lands has on counties and gateway 
communities. According to a study entitled, Banking on Nature 2002: The 
Economic Benefits to Local Communities of National Wildlife Refuge 
Visitation, the more than 35.5 million visits to the nation's 540 
refuges fueled more than $809 million in sales of recreation equipment, 
food, lodging, transportation and other expenditures in 2002. The total 
for sales and tourism-related revenue plus employment income, $1.12 
billion in total is nearly four times the $320 million that the 
National Wildlife Refuge System received in FY 2002 for operation and 
maintenance and over 300 times the $3.6 million the FWS generated 
through the Fee Demo Program in that year.
    The collaborative partnership approach recognizes that we can work 
together with gateway communities to promote tourism by providing a 
quality recreational experience to our shared visitors. One example of 
the type of partnership that could flourish through a collaborative 
agreement provision under a permanent recreation fee program is the 
Sand Flats Agreement entered into in 1994 by BLM and the gateway 
community of Grand County, Utah, discussed earlier in this testimony. 
Sand Flats is a 7,000-acre recreational area outside Moab, Utah, that 
includes BLM and state lands. It is highly popular, particularly with 
mountain bikers and off-highway vehicle users. In the early 1990s, its 
popularity increased so much that the BLM was no longer able to manage 
and patrol the area. Looking for a creative solution, BLM entered into 
a cooperative agreement with the county under which the county would 
collect recreation fees and use them to manage and patrol the highly 
popular recreational area. The county and its citizens have benefitted 
from a more vigorous tourist trade; the BLM now has a signature 
recreation area; and visitors can safely enjoy the Sand Flats area. We 
believe that the Sand Flats Agreement is an excellent model of a 
mutually beneficial collaborative partnership and that the opportunity 
to craft these types of agreements exists across the country. 
Recreation revenues make up over 50 percent of the economy in Moab.
    Other possible collaborative partnerships with states and local 
communities could be developed through the creation of regional 
multientity passes that would be authorized under H.R. 3283. Providing 
visitors and residents of nearby communities with a well-structured, 
appropriately priced, regional multientity pass would allow for 
benefits that could extend to other federal, state, and private 
entities. Recognizing that recreation areas and the visitors who enjoy 
them do not necessarily follow state boundaries, our experience has 
shown that regional multientity passes offer greater flexibility and 
can be tailored to meet identified recreational demands. One example of 
a successful regional pass is the Visit Idaho Playground (VIP) Pass, 
which covers all entrance and certain day-use fees at a variety of 
state and federal sites including those under the jurisdiction of the 
Idaho Department of Parks and Recreation, the Idaho Department of 
Commerce, the Bureau of Reclamation, Forest Service, NPS, and BLM.
    During FY 2003, BLM, NPS, FWS, and the Forest Service worked 
cooperatively with the Oregon Parks & Recreation Department, the 
Washington State Parks & Recreation Commission, and the U.S. Army Corps 
of Engineers to develop an annual multiagency day-use recreation pass 
for use in the Pacific Northwest. This annual pass became available 
this month and will be accepted at many public day-use fee areas in 
Oregon and Washington. Revenues will be used to operate and maintain 
key recreation facilities and services. The pass will sell for $85 and 
includes the Golden Eagle Passport for $65 and the Washington and 
Oregon Recreation Pass Upgrade for $20.
    As mentioned earlier in the testimony, the Department would like to 
offer several technical amendments to H.R. 3283, and we also understand 
that the Forest Service will be offering several technical amendments 
in which we concur. We would appreciate the opportunity to work with 
the Subcommittee to discuss these issues in detail at a later date.
The Future of the Recreation Fee Program
    We have learned a great deal from our experience in administering 
the Fee Demo program and believe we are ready to translate that 
experience into a permanent recreation fee program. Delay could result 
in a lost opportunity to implement a more productive, streamlined 
recreation fee system, designed to enhance the visitor's experience. 
Establishing a permanent program does not mean the learning ends here. 
We support a dynamic recreation fee program that responds to new 
lessons learned and builds on success stories. We believe a recreation 
fee program created under H.R. 3283 would create such a dynamic program 
while providing the Department the certainty to make long-term 
investments, improve efficiencies, and initiate more partnerships.
    Mr. Chairman, we would like to thank you for your interest in this 
issue and for the opportunity to express the Department's support of 
H.R. 3283. We also would like to take this opportunity to extend our 
gratitude to Congressman Regula, for introducing this important piece 
of legislation and for his critical role in the creation and extension 
of the Fee Demo program. We would like to extend an invitation to any 
interested members of the Subcommittee and Committee for a visit to a 
BLM, FWS, or NPS Fee Demo recreation site.
                                 ______
                                 
    Mr. Peterson. Thank you very much.
    Mr. Thompson.

   STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
         SYSTEM, U.S. FOREST SERVICE, WASHINGTON, D.C.

    Mr. Thompson. Mr. Chairman and Members of the Subcommittee, 
I want to thank you for this opportunity to appear before you 
today to discuss the Department's views on H.R. 3283, the 
Federal Lands Recreation Enhancement Act.
    I am Tom Thompson, here representing the Department of 
Agriculture and Under Secretary Mark Rey. I have a few 
comments. I would like to have my full testimony in the record.
    Mr. Peterson. So ordered.
    Mr. Thompson. The Department supports H.R. 3283 and wants 
to work with the Subcommittee and the bill sponsors on 
submissions of technical correction amendments to the bill. 
While the idea of charging fees for recreation use on National 
forest has been controversial in some cases, taxpayers 
generally benefit when the cost of public services are at least 
partially borne by direct users of these services. Over the 
years, surveys conducted regarding recreation fees indicate 
that most people accept modest fees, especially when they know 
that the fees are returned to the site where they are collected 
to enhance recreation experience.
    An example of some of these surveys is included in a packet 
which I believe you all have.
    In January of 2004, the Forest Service starting 
implementing the blueprint for Forest Service recreation fees. 
The blueprint was developed based upon lessons that we have 
learned since the first years of the program and establishes a 
consistent National criteria for how the recreation fee program 
would be implemented. The Forest Service has removed over 400 
sites that no longer charge a day use fee under the fee demo. 
Some examples of these sites are in my full testimony.
    The Department supports H.R. 3283, which would establish a 
permanent recreation fee program for the Forest Service, the 
National Park Service, the U.S. Fish and Wildlife Service, and 
the Bureau of Land Management. Specifically, H.R. 3283 provides 
nine provisions for permanent recreation fee authority. The 
Department believes an essential aspect of a permanent 
recreation fee program is that the majority of fees are indeed 
retained and spent at the site where they are collected to 
enhance resources, facilities, activities, services, and 
programs used by the visiting public. In implementing public 
fee demo wherever possible and appropriate, agencies have 
coordinated fees with private local, state entities, gateway 
communities, and each other to minimize overlapping costs and 
to simplify fees for the visiting public.
    Federal lands have provided Americans and visitors from 
around the world with special places for recreation, education, 
reflection and solace, and just to make memories. The Forest 
Service has estimated that over 211 million annual visits occur 
on National forests. It is a significant increase over the last 
30 to 40 years. This increase in visitation means an increase 
in visitor demand for adequate visitor facilities and services.
    Since the inception of the Fee Demo Program in 1996, the 
Forest Service has shown that it can manage the recreation fee 
program and provide numerous benefits to the American public. 
In 2003, the agency generated $38.8 million, which has made a 
crucial difference in reducing the maintenance backlog, 
enhancing facilities, and improving visitor services and 
operations. In your packet is an example of how fee demo 
revenues help to maintain very popular OHV trials on the Wayne 
National Forest in Ohio, the same with Pennsylvania and others.
    Whether a person is visiting a day-use site like a trail 
head or recreating at a developed campground, visitors to 
public lands expect the same amenities, facilities, and 
services as those enjoying a National park. As Assistant 
Secretary Lynn Scarlett stated, examples of where the public 
does not differentiate between a land management agency, but 
expects the same amenities and use of the land in similar 
locations is the example in Nevada, Arizona, and Utah. In all 
three areas, similar recreation opportunities exist within the 
various natural settings and opportunities.
    Again, the Department supports H.R. 3283, and we have 
learned a great deal from our experiences in administering the 
Fee Demo Program over the past 8 years. It is time to make the 
recreation fee program permanent. The Department is eager to 
work with the Subcommittee, the sponsors of H.R. 3283, the 
Department of Interior, and our partners on clarifying 
amendments.
    This concludes my statement. I would be happy to answer any 
questions that you have.
    [The prepared statement of Mr. Thompson follows:]

   Statement of Tom Thompson, Deputy Chief, National Forest System, 
             Forest Service, U.S. Department of Agriculture

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
the Department's views on H.R. 3283, the Federal Lands Recreation 
Enhancement Act. The Department supports H.R. 3283 and wants to work 
with the Subcommittee and the bill sponsors on submissions of technical 
correction amendments to the bill. Specifically, the Department 
recommends clarifying that individuals who have a permanent disability 
are eligible for discount passes; commissions, reimbursements and 
discounts should be provided for private vendors who sell the Federal 
Lands Recreational Pass, how volunteers should be used; and the law 
enforcement provision.
    The Recreational Fee Demonstration program (Fee Demo), first 
authorized by Congress in 1996, has given the Forest Service, National 
Park Service, U.S. Fish and Wildlife Service, and the Bureau of Land 
Management a great opportunity to test the notion of user-generated 
cost recovery, where fees are collected and expended onsite to provide 
enhanced services and facilities. Current authorization expires on 
December 31, 2005. The Administration in its FY 2005 Budget requests 
that the recreation fee demo program become permanent. A permanent 
recreation fee program, as outlined in H.R. 3283, would allow the 
Forest Service, along with Department of the Interior agencies, the 
opportunity to make long-term investments and address maintenance 
backlogs, continue to build further on successes of the current demo 
program, improve efficiencies, and initiate more partnerships.
    A permanent recreation fee program will enhance recreational 
facilities, settings, and services for the public to use. While the 
idea of charging fees for recreational use on the national forests has 
been controversial in some cases, taxpayers generally benefit when the 
cost of public services are at least partially borne by the direct 
users of these services. Since visitors to Federal lands receive some 
benefits that do not directly accrue to the public at large, charging a 
modest fee to partially offset the cost of that use is both fair and 
equitable. This principle underlies permanent fee authority under the 
Land and Water Conservation Fund Act (LWCFA). Over the years, surveys 
conducted regarding recreation fees indicate that most people accept 
modest fees, especially when they know that the fees are returned to 
the site where they are collected to enhance their recreation 
experience.
Implementation of the Recreational Fee Demonstration Program
    Over the past eight years all agencies involved in Fee Demo have 
experimented with fees and learned many lessons. Fee Demo was designed 
to allow flexibility in implementation and to be broad enough to allow 
agencies to experiment with different types of fee programs. The 
Departments continue to study, evaluate, and improve the fee program 
within individual agencies, sharing our learning experiences along the 
way. It has taken time to understand the results of these experiences, 
but the Forest Service is moving aggressively to address concerns that 
have arisen. Based upon what we have learned, the agency has adopted 
many changes in implementing Fee Demo since the first project was 
established in 1997.
    In January 2004, the Forest Service started implementing the 
Blueprint for Forest Service Recreation Fees (Blueprint). The Blueprint 
was developed based on lessons learned in the first years of the 
program and establishes consistent national criteria for how the 
recreation fee program will be implemented. The goal of the Blueprint 
is to have a consistent national policy to provide high-quality 
recreation sites, services, and settings that enhance the visitor's 
experience and protect natural and cultural resources. By implementing 
the Blueprint, the Forest Service is addressing public and 
Congressional concerns to ensure recreation fees are: (1) convenient 
(making it as easy as possible for visitors to comply with fee 
requirements); (2) consistent (visitors expect a similar fee for 
similar activities, facilities, and services; thus a fee program will 
be established only where certain amenities or services are provided); 
(3) beneficial (demonstrating the added value the visitor receives in 
exchange for fees); and (4) accountable (building trust by informing 
the public of program investments and performance).
    Each unit that is participating in Fee Demo has reviewed how its 
current fee program fits with the Blueprint. Those projects that did 
not conform to the national criteria have been changed. All new 
projects will follow the Blueprint criteria. Some changes that have 
been made include:
    <bullet>  The Enterprise Forests in Southern California (the 
Angeles, Cleveland, Los Padres and San Bernardino National Forests) 
that have implemented the Adventure Pass Program have identified four 
free areas where the pass is not required, in addition to designating 
12 free days for all sites where a fee will not be charged. This 
approach was implemented in response to public comments to provide 
areas where a fee will not be charged on the national forests covered 
by the Adventure Pass;
    <bullet>  The National Forests in Oregon and Washington have 
identified 385 sites where a pass will not be required on those forests 
implementing the Northwest Forest Pass program. This change will mean 
that only 679, instead of 1,064, day-use recreation sites on national 
forests in the Pacific Northwest will be included in the Northwest 
Forest Pass; and
    <bullet>  Twenty-one trailheads have been removed from the Sawtooth 
National Forest Trailhead-Parking Pass Recreation Fee Project. Only 17 
of the 38 trailheads in the Sawtooth project met the Blueprint 
criteria. The Agency will no longer charge fees at the 21 trailheads 
that do not meet the definition for a significantly developed day-use 
site.

H.R. 3283--the Federal Lands Recreation Enhancement Act
    The Department supports H.R. 3283, which would establish a 
permanent recreation fee program for the Forest Service, the National 
Park Service, the United States Fish and Wildlife Service and the 
Bureau of Land Management, but would like to work with the Subcommittee 
and bill sponsors on the submission of technical correction amendments 
to clarify the bill. Specifically, H.R. 3283 provides: (1) 
establishment of principles for a recreational fee program; (2) 
promotion of interagency coordination; (3) establishment of an 
interagency national pass; (4) collaborative agreements with Federal, 
State, county, or gateway communities; (5) establishment of site-
specific agency and regional multi-entity passes; (6) provision for 
basic and expanded recreation fees; (7) communication with the public 
regarding use of revenues; (8) provision of additional authorities to 
implement the program; and (9) provision of criteria for accountability 
and control of revenues collected.

1. Establishment of Principles for a Recreational Fee Program
    Section 2(b) in H.R. 3283 would establish seven principles for 
implementing a permanent recreation fee program, i.e., that fees should 
be beneficial to the visiting public, fair and equitable, efficient, 
collaborative, convenient, accountable, and consistent. These are the 
same guiding principles established by the Interagency Recreational Fee 
Council (Fee Council) in 2002. The Fee Council, chaired by Assistant 
Secretary Lynn Scarlett and Under Secretary Mark Rey, was developed to 
provide leadership and consistency for the agencies implementing Fee 
Demo. The Department believes an essential aspect of a permanent 
recreation fee program is that the majority of fees are retained and 
spent at the site where they are collected to enhance resources, 
facilities, activities, services, and programs used by the visiting 
public. In implementing these guiding principles the agencies, wherever 
possible or appropriate, have coordinated fees with private, local, and 
State entities and each other to minimize overlapping costs and 
simplify fees for the visiting public.
    Federal lands have provided Americans and visitors from around the 
world with special places for recreation, education, reflection and 
solace. The pattern of recreation on our Federal lands has changed 
dramatically and has increased significantly. More than ever before, 
Americans are choosing to recreate on all Federal lands, in particular 
on National Forests. The Forest Service has estimated that over 211 
million annual visits occur on National Forests, a two-fold increase 
since the 1960s. This increase in visitation means an increase in 
visitor demand for adequate visitor facilities and services.
    Since the inception of Fee Demo in 1996, the Forest Service has 
shown it can manage a recreational fee program that provides numerous 
benefits to the American public. Fee Demo has generated over $161 
million to enhance the visitor experience at 105 projects in 123 
National Forests and National Grasslands across 36 States and Puerto 
Rico. In 2003, the Agency's program generated $38.8 million. The funds 
from this program have made a crucial difference in providing quality 
recreation services to the public, reducing the maintenance backlog, 
enhancing facilities, improving visitor services and operations, 
strengthening public safety and security, developing new partnerships, 
educating America's youth, and conserving natural resources. Some 
examples of these benefits include:
    <bullet>  Maintaining 465 miles of trail on the Deschutes National 
Forest in Oregon;
    <bullet>  Removing hazardous trees along a 92-mile trail system on 
the Wayne National Forest in Ohio in 2003 to reduce the danger of 
fallen trees and hanging limbs across 45,000 acres after a heavy ice 
storm;
    <bullet>  Installing target walkways, shooting tables, and a sound 
abatement berm at the Scioto Shooting Range on the Cherokee National 
Forest in Tennessee;
    <bullet>  Replacing 8 picnic tables, 40 fire rings with grills, and 
1 water tank on the Klamath National Forest in California; and
    <bullet>  Upgrading concrete walkways and paths for better 
accessibility at the Payette River Recreation Complex on the Payette 
National Forest.

2. Promotion of Interagency Coordination
    H.R. 3283 would authorize an interagency recreation fee program by 
allowing the Secretary to establish guidelines for implementing a 
permanent recreation fee program. Such a program would enhance 
coordination among agencies and create a seamless, collaborative, 
efficient, and effective fee program that is well understood by the 
public. The program would give Federal land management agencies an 
opportunity to improve the recreational facilities under their 
management and enhance the experience of the visiting public. Whether a 
person is visiting a day-use site like a trailhead, or recreating at a 
developed campground, visitors to public lands expect the same 
amenities, facilities, and services as those enjoying a national park.
    As Assistant Secretary Lynn Scarlett stated, examples of areas 
where the public does not differentiate between land management 
agencies, but expects the same amenities and use of the land in similar 
locations, is the red rocks areas in Nevada, Arizona, and Utah. 
Visitors to these areas can recreate on lands managed by the Bureau of 
Land Management (Red Rock Canyon National Conservation Area in Nevada), 
lands managed by the Forest Service (the Sedona Red Rocks Area in 
Arizona), and lands managed by the National Park Service (Arches 
National Park in Utah). In all three areas, similar recreation 
opportunities exist within the various natural settings and 
opportunities vary depending on the area selected. Public expectations 
in most instances, though, for the same amenities and services in each 
area are the same.
    Some examples of interagency efforts to create a seamless, 
consistent fee program include:
    <bullet>  In April 2003, the Forest Service dramatically broadened 
the application of the Golden Eagle Passport program to provide 
interagency application and benefits. This change was based on guidance 
from the Fee Council, which worked to facilitate coordination and 
consistency among the agencies on implementation of recreation fee 
policies. The Council developed standards for a new fee structure to 
replace the outdated entrance and use fees established under the LWCFA. 
Using the framework of this new fee structure, the agency started 
accepting the Golden Eagle, Golden Age, and Golden Access Passports at 
all Forest Service sites that charge a basic fee. Previously, only 18 
Forest Service sites accepted these passports; now over 1500 sites 
accept them.
    <bullet>  Starting in March 2003, Federal and State agencies in 
Washington and Oregon are for the first time offering a convenient 
interagency day-use recreation pass that is accepted at many public 
day-use fee areas. The Washington and Oregon Recreation Pass is an add-
on to the existing Golden Eagle Passport program and will be honored at 
all National Forest, National Park Service, Bureau of Land Management, 
and U.S. Fish and Wildlife Service sites, in addition to 26 Oregon 
State Parks charging a day-use fee, 20 Washington State Parks charging 
a daily vehicle parking fee, and 6 Army Corps of Engineers sites 
charging facility use fees.

3. Establishment of an Interagency National Pass
    Section 8 in H.R. 3283 would create an interagency national pass 
called America the Beautiful--the National Parks and Federal 
Recreational Lands Pass. This pass system would consolidate the Golden 
Passport program established under the LWCFA and the National Parks 
Passport (established in 2001), into an interagency pass to decrease 
visitor confusion. Currently the Golden Eagle, Golden Age, and Golden 
Access Passports are accepted on Forest Service units that charge an 
entrance or basic use fee. However, the National Parks Pass is not 
accepted on those units, as this pass is valid only at National Parks, 
unless the pass has been upgraded with a Golden Eagle hologram. An 
interagency national pass would provide value to recreational users of 
Federal lands managed by multiple agencies. This type of pass would 
provide a convenient, cost-effective alternative to the purchase of 
multiple-agency passes.

4. Collaborative Agreements with Federal, State, County, or Gateway 
        Communities
    Section 4 in H.R. 3283 would allow the Secretary to establish 
agreements with any governmental or nongovernmental entities to provide 
fee collection and processing services, including visitor reservation 
services. This section would provide authority for Federal land 
management agencies to engage in partnerships with State, county, other 
Federal agencies, gateway communities, or local organizations in 
implementing a permanent recreational fee program. Partnerships allow 
the Federal land management agencies to enlist others to help meet the 
recreational demand of the visiting public.
    The Agency has developed numerous partnerships and agreements over 
the years to help us to deliver a successful program. Along the South 
Fork of the Snake River in Idaho, a partnership between Federal, State, 
and local entities has evolved to cooperatively manage recreation sites 
spread along a 62-mile stretch of the Snake River. The use of fees 
collected from boat launching and other activities in the river 
corridor is determined on a consensus basis by the partnership, 
regardless of which jurisdiction collects the fee. The partnership 
includes the Forest Service (Caribou-Targhee National Forest), the 
Bureau of Land Management, the Idaho Department of Fish and Game, and 
Madison, Bonneville, and Jefferson Counties. Revenues from the project 
have been used to provide restroom facilities and litter control along 
the river.
    The Forest Service has established fee management agreements that 
have helped the agency provide needed safety and emergency services at 
recreation sites. In Arizona, the Tonto National Forest has an 
agreement with the Maricopa and Gila County Sheriff's Offices to 
provide additional law enforcement personnel and emergency medical 
service teams at recreation lakes on busy weekends and holidays.

5. Establishment of Site-Specific Agency and Regional Multi-Entity 
        Passes
    H.R. 3283 would allow agencies to establish site-specific agency or 
regional multi-entity passes in addition to an interagency national 
pass. In some cases, regional passes meet the needs of visitors who 
want to recreate only in a certain area or state. The Washington and 
Oregon Recreation Pass is a good example of a regional pass that 
crosses many jurisdictional boundaries. Another example of a regional 
pass is the Visit Idaho Playground Pass.
    The Visit Idaho Playground Pass is an interagency program operated 
by the Forest Service, Bureau of Land Management, Bureau of 
Reclamation, National Park Service, and the Idaho Department of Parks. 
The pass is valid for those who choose to recreate on Federal lands in 
Idaho. Passes are available for purchase via a website or a toll-free 
number for visitor convenience. Revenues are shared according to a 
formula in the business plan, and directed back to the recreation sites 
for improvements in facilities and services.

6. Provision for Basic and Expanded Recreation Fees
    Sections 5 and 6 in H.R. 3283 would allow the Secretary to charge a 
basic or an expanded fee in certain locations and sites on National 
Forests. This new system of basic and expanded recreation fees would 
minimize layering, which has resulted from agencies charging both 
entrance and use fees at the same site, based on fee practices carried 
over from the LWCFA. Under the LWCFA, entrance fees can be charged only 
at certain sites, such as a national park or a national monument. Use 
fees are charged for use of a site or facility, not entrance into a 
particular site. The current entrance and use fee structure has created 
some inconsistency among and within agencies, which has led to visitor 
confusion and frustration about what constitutes an entrance fee and 
what constitutes a use fee.
    Under the new system identified in H.R. 3283, the basic fee would 
be charged by all Federal land management agencies in an area that has 
some expenditure in services and facilities, and an expanded fee would 
be charged for additional facilities or amenities, such as a developed 
campground or boating area, for specialized interpretative services, or 
for a transportation system.

7. Communicating with the Public Regarding Use of Revenues
    Section 11 of H.R. 3283 states that the Secretary shall post clear 
notice of the basic recreation fee and available recreation passes at 
appropriate locations in each unit or area of a Federal land management 
agency where a basic recreation fee is charged, and shall post clear 
notice of locations where work is performed using collected recreation 
fee or recreation pass revenues. The Department believes that any 
permanent recreation fee authority should provide for the agencies to 
be accountable to Congress and the public by reporting where revenues 
are being expended and identifying what work has been accomplished 
using collected fees.

8. Provision of Additional Authorities to Implement the Program
    H.R. 3283 provides additional authority for the use of volunteers 
and law enforcement and security with respect to fee collection and 
establishes guidelines for depositing and distributing fee revenues. On 
some National Forests, the Agency has implemented Fee Demo utilizing a 
large cadre of volunteers to sell recreation fee passes, maintain 
trails, clean facilities, refurbish buildings and archaeological sites, 
and provide educational programs. Without volunteers in many instances, 
work would not get accomplished and fee revenues would not be leveraged 
with partner funding to complete projects. H.R. 3283 would allow the 
Secretaries to award a fee waiver, a discount, or an interagency 
national or regional pass in exchange for significant volunteer 
services.
    An important component of a permanent recreation fee program is 
enforcement of fee payment and security for receipts, which H.R. 3283 
establishes in Section 15 of the bill. For implementation to be fair 
and equitable, a recreation fee program must ensure that everyone who 
uses facilities and services for which a fee is charged pays the fee. 
Security of the revenues collected and the Federal equipment used to 
collect the fees must be provided in any permanent recreation fee 
program.

9. Provision of Criteria for Accountability and Control of Revenues 
        Collected
    Accountability is one of the guiding principles established by the 
Fee Council. In accordance with this principle, the Forest Service is 
collecting good data and reporting annually to Congress on 
administration of Fee Demo. Fee Demo revenues and expenditures are 
accounted for separately from appropriated funds, which is consistent 
with program authority and Federal accounting standards. H.R. 3283 
would allow the Secretaries to work with the Secretary of the Treasury 
to establish separate accounts to track fee revenues and expenditures.
Conclusion
    The Department supports H.R. 3283 and we've learned a great deal 
from our experiences in administering Fee Demo over the past eight 
years. It is time to make the recreational fee program permanent. The 
Department is eager to work with the Subcommittee, the sponsors of H.R. 
3283, the Department of the Interior, and our partners on clarifying 
amendments. This concludes my statement. I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Peterson. Thank you Mr. Thompson.
    Mr. Hill.

 STATEMENT OF BARRY T. HILL, DIRECTOR, NATIONAL RESOURCES AND 
 ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE, WASHINGTON, D.C.

    Mr. Hill. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am pleased to be here today to discuss H.R. 
3283, and if I may, I would like to summarize my statement and 
request that my full statement be included in the record.
    Mr. Peterson. Without objection.
    Mr. Hill. H.R. 3283 proposes, among other things, to 
establish a permanent recreation fee program for certain 
Federal land management agencies and to standardize certain 
visitor fees. For many years, the Congress has sought to 
identify programs that would help Federal land management 
agencies provide high quality recreation opportunities for 
visitors while at the same time protecting their resources. 
Accordingly, in 1996, the Congress authorize the Recreation Fee 
Demonstration Program.
    Under this program, the Bureau of Land Management, Fish and 
Wildlife Service, National Park Service, and Forest Service are 
authorized to establish, charge, collect, and use fees at a 
number of sites to, among other things, enhance visitor 
services, address a backlog of needs for repair and 
maintenance, and manage and protect resources. Since its 
inception, the program has generated about a billion dollars in 
revenues.
    GAO has been heavily involved in reviewing the fee 
demonstration program since its inception. My testimony today 
focuses on H.R. 3283's potential effect on the various issues 
that we have raised in our prior work on the Fee Demonstration 
Program, specifically the extent to which it would affect 
Federal agencies' deferred maintenance programs, the management 
and distribution of the revenue collected, and the interagency 
coordination on fee collection and use.
    Let me start by discussing the effects that your program 
would have on agencies' deferred maintenance programs. H.R. 
3283 would provide a permanent source of revenue for Federal 
land management agencies to use to help address the backlog in 
repair and maintenance of Federal facilities and 
infrastructure. Interior's latest estimates of participating 
agencies' deferred maintenance backlog ranged from $5.1 billion 
to $8.3 billion with the Park Service accounting for the 
majority of this backlog. Likewise, the Forest Service 
estimated its total deferred maintenance backlog to be about $8 
billion. Although our work has shown that neither the Park 
Service nor the Forest Service has yet to develop systems that 
will accurately and reliability report information on their 
deferred maintenance needs or on the overall impact that the 
Fee Demonstration Program is having on reducing this 
maintenance backlog, our work has shown that the bulk of the 
fee demonstration revenue is being used and is having a 
positive impact at improving visitor services and for 
operations and maintenance activities.
    Now let me briefly touch upon the issue of management and 
distribution of the revenues being collected. Currently, the 
Fee Demonstration Program requires Federal land management 
agencies to spend at least 80 percent of the collected revenues 
onsite. While this requirement has or will soon help some 
demonstration sites generate revenues in excess of their high 
priorities needs, the high priority needs at other sites that 
have not collected as much fee revenues remains unmet. We 
reported that agencies needed greater flexibility in 
transferring revenue to sites that would help the agencies 
better meet their overall priority needs; however, we noted 
that agencies needed to carefully balance this flexibility to 
ensure that sites continue to maintain incentives to collect 
fees and that visitors continue to support the fee collection 
program. H.R. 3283 would allow agencies to reduce the 
percentage of fee revenue used onsite down to 60 percent, 
thereby allowing greater flexibility to help the agencies 
achieve this balance.
    Finally, let me mention the need for interagency 
coordination on fee collection and use. We previously reported 
on the need for more effective coordination and cooperation 
among the agencies to better serve visitors by making the 
payment of fees more convenient and equitable while at the same 
time reducing visitor confusion about similar or multiple fees 
being charged at nearby or adjacent Federal recreation sites. 
H.R. 3283 allows for improved service to visitors by 
coordinating Federal agency fee collection activities. First, 
it standardizes the type of fees Federal land management 
agencies may use. Second, it creates a single National pass 
that provides visitors general access to a variety of 
recreation sites managed by different agencies. And, third, it 
allows for the regional coordination of fees to access multiple 
nearby sites.
    In summary, the Fee Demonstration Program has been 
successful in raising a significant amount of revenue for the 
participating agencies to use for maintaining and improving the 
quality of visitor services and protecting the resources at 
Federal recreation sites. Several of the provisions in H.R. 
3283 address many of the quality of service issues we have 
identified through our prior work, and if the provisions are 
properly implemented, these services should be improved.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you or other Members may have.
    [The prepared statement of Mr. Hill follows:]

      Statement of Barry T. Hill, Director, Natural Resources and 
              Environment, U.S. General Accounting Office

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss H.R. 3283, the Federal 
Lands Recreation Enhancement Act, which proposes, among other things, 
to establish a permanent recreation fee program for certain federal 
land management agencies and standardize certain visitor fees. For many 
years, the Congress has sought to identify programs that would help 
federal land management agencies provide high-quality recreational 
opportunities for visitors while at the same time protecting their 
resources. Accordingly, in 1996, the Congress authorized an 
experimental initiative, called the Recreational Fee Demonstration 
Program. Under this program, four land management agencies--the Bureau 
of Land Management, Fish and Wildlife Service, and National Park 
Service within the Department of the Interior, and the Forest Service 
within the U.S. Department of Agriculture--are authorized to establish, 
charge, collect, and use fees at a number of sites to, among other 
things, enhance visitor services, address a backlog of needs for repair 
and maintenance, and manage and protect resources. We have issued a 
number of reports and testimonies on the program since its inception, 
identifying issues that need to be addressed to improve the program's 
effectiveness. (Appendix I lists our related reports and testimonies.)
    The Congress is now considering, through H.R. 3283, whether it 
should make the program permanent. Central to the debate is how 
effectively the land management agencies use the funds generated from 
recreation fee collection. My testimony today focuses on H.R. 3283's 
potential effect on the issues that we raised in our prior work on the 
Recreational Fee Demonstration Program, specifically the extent to 
which the Act would affect: (1) federal agencies' deferred maintenance 
programs; (2) the management and distribution of the revenue collected; 
and (3) interagency coordination on fee collection and use.
    We did not conduct any follow-up audit work in conjunction with 
this testimony. All of our prior work was conducted in accordance with 
generally accepted government auditing standards.

Results in Brief
    In summary, H.R. 3283 would provide federal land management 
agencies with a permanent source of funds to help reduce their 
maintenance backlogs--one of the authorized uses of the revenues 
collected under the fee demonstration program. According to the 
Department of the Interior's latest estimates, the combined deferred 
maintenance backlogs for the participating agencies ranged from $5.1 
billion to $8.3 billion of which the Park Service accounted for an 
estimated $4 to $7 billion. Likewise, the Forest Service estimated its 
total deferred maintenance backlog to be about $8 billion, the bulk of 
which was needed for forest roads and bridges. However, as we have 
previously reported, neither the Park Service nor the Forest Service 
have accurate and reliable information on their deferred maintenance 
needs and, as a result, they cannot determine how much of the fee 
demonstration revenues is being spent on deferred maintenance or the 
fee program's overall impact on reducing their deferred maintenance 
needs. Some agency officials have hesitated to divert resources to 
develop a process for tracking deferred maintenance because the fee 
demonstration program is temporary. H.R. 3283 would provide agencies 
with a permanent source of funds to better address their maintenance 
backlog, and by making the program permanent, the Act would provide 
agencies incentive to develop a system to track their deferred 
maintenance backlogs.
    H.R. 3283 provides the participating agencies greater flexibility 
in how and where they may apply fee revenues. Currently, the fee 
demonstration program requires federal land management agencies to 
retain at least 80 percent of the collected fee revenues for use on-
site. While this requirement has helped some demonstration sites 
generate revenue in excess of their high-priority needs, the high-
priority needs at other sites, which do not collect as much in fee 
revenues, remained unmet. We have suggested that the Congress consider 
modifying the current 80-percent on-site spending requirement to 
provide agencies greater flexibility in using fee revenues to better 
meet their overall priority needs. However, we noted that agencies 
needed to balance the need for flexibility in transferring revenue 
against the need of keeping sufficient funds on-site to maintain 
incentives at fee-collecting units and to maintain visitor support. 
H.R. 3283 would allow agencies to reduce the percentage of fee revenue 
retained for use on-site down to 60 percent, if the respective 
Secretary determined that the revenues collected at the unit or area 
exceed the reasonable needs of the site. H.R. 3283 would also provide 
agencies with the flexibility to balance the need to provide incentives 
at fee-collecting sites and support of visitors against transferring 
revenues to other sites.
    H.R. 3283 contains provisions to improve interagency coordination 
in the collection and use of recreation fees. Previously, we 
demonstrated the need for more effective coordination and cooperation 
among the agencies to better serve visitors by making the payment of 
fees more convenient and equitable while at the same time, reducing 
visitor confusion about similar or multiple fees being charged at 
nearby or adjacent federal recreation sites. For example, visitors 
entering Olympic National Park or the adjacent Olympic National Forest 
previously paid different fees to hike on the same trail. H.R. 3283 
would standardize the types of fees federal land management agencies 
may use, create a single national pass that provides visitors general 
access to a variety of recreation sites managed by different agencies, 
and allow for the regional coordination of fees to access multiple 
nearby sites.

Background
    For the past several years, concerns about the cost of operating 
and maintaining federal recreation sites within the federal land 
management agencies have led the Congress to provide a significant new 
source of funds. This additional source of funding--the Recreational 
Fee Demonstration Program--was authorized in 1996. The fee 
demonstration program authorized the Bureau of Land Management, Fish 
and Wildlife Service, National Park Service, and the Forest Service to 
experiment with new ways to administer existing fee revenues and to 
establish new recreation entrance and user fees. The current 
authorization for the program expires December 31, 2005.
    Previously, all sites collecting entrance and user fees deposited 
the revenue into a special U.S. Treasury account to be used for certain 
purposes, including resource protection and maintenance activities, and 
funds in this account only became available through congressional 
appropriations. The fee demonstration program currently allows agencies 
to maintain fee revenues in special U.S. Treasury accounts for use 
without further appropriation: 80 percent of the fees are maintained in 
an account for use at the site and the remaining 20 percent are 
maintained in another account for use on an agency-wide basis. As a 
result, these revenues have yielded substantial benefits for local 
recreation sites by funding significant on-the-ground improvements.
    From the inception of the Recreational Fee Demonstration Program, 
the four participating agencies have collected over $1 billion in 
recreation fees from the public. The Department of the Interior and the 
Department of Agriculture's most recent budget requests indicate that 
the agencies expect to collect $138 million and $46 million, 
respectively, from the fee demonstration program in Fiscal Year 2005.

H.R. 3283 Provides a Permanent Source of Revenue That Could Be Used to 
        Address Participating Agencies' Maintenance Backlogs
    H.R. 3283, as proposed, would provide a permanent source of revenue 
for federal land management agencies to use to, among other things, 
help address the backlog in repair and maintenance of federal 
facilities and infrastructure. One of the principal uses of the 
revenues generated under the existing Recreational Fee Demonstration 
Program is for participating agencies to reduce their respective 
maintenance backlogs.
    The Department of the Interior owns, builds, purchases, and 
contracts services for such assets as visitor centers, roads, bridges, 
dams, and reservoirs, many of which are deteriorating and in need of 
repair or maintenance. We have identified Interior's land management 
agencies' inability to reduce their maintenance backlogs as a major 
management challenge. <SUP>1</SUP> According to the Department of the 
Interior's latest estimates, the deferred maintenance backlog for its 
participating agencies ranged from about $5.1 billion to $8.3 billion. 
Table 1 shows the Department's estimate of deferred maintenance for its 
agencies participating in the Recreational Fee Demonstration Program.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Major Management Challenges and 
Program Risks: Department of the Interior, GAO-03-104 (Washington, 
D.C.: January 2003); U.S. General Accounting Office, Major Management 
Challenges and Program Risks: Department of the Interior, GAO-01-249 
(Washington, D.C.: January 2001).

[GRAPHIC] [TIFF OMITTED] T3531.002


    Of the current participating agencies within Interior, the National 
Park Service has the largest estimated maintenance backlog--ranging 
from $4 to nearly $7 billion. As we have previously reported, the Park 
Service's problems with maintaining its facilities have steadily 
worsened in part because the agency lacks accurate data on the 
facilities that need to be maintained or on their condition. As a 
result, the Park Service cannot effectively determine its maintenance 
needs, the amount of funding needed to address them, or what progress, 
if any, it has made in closing the maintenance gap. Although the Park 
Service has used some of the revenues generated from the fee 
demonstration program to address its high- priority maintenance needs, 
without accurate and reliable data, it cannot demonstrate the effect of 
fee demonstration revenues in improving the maintenance of its 
facilities.
    The Park Service has acknowledged the problems associated with not 
having an accurate and reliable estimate of its maintenance needs and 
promised to develop an asset management process that, when operable, 
should provide a systematic method for documenting deferred maintenance 
needs and tracking progress in reducing the amount of deferred 
maintenance. Furthermore, the new process should enable the agency to 
develop: (1) a reliable inventory of its assets; (2) a process for 
reporting on the condition of each asset; and (3) a system-wide 
methodology for estimating its deferred maintenance costs. In 2002, we 
identified some areas that the agency needed to address in order to 
improve the performance of the process, including the need to develop 
cost and schedules for completing the implementation of the process, 
better coordinating the tracking of the process among Park Service 
headquarters units to avoid duplication of effort within the agency, 
and better definition of its approach to determine the condition of its 
assets and how much the assessments will cost. <SUP>2</SUP> In our last 
testimony on this issue before this Subcommittee in September 2003, we 
stated that the complete implementation of the new process would not 
occur until Fiscal Year 2006, but that the agency had completed, or 
nearly completed, a number of substantial and important steps to 
improve the process. <SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, National Park Service: Status 
of Efforts to Develop Better Deferred Maintenance Data, GAO-02-568R 
(Washington, D.C.: Apr.12, 2002).
    \3\ U.S. General Accounting Office, National Park Service: Efforts 
Underway to Address Its Maintenance Backlog, GAO-03-1177T (Washington, 
D.C.: Sept. 27, 2003).
---------------------------------------------------------------------------
    The two other Interior agencies participating in the program--the 
Fish and Wildlife Service and the Bureau of Land Management--also 
report deferred maintenance backlogs of about $1 billion and $330,000, 
respectively. We do not have any information at this time on the 
effectiveness of the program in reducing these backlogs.
    The Forest Service also has an estimated $8 billion maintenance 
backlog most of which is needed to maintain forest roads and bridges. 
In September 2003, we reported that the Forest Service (like the Park 
Service) had no effective means for measuring how much of the fee 
demonstration revenues it had spent on deferred maintenance or the 
impact that the fee program had had on reducing its deferred 
maintenance needs. <SUP>4</SUP> Although the Forest Service has 
recognized the significance of its deferred maintenance problem, it 
does not have a systematic method for compiling the information needed 
to provide a reliable estimate of its deferred maintenance needs. 
Furthermore, the agency has not developed a process to track deferred 
maintenance expenditures from fee demonstration revenues. As a result, 
even if the agency knew how much fee revenue it spent on deferred 
maintenance, it could not determine the extent to which these revenues 
had reduced its overall deferred maintenance needs. Forest Service 
officials provided several reasons why the agency had not developed a 
process to track deferred maintenance expenditures from the 
demonstration revenues. First, they said that the agency chose to use 
its fee demonstration revenue to improve and enhance on-site visitor 
services rather than to develop and implement a system for tracking 
deferred maintenance spending. Second, the agency was not required to 
measure the impact of fee revenues on deferred maintenance. Finally, 
because the fee demonstration program was temporary, agency officials 
had concerns about developing a process for tracking deferred 
maintenance, not knowing if the program would subsequently be made 
permanent.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, Recreation Fees: Information on 
Forest Service Management of Revenue from the Fee Demonstration 
Program, GAO-03-1161T (Washington, D.C.: Sept. 17, 2003).
---------------------------------------------------------------------------
    H.R. 3283 would provide participating agencies with a permanent 
source of funds to supplement existing appropriations and to better 
address maintenance backlogs. Furthermore, by making the program 
permanent, H.R. 3283 could provide participating agencies like the 
Forest Service with an incentive to develop a system to track their 
deferred maintenance backlogs.

H.R. 3283 Provides Agencies Additional Flexibility in Distributing 
        Collected Fee Revenues
    The existing fee demonstration program requires federal land 
management agencies to maintain at least 80 percent of the fee revenues 
for use on-site. In a 1998 report, we suggested that, in order to 
provide greater opportunities to address high priority needs of the 
agencies, the Congress consider modifying the current requirement to 
grant agencies greater flexibility in using fee revenues. <SUP>5</SUP> 
H.R. 3283 provides the agencies with flexibility to reduce the 
percentage of revenues spent on-site down to 60 percent.
---------------------------------------------------------------------------
    \5\ U.S. General Accounting Office, Recreation Fees: Demonstration 
Fee Program Successful in Raising Revenues but Could Be Improved, GAO/
RCED-99-7 (Washington, D.C.: Nov. 20, 1998).
---------------------------------------------------------------------------
    We also reported that the requirement that at least 80 percent of 
the revenues be maintained for use at the collection site may 
inadvertently create funding imbalances between sites and that some 
heavily visited sites may reach a point where they have more revenues 
than they need for their projects, while other sites would still fall 
short. <SUP>6</SUP> In 1999, we testified that some demonstration sites 
were generating so much revenue as to raise questions about their long-
term ability to spend these revenues on high-priority items. 
<SUP>7</SUP> In contrast, we warned that sites outside the 
demonstration program, as well as demonstration sites that did not 
collect as much in fee revenues, may have high-priority needs that 
remained unmet. As a result, some of the agencies' highest-priority 
needs might not be addressed. Our testimony indicated that, at many 
sites in the demonstration program, the increased fee revenues amounted 
to 20 percent or more of the sites' annual operating budgets, allowing 
such sites to address past unmet needs in maintenance, resource 
protection, and visitor services. While these sites could address their 
needs within a few years, the 80-percent requirement could, over time, 
preclude the agencies from redistributing fee revenues to meet more 
pressing needs at other sites. Our November 2001 report confirmed that 
such imbalances had begun to occur. <SUP>8</SUP> Officials from the 
land management agencies acknowledged that some heavily visited sites 
with large fee revenues may eventually collect more revenue than they 
need to address their priorities, while other lower-revenue generating 
sites may have limited or no fee revenues to meet their needs.
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, Recreation Fees: Management 
Improvements Can Help the Demonstration Program Enhance Visitor 
Services, GAO-02-10 (Washington, D.C.: Nov. 26, 2001).
    \7\ U.S. General Accounting Office, Recreation Fees: Demonstration 
Program Successful in Raising Revenues but Could Be Improved, GAO/T-
RCED-99-77 (Washington, D.C.: Feb. 4, 1999).
    \8\ GAO-02-10.
---------------------------------------------------------------------------
    To address this imbalance, we suggested that the Congress consider 
modifying the current requirement that 80 percent of fee revenue be 
maintained for use by the sites generating the revenues to allow for 
greater flexibility in using fee revenues. H.R. 3283 would still 
generally require agencies to maintain at least 80 percent of fee 
revenues for use on-site. However, if the Secretary of the Interior 
determined that the revenues collected at a site exceeded the 
reasonable needs of the unit for which expenditures may be made for 
that fiscal year, under H.R. 3283 the Secretary could then reduce the 
percentage of on-site expenditures to 60 percent and transfer the 
remainder to meet other priority needs across the agency.
    The need for flexibility in transferring revenue must also be 
balanced against the necessity of keeping sufficient funds on-site to 
maintain incentives at fee-collecting units and to maintain the support 
of the visitors. Such a balance is of particular concern to the Forest 
Service, which has identified that visitors generally support the 
program so long as the fees are used on-site and they can see 
improvements to the site where they pay fees. Accordingly, under the 
existing fee demonstration program, the Forest Service has committed to 
retaining 90 to 100 percent of the fees on-site. As such, H.R. 3283 
would not likely change the Forest Service's use of collected fees. 
However, it would provide the Forest Service, as well as the other 
agencies, with the flexibility to balance the need to provide 
incentives at fee-collecting sites and support of visitors against 
transferring revenues to other sites.

H.R. 3283 Should Help Reduce Visitor Confusion by Creating a National 
        Pass and Requiring Participating Agencies to Coordinate Fee 
        Collection on a Regional Level
    The legislative history of the fee demonstration program places an 
emphasis on participating agency collaboration to minimize or eliminate 
confusion for visitors where multiple fees could be charged to visit 
recreation sites in the same area. Our prior work has pointed to the 
need for more effective coordination and cooperation among the agencies 
to better serve visitors by making the payment of fees more convenient 
and equitable while at the same time, reducing visitor confusion about 
similar or multiple fees being charged at nearby or adjacent federal 
recreation sites. <SUP>9</SUP> For example, sites do not consistently 
accept agency and interagency passes, resulting in visitor confusion 
and, in some cases, overlapping or duplicative fees for the same or 
similar activities. H.R. 3283 would allow for improved service to 
visitors by coordinating federal agency fee-collection activities. 
First, the Act would standardize the types of fees that the federal 
land management agencies use. Second, it would create a single national 
pass that would provide visitors access to recreation sites managed by 
different agencies. Third, it would allow for the coordination of fees 
on a regional level for access to multiple nearby sites.
---------------------------------------------------------------------------
    \9\ GAO-02-10.
---------------------------------------------------------------------------
H.R. 3283 Standardizes Recreation Fees
    In November 2001, we reported that agencies had not pursued 
opportunities to coordinate their fees better among their own sites, 
with other agencies, or with other nearby, nonfederal recreational 
sites. <SUP>10</SUP> As a result, visitors often had to pay fees that 
were sometimes overlapping, duplicative, or confusing. Limited fee 
coordination by the four agencies has permitted confusing fee 
situations to persist. At some sites, an entrance fee may be charged 
for one activity whereas a user fee may be charged for essentially the 
same activity at a nearby site. For example, visitors who entered 
either Olympic National Park or the Olympic National Forest in 
Washington State for day hiking are engaged in the same recreational 
activity--obtaining general access to federal lands--but were charged 
distinct entrance and user fees. For a 1-day hike in Olympic National 
Park, users paid a $10 per-vehicle entry fee (good for 1 week), whereas 
hikers using trailheads in Olympic National Forest were charged a daily 
user fee of $5 per vehicle for trailhead parking. Also, holders of the 
interagency Golden Eagle Passport--a $65 nationwide pass that provides 
access to all federal recreation sites that charge entrance fees--could 
use the pass to enter Olympic National Park, but had to pay the Forest 
Service's trailhead parking fee because the fee for the pass covers 
only entrance fees and not a user fees. However, the two agencies now 
allow holders of the Golden Eagle Passport to use it for trailhead 
parking at Olympic National Forest.
---------------------------------------------------------------------------
    \10\ GAO-02-10.
---------------------------------------------------------------------------
    Similarly, confusing and inconsistent fee situations also occur at 
similar types of sites within the same agency. For example, visitors to 
some Park Service national historic sites, such as the San Juan 
National Historic Site in Puerto Rico, pay a user fee and have access 
to all amenities at the sites, such as historic buildings. However, 
other Park Service historic sites, such as the Roosevelt/Vanderbilt 
Complex in New York State, charge no user fees, but tours of the 
primary residences require the payment of entrance fees. Visitors in 
possession of an annual pass that cover entrance fees, such as the 
National Parks Pass, may be further confused that their annual entrance 
pass is sufficient for admission to a user fee site, such as the San 
Juan National Historic Site, but not sufficient to allow them to enter 
certain buildings on the Roosevelt/Vanderbilt Complex, which charge 
entrance fees.
    H.R. 3283 would streamline the recreational fee program by 
providing a standard fee structure across federal land management 
agencies using a 3-tiered fee structure: a basic recreation fee, an 
expanded recreation fee, and a special recreation permit fee. H.R. 3283 
establishes several areas where a basic recreation fee may be charged. 
<SUP>11</SUP> For example, the basic recreation fee offers access to, 
among other areas, National Park System units, National Conservation 
Areas, and National Recreation Areas. Expanded recreation fees are 
charged either in addition to the basic recreation fee or by itself 
when the visitor uses additional facilities or services, such as a 
developed campground or an equipment rental. A special recreation 
permit is charged when the visitor participates in an activity such as 
a commercial tour, competitive event, or an outfitting or guiding 
activity.
---------------------------------------------------------------------------
    \11\ The listed areas are National Park System Units, National 
Conservation Areas, National Recreation Areas, National Monuments, 
National Volcanic Monuments, National Scenic Areas and areas of 
substantial investment by a federal land management agency that are 
managed for recreation purposes or that contain at least one major 
visitor attraction and have had substantial investments made in their 
facilities or services in restoring resource degradation in areas of 
concentrated public use including a visitor or interpretive center, a 
trailhead facility or a developed parking lot, or in requiring the 
presence of personnel of a federal land management agency.
---------------------------------------------------------------------------
H.R. 3283 Would Create a National Pass
    In November 2001, we reported another example of an interagency 
issue that needed to be addressed--the inconsistency and confusion 
surrounding the acceptance and use of the $65 Golden Eagle Passport. 
<SUP>12</SUP> The annual pass provides visitors with unlimited access 
to federal recreation sites that charge an entrance fee. However, many 
sites do not charge entrance fees to gain access to a site and instead 
charge a user fee. For example, Yellowstone National Park, Acadia 
National Park, and the Eisenhower National Historic Site charge 
entrance fees. But sites like Wind Cave National Park charge user fees 
for general access. If user fees are charged in lieu of entrance fees, 
the Golden Eagle Passport is generally not accepted even though, to the 
visitor with a Golden Eagle Passport, there is no practical difference.
---------------------------------------------------------------------------
    \12\ GAO-02-10.
---------------------------------------------------------------------------
    Further exacerbating the public's confusion over payment of use or 
entrance fees was the implementation of the Park Service's single-
agency National Parks Pass in April 2000. This $50 pass admits the 
holder, spouse, children, and parents to all National Park Service 
sites that charge an entrance fee for a full year. However, the Parks 
Pass does not admit the cardholder to the Park Service sites that 
charge a user fee, nor is it accepted for admittance to other sites in 
the Forest Service and in the Department of the Interior, including the 
Fish and Wildlife Service sites.
    H.R. 3283 would eliminate the current national passes and replace 
them with one federal lands pass--called the ``America the Beautiful--
the National Parks and Federal Recreation Lands Pass''--for use at any 
site of a federal land management agency that charges a basic 
recreation fee. The Act also calls for the Secretaries of Agriculture 
and the Interior to jointly establish the National Parks and Federal 
Recreation Lands Pass and to jointly issue guidelines on the 
administration of the pass. In addition, it requires that the 
Secretaries develop guidelines for establishing or changing fees and 
that these guidelines, among other things, would require federal land 
management agencies to coordinate with each other to the extent 
practicable when establishing or changing fees.
H.R. 3283 Would Provide Interagency Coordination on the Regional Level
    H.R. 3283 would also provide local site managers the opportunity to 
coordinate and develop regional passes to reduce visitor confusion over 
access to adjacent sites managed by different agencies. When 
authorizing the demonstration program, the Congress called upon the 
agencies to coordinate multiple or overlapping fees. We reported in 
1999 that the agencies were not taking advantage of this flexibility. 
<SUP>13</SUP> For example, the Park Service and the Fish and Wildlife 
Service manage sites that share a common border on the same island in 
Maryland and Virginia--Assateague Island National Seashore and 
Chincoteague National Wildlife Refuge. When the agencies selected the 
two sites for the demonstration program, they decided to charge 
separate entrance fees. However, as we reported in 2001, the managers 
at these sites developed a reciprocal fee arrangement whereby each site 
accepted the fee paid at the other site to better accommodate the 
visitors. <SUP>14</SUP> Resolving situations in which inconsistent and 
overlapping fees are charged for similar recreation activities would 
offer visitors a rational and consistent fee program. We stated that 
further coordination among the agencies participating in the fee 
demonstration program could reduce the confusion for visitors. We 
reported that demonstration sites may be reluctant to coordinate on 
fees partly because the program's incentives are geared towards 
increasing their revenues. Because joint fee arrangements may 
potentially reduce revenues to specific sites, there may be a 
disincentive among these sites to coordinate. Nonetheless, we believe 
that the increase in service to the public might be worth a small 
reduction in revenues.
---------------------------------------------------------------------------
    \13\ GAO/T-RCED-99-77.
    \14\ GAO-02-10.
---------------------------------------------------------------------------
    Accordingly, we recommended that the Secretaries of Agriculture and 
the Interior direct the heads of the participating agencies to improve 
their service to visitors by better coordinating their fee collection 
activities under the Recreational Fee Demonstration Program. In 
response, in 2002, the Departments of the Interior and Agriculture 
formed the Interagency Recreational Fee Leadership Council to 
facilitate coordination and consistency among the agencies on 
recreation fee policies. We also recommended that the agencies approach 
such an analysis systematically, first by identifying other federal 
recreation areas close to each other and then, for each situation, 
determining whether a coordinated approach, such as a reciprocal fee 
arrangement, would better serve the visiting public. The agencies 
implemented this recommendation to a limited extent as evidenced by the 
reciprocal fee arrangement between Assateague Island National Seashore 
and Chincoteague National Wildlife Refuge.
    H.R. 3283 offers federal agencies the opportunity to develop 
regional passes to offer access to sites managed by different federal, 
state and local agencies. As we have reported in the past, for all four 
agencies to make improvements in interagency communication, 
coordination, and consistency for the program to become user-friendly, 
an effective mechanism is needed to ensure that interagency 
coordination occurs or to resolve interagency issues or disputes when 
they arise. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ GAO-02-10.
---------------------------------------------------------------------------
Conclusions
    Essentially, the fee demonstration program raises revenue for the 
participating sites to use for maintaining and improving the quality of 
visitor services and protecting the resources at federal recreation 
sites. The program has been successful in raising a significant amount 
of revenue. However, the agencies could enhance the quality of visitor 
services more by providing better overall management of the program. 
Several of the provisions in H.R. 3283 address many of the quality of 
service issues we have identified through our prior work and if the 
provisions are properly implemented these services should improve.
    While the fee demonstration program provides funds to increase the 
quality of the visitor experience and enhance the protection of 
resources by, among other things, addressing a backlog of needs for 
repair and maintenance, and to manage and protect resources, the 
program's short- and long-term success lies in the flexibility it 
provides agencies to spend revenues and the removal of any undesirable 
inequities that occur to ensure that the agencies' highest priority 
needs are met. However, any changes to the program's requirements 
should be balanced in such a way that fee-collecting sites would 
continue to have an incentive to collect fees and visitors who pay them 
will continue to support the program.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.

GAO Contacts and Staff Acknowledgments
    For further information about this testimony, please contact me at 
(202) 512-3841. Doreen Feldman, Roy Judy, Jonathan McMurray, Patrick 
Sigl, Paul Staley, Amy Webbink, and Arvin Wu made key contributions to 
this statement.

Related GAO Products
    The following is a listing of related GAO products on recreation 
fees, deferred maintenance, and other related issues.

Recreation Fees
    1.  Recreation Fees: Information on Forest Service Management of 
Revenue from the Fee Demonstration Program. GAO-03-1161T. Washington, 
D.C.: Sept. 17, 2003.
    2.  Recreation Fees: Information on Forest Service Management of 
Revenue from the Fee Demonstration Program. GAO-03-470. Washington, 
D.C.: April 25, 2003.
    3.  Recreation Fees: Management Improvements Can Help the 
Demonstration Program Enhance Visitor Services. GAO-02-10. Washington, 
D.C.: Nov. 26, 2001.
    4.  Recreational Fee Demonstration Program Survey. GAO-02-88SP. 
Washington, D.C.: Nov. 1, 2001.
    5.  National Park Service: Recreational Fee Demonstration Program 
Spending Priorities. GAO/RCED-00-37R. Washington, D.C.: Nov. 18, 1999.
    6.  Recreation Fees: Demonstration Has Increased Revenues, but 
Impact on Park Service Backlog Is Uncertain. GAO/T-RCED-99-101. 
Washington, D.C.: March 3, 1999.
    7.  Recreation Fees: Demonstration Program Successful in Raising 
Revenues but Could Be Improved. GAO/T-RCED-99-77. Washington, D.C.: 
Feb. 4, 1999.
    8.  Recreation Fees: Demonstration Fee Program Successful in 
Raising Revenues but Could Be Improved. GAO/RCED-99-7. Washington, 
D.C.: Nov. 20, 1998.

Deferred Maintenance
    1.  National Park Service: Efforts Underway to Address Its 
Maintenance Backlog. GAO-03-1177T. Washington, D.C.: Sept. 27, 2003.
    2.  National Park Service: Status of Agency Efforts to Address Its 
Maintenance Backlog. GAO-03-992T. Washington, D.C.: July 8, 2003.
    3.  National Park Service: Status of Efforts to Develop Better 
Deferred Maintenance Data. GAO-02-568R. Washington, D.C.: April 12, 
2002.
    4.  National Park Service: Efforts to Identify and Manage the 
Maintenance Backlog. GAO/RCED-98-143. Washington, D.C.: May 14, 1998.
    5.  National Park Service: Maintenance Backlog Issues. GAO/T-RCED-
98-61. Washington, D.C.: Feb. 4, 1998.
    6.  Deferred Maintenance Reporting: Challenges to Implementation. 
GAO/AIMD-98-42. Washington, D.C.: Jan. 30, 1998.
Other Related Products
    1.  Major Management Challenges and Program Risks, Department of 
the Interior. GAO-03-104. Washington, D.C.: Jan. 2003.
    2.  Major Management Challenges and Program Risks, Department of 
the Interior. GAO-01-249. Washington, D.C.: Jan. 2001.
    3.  Park Service: Managing for Results Could Strengthen 
Accountability. GAO/RCED-97-125. Washington, D.C.: April 10, 1997.
                                 ______
                                 
    Mr. Peterson. Thank you very much. I guess I will just 
share with you I was just sharing with the staff here that in 
Pennsylvania, years ago, they had a fee program, and it was 
prior to I being a part of the State Senate, but then I found 
out when I got there that once they had been given this fee 
money, they were sort of flat-funded year after year because we 
had given them all this cash that they could maintain the parks 
with. In a very short time, they actually had less money to 
maintain the parks than they had before the fee system, and I 
hope we don't repeat that here, that it is looked at as here is 
a new cash cow, we don't need to fund parks anymore, because we 
all know the backlog is huge and it is about catching up.
    Ms. Scarlett, how does the Administration respond to 
critics of the fee program who call it double taxation?
    Ms. Scarlett. Mr. Chairman, our response to that is that we 
have, as I noted, many, many public lands that are open and for 
free. Eighty-nine percent of all Bureau of Land Management 
sites are accessible at no fee charged; likewise, with the Fish 
and Wildlife Service, seventy-five percent. Even with the 
National Parks, forty percent have no fee charged. So there are 
many, many open areas with free access.
    We charge fees at those areas that have that above and 
beyond extra infrastructure that serves the specific visiting 
public, for example, a campsite with camp hook-ups and water 
facilities or toilet facilities, a special dedicated boat ramp 
for boating access, and that sort of extra above and beyond 
infrastructure that a particular user might take advantage of.
    Mr. Peterson. OK. Do you have plans to streamline the 
program?
    Ms. Scarlett. We established a Recreation Fee Leadership 
Council 2 years ago which included the Forest Service and all 
of our land management agencies that have recreation fees and 
have used the Rec Fee Demo Program. As part of that process, we 
identified some of the challenges or issues that had surfaced 
over the demonstration period in which we implemented the Rec 
Fee Program, and among those were to have, for example, clearer 
and more uniform fees for like purposes across the lands. 
Likewise, we have proposed and are appreciative of the proposal 
for a National interagency pass. We have also through better 
management managed to bring the cost down for managing the Rec 
Fee Program from above 20 percent to, in the case of Bureau of 
Land Management and Fish and Wildlife Service, to between 14 
and 18 percent, demonstrating, I think, that streamlining of 
our implementation.
    Mr. Peterson. OK. The next is question is for both Ms. 
Scarlett and Mr. Thompson. One of the biggest criticisms of the 
Rec Fee Demo Program has been that it nickels and dimes the 
visitors of public lands. H.R. 3283 would authorize, one, a 
basic fee; two, an expanded recreation fee; and three, a 
special recreation fee. While I understand the need to offer 
flexibility to both agencies and the visitor, is it me or do 
all of these fees sound more complicated and costly than it 
needs to be?
    Ms. Scarlett. I guess I will take a stab at it. We really 
have two different kinds of sites and, hence, an explanation 
for two of the three fees described in the bill. There are 
those sites that are very discrete and have a single entry 
point and then a lot of dispersed extra infrastructure for 
visitor utilization. One can think of, for example, Assateague 
and Chincoteague, National Park Service, and Fish and Wildlife 
Service respectively. You drive in and you have a whole array 
of facilities that you access. Sand Flats in Moab, Utah, again 
a single point of entry. You go in, and then inside, there are 
all kinds of trails, paved areas for recreation vehicle use, 
and so forth.
    Then in addition to those, we have some circumstances where 
we have, for example, an individual dispersed campsite where we 
have developed a specific campsite, but on land that is 
otherwise is freely accessible. So you go onto those public 
lands freely and accessibly, hiking on trails or enjoying those 
lands, but if you then take your RV and park at the campsite, 
you would pay a special amenity fee. So that is the distinction 
between a basic fee and a special amenity fee.
    Mr. Peterson. Mr. Thompson.
    Mr. Thompson. I would just add I think there are a lot of 
provisions that need to be looked at to reduce exactly what you 
said, and I think we have been working hard over the last few 
years to learn from the experiences that we have had where a 
lot of different systems were created, working consistently 
between agencies--the Assistant Secretary mentioned the 
Council--trying to identify a way to develop a program that 
provides consistency, works across agencies, works with 
partners, is fair, equitable, efficient, tries to provide a 
system of fees that does make sense and that does recognize the 
importance of applying a different fee in different situations, 
but I think the values that are gained by the cross-department, 
multi-agency fees reduces rather than adds, for sure, to the 
confusion for the public. It makes it much simpler, and people 
can understand it and certainly benefit tremendously from the 
efficiencies that are gained.
    Mr. Hill. Mr. Chairman, could I add a quick comment to 
that?
    Mr. Peterson. You certainly can.
    Mr. Hill. In doing our work, we noticed when the 
demonstration program was getting going there was a lot of 
confusion out there by the public, by the visitors, in terms of 
the difference between an entrance fee and a user fee. A lot of 
the public would buy the Golden Eagle Pass which would give 
them the entrance into the parks, but in some parks, they were 
being charged a user fee for what seemed to be basically an 
entrance into the park.
    So there is a lot of confusion. I think the attempt of this 
bill is to kind of standardize the terminology here between an 
entrance fee or a user fee or the basic fee or the expanded fee 
and get all the parks and forests and the units that are 
participating in this to basically have common definitions and 
have common charges.
    Mr. Peterson. You think the bill as drafted gets that done?
    Mr. Hill. I think the bill sets up a good structure for 
that. Obviously, the devil is in the details, how it is 
implemented. I think it is up to the agencies to work together 
to make sure they have got some good common definitions and 
criteria and guidance out there to make sure that everybody is 
on the same song street.
    Mr. Peterson. I think your thoughts are well taken and I 
think if you can continue to be involved in the process, I 
think it would be helpful, because I think it is a valid 
observation.
    Mr. Thompson, in your written testimony, you support the 
proposal under H.R. 3283 of consolidating the Golden Passport 
Program into a single interagency pass. This concept has raised 
concern from some senior citizen groups who strongly support 
the Golden Age Passport. Do you envision any changes for 
seniors citizen either in cost or benefit if a single 
interagency pass is established?
    Mr. Thompson. I think the provisions that have been set 
forth for both seniors and also of people with disabilities are 
very clearly an important aspect of the bill, and I think we 
all support those special provisions in the fee process.
    Mr. Peterson. You think you can get it done without 
controversy?
    Mr. Thompson. Well, the devil is in the details, but I 
believe when you frame a program that is consistent, again, 
across agencies, allows people the opportunity to better 
understand what the benefits of the program are, and they see 
the benefits on the ground, I think there is no doubt in my 
mind that people truly support it and are willing to pay a 
nominal fee to help do the maintenance, to help keep the sites 
clean, and to improve the education opportunities and just the 
overall benefits of the program. Where it is done right, I 
think has shown tremendous public support.
    Mr. Peterson. We are going to count on these agencies to 
keep the devil's horns cutoff so they don't get in the way.
    Ranking Member, Mrs. Christensen.
    Mrs. Christensen. Thank you. Thank you, Mr. Chairman.
    I have a couple of questions that probably all of you could 
answer. If H.R. 3283 is not enacted and the existing Fee 
Demonstration Program expires, is it the case that your 
agencies would have no authority to charge fees, and if that is 
not the case and you would be able to, could you describe what 
fee authority you would have?
    Ms. Scarlett. Yes. Thank you, Mrs. Christensen. I will take 
a stab at that first. There are other fee authorities, of 
course. Fee authorities for the Park Service date back, I 
believe, as far as 1908, and for the Bureau of Land Management 
and the Fish and Wildlife Service date to the Land and Water 
Conservation Fund. The significant difference is that that fee 
authority did not allow the agencies to retain the fees onsite. 
The tremendous advantage of the Rec Fee Demo Program has been 
that the fees charged go directly and immediately to the site 
for enhancement of the facilities, and we are concerned, of 
course, that if we do not get a continuation and a permanent 
fee authority, that the ability to invest in those sites 
immediately to respond to rapidly escalating use will not be 
available to us.
    Mrs. Christensen. As the fees are included in the bill, 
there is sort of an entrance fee and then there is a fee for 
use of facilities. Is it planned that people might have to pay 
more than one fee in visiting a park, both to get in and then 
for use of facilities as well?
    Ms. Scarlett. The structure of fees varies depending upon 
particular sites. For example, it currently is the case at some 
parks that one might pay an entrance fee, but then there may be 
circumstances where one is engaged in a very special activity 
for the user beyond all of the just general facilities that 
that entrance fee would avail oneself of. So there are 
circumstances where you might pay for a special activity at the 
particular location in addition to your entrance fee.
    Generally speaking, however, the way most of our locations 
perform, you have either site-specific entrance fees--and that 
avails you of all the activities and infrastructure in the 
location--or you have an amenity fee for a specific campsite. 
Generally speaking, that is the case. There are some exceptions 
to that.
    Mrs. Christensen. There are the different passes, for 
example, the Golden Eagle. So how would that work if H.R. 3283 
was enacted, the passes that allow you go do all to have parks?
    Ms. Scarlett. Well, what the bill proposes is actually an 
interagency pass, a National pass, so that a visitor who buys 
that would be able to avail themselves of access to any place 
where an entrance fee is charged, whether it is Fish and 
Wildlife Service, whether it is National Park Service, whether 
it is Forest Service or BLM. One of the beauties of that is 
that we find increasingly people really do not distinguish 
between locations based on the label, but rather what the 
amenities are, and so we think the National pass really is a 
step forward.
    Right now, we have a proliferation of passes, Golden Eagle, 
and this and that and the other thing, and we think that 
National pass would be a help to the consumer, the customer, 
the public to be able to better access all places equally.
    Mrs. Christensen. And you envision that if this was to pass 
and someone was holding, say, a Golden Eagle pass, that it 
would be good, it would still be usable?
    Ms. Scarlett. Our concept, of course, in developing the 
National pass is to have something that would incorporate other 
passes and make whatever pass you buy uniformly available for 
access to public sites. I think, again, working out the details 
and the logistics between the existing passes and a new 
National pass would need to be developed, but it is the intent 
that we would have a seamlessness across those passes.
    Mrs. Christensen. Mr. Thompson, looking at the Demo 
Program, a lot of people would feel maybe the park system, the 
National Park Service may be an area where fees would work, but 
that they generally would not work as well in some of the of 
the other units under the Department of the Interior, yet the 
Administration supports expanding it. Do you think that the 
public, general public, would be as amenable to using the fee 
services for fees for the other units other than the park 
system? I think they are kind of used to maybe seeing fees in 
the Park Service, but not forests and others.
    Mr. Thompson. The National Forest system is 192 million 
acres in 42 states and two territories. There is tremendous 
recreation use, tremendous recreation expectations. We have 
nearly 200, over 200 million, visits to the National Forests. 
As I said, that is up tremendously from where it was 30, 40 
years ago. I think in 1956, we had about 50 million visitors. 
So we are nearly four times what we were just 50 years ago.
    The Forest Service will be a hundred years old next year. 
If you look at the next hundred years, use is going to increase 
as our population increases. The demands for quality recreation 
experiences on all public lands is going to increase. The 
demand for facilities, the demand for opportunity to educate 
the urban population as they come to the forests and parks and 
refuges is going to increase. We believe that now is the time 
to learn what we have learned through the demonstration and put 
permanent authority there so that we can count on and begin to 
make the investments and continue to develop a program that 
provides public service at the quality that the American public 
expects on all public lands seamlessly and consistently so that 
the public has the same expectation over their public lands, 
and many of them do not distinguish between a park or a forest 
or BLM or refuge. They just know when they go there, they want 
an experience.
    So we certainly believe that the public deserves a quality 
program, a consistent program, a fair program, and one that 
builds confidence and accountability from the agencies, and if 
you talk to our people at the field level, as has been 
mentioned already, they are just so appreciative we had this 
opportunity in the fee program, but they would be so 
disappointed, and I think the public would, should we use that 
authority.
    Mrs. Christensen. Thank you.
    Ms. Scarlett. Mrs. Christensen, may I adjust quickly for 
the Bureau of Land Management and the Fish and Wildlife Service 
within the Department of the Interior? As I briefly noted in my 
testimony, we have seen a 65 percent increase in recreation on 
BLM lands and 80 percent fish and wildlife. If you go to a 
single place like Moab, Utah, which is right next to Arches 
National Park, Arches National park gets about 800,000 visitors 
a year. Moab gets about 1.8 million visitors a year. It has 
over 400 campsites. The park has about less than a hundred.
    So from a public standpoint, despite the label, these are 
both recreation destinies, and we are trying to provide them 
the same kinds of services in both locations that they 
anticipate.
    Mr. Radanovich. [Presiding] Thank you, Donna.
    Mr. Souder.
    Mr. Souder. I have a couple requests, and in 5 minutes, I 
can't possibly get these answered. So let me give you some 
things that I would like the answers submitted, because I want 
to make a couple of things on the record.
    From the Department of the Interior, we have a chart here 
that shows the non-demo receipts in 1994 to 1997 being roughly 
75 to 77 million and then dropping dramatically when the Fee 
Demo Program went in, and I would like some explanation, 
because that is about two-thirds of the variable. I would like 
kind of a written response as to which fees went down when the 
fee demo went in.
    Also, it looks to me that my earlier concern is, in fact, 
happening. In the last 2 years of reporting, we have had a 50 
percent increase in National Park passes with a corresponding 
decline in fee demo receipts, and if we don't address this 
disparity, we are going to have a long-term problem, and I 
would like to see if you have any additional data on where that 
correlation is. In fact, are more people presumably then buying 
these at locations? How is that impacting, then, on the parks?
    From Mr. Hill, in your written statement, you have a couple 
times repeated the prospect that some parks might receive more 
in demo fees than they could use and therefore suggested that 
maybe the 80-20 rule shouldn't be followed. I believe the whole 
integrity of the fee demo rests on the money staying in that 
park, and I wonder if you could submit a list of parks that you 
think may get more demo money than they could possibly use, or 
forest or wherever it is, but I presumed that it was mostly 
parks, but where that would be, because then maybe they have 
the fee too high.
    That would be the possible question there. I am not sure 
that the general public would support the concept of moving the 
fee around away from their park.
    I also wanted to put on the record while I agree that there 
needs to be some standardization, standardization is difficult 
when you have multiple entrances to a place. So you may have 
to, in fact, charge a fee by buildings in some parks because 
you can't have multiple--you spend so much in collection and 
confusion, and also Mount Rushmore, you mentioned Wind Cave, 
but right near there in Mount Rushmore, they couldn't build 
their parking lot if they didn't have a special fee for that 
parking lot in order to fund a parking lot with the capital 
expenses required, and that is confusing. That is one of the 
places where people complained about having their pass and then 
they can't exercise it at the parking lot. But that is not 
really fixable in the planning.
    So there is going to be some exceptions, but I agree with 
your basic thrust that we need to minimize the exceptions.
    I found this fascinating discussion on Parks, Fish and 
Wildlife, Forest and BLM, and I am kind of an old-fashioned guy 
trying to work my way through this, because I view Parks and 
Fish and Wildlife as different than Forest and BLM. Parks were 
set aside for the appreciation of the public, but also for 
preservation of the resources. Fish and Wildlife were set aside 
for fish and wild life areas for them where the public would 
have the appreciation of them as long as they didn't disrupt 
the flow of the fish and wildlife.
    BLM and Forest Service have different missions. There are 
renewable resources in the forest, and it is supposed to be 
literally for cutting down trees. I know that is not popular to 
say, but that is what it was supposed to be. The Bureau of 
Lands and Mines, as it used to be called, was supposed to be 
the places in the United States where we could mine. Now, as we 
have wilderness areas in the Forest Service and BLM, as we have 
increasingly pushed recreation away from the parks and into the 
forests that are adjacent to the parks, I agree completely that 
there a confusion coming in, Moab being the classic example 
with the camping sites. You also have that going in and out of 
Sequoia and Kings Canyon. There are multiple, Olympic where the 
Lake Quinault Lodge is actually in the forest and people are 
going through and saying why are these trees cut down. They 
think they are in Olympic National Park.
    But I am not sure that a fee demo as opposed to 
recreational use fees don't work better in Forest and BLM, and 
I would be interested in your comment on that, why Forest 
Service, if it is going to be recreational, why that isn't the 
focus there rather than having a set fee and then we try to 
address in the broader pass how to put those things together.
    Mr. Thompson. Well, for most of the National Forest system, 
I think 75 percent of the National Forest system, to start with 
is free. There would be no fee at all for the facilities. When 
you look at the diversity that exists across those lands from 
the Oregon Dunes National Recreation Area to scenic trails, all 
the different situations that exist out there, there is just 
tremendous needs, as has been described. There is not the 
entrance fee. That is not what we do, but there are sites and 
improvements that need to be maintained and kept in good 
condition.
    So in that regard, the user fee is what we are talking 
about here for providing for that use. I mean, that to me, 
there is no difference in the user fee concept here.
    Mr. Radanovich. If you could wrap it up, Mark.
    Mr. Souder. Some of the differences is in a park, and I 
know that part of my frustration is that to the degree a Mount 
St. Helens or an area becomes wilderness and is no longer going 
to be used for timber harvesting, in my opinion, that is 
becoming some kind of category other than a National forest, 
and that is partly what our confusion here is.
    Mr. Thompson. OK.
    Mr. Radanovich. Mark, if you want to do another round of 
questioning when we are done here too, I am very happy to do 
that.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    My first question a point of clarification. Was this 
Recreational Fee Demonstration Program for the Island of Guam 
put out by Park Services? Who provided these statistics?
    Ms. Scarlett. The chart that you have, I believe was put 
together by Department of the Interior, and it is a compilation 
by location by state and by territory.
    Ms. Bordallo. Yes. I just wanted a point of clarification.
    Ms. Scarlett. Yes.
    Ms. Bordallo. First of all, I thank the Department of the 
Interior. Any time we can be highlighted in the big country of 
ours, you know, the small Island of Guam, I appreciate it very 
much. But on the bottom, it says a list of recreation fee 
demonstration sites in North Dakota. Is this a typo?
    Ms. Scarlett. That must be a typo. My apologies to you. We 
will get that fixed.
    Ms. Bordallo. Well, thank you very much, because I just 
didn't want anyone in the room here to think that Guam was 
located in North Dakota.
    [Laughter.]
    Ms. Scarlett. My apologies. That must certainly be a typo.
    Ms. Bordallo. Thank you.
    Ms. Scarlett. Our staff works very hard, but they put a lot 
together quite quickly. Thank you.
    Ms. Bordallo. I understand.
    Now my serious question: I recognize the many pros and cons 
to permanently authorizing the program, but I will say at this 
point that I give more support to the program, and I note that 
on Guam, our National Park, the War in the Pacific National 
Historical Park, has benefited from the Park Service's 
participation in the demonstration program, and some of the 20 
percent for agency-wide discretion has gone to upgrading 
facilities in the park on Guam. I also want to note another 
unique element of our situation in Guam. Our park attracts a 
high percentage of foreign visitors, Japanese tourists--we are 
only three to 4 hours from Japan--over 1.5 million foreign 
visitor a year, and thus a lot of the revenue from the program 
that would likely be generated from the park in Guam would be 
from patrons other than U.S. taxpayers.
    So the concern about double taxation for us is not 
particularly strong.
    But a couple of questions: Can you tell us looking at the 
demo fees in the past--and I think you did talk on this in a 
couple other instances. Are there any statistics in general 
that speak to the impact on access and use where they may have 
been implemented? Has it affected a particular unit's average 
visitation? Has it been found to slow down the rate of use or, 
say, use by the local community? Can you share with us some of 
the negatives, any of the negatives that have been discovered 
from the imposition of a fee under this program?
    Ms. Scarlett. Yes. Let me first address the issue of fees 
and their impact on visitation. We have done a lot of research 
to review that and have found no real discernible impact and, 
in fact, require ironically or perhaps surprisingly, the 
locations in the Bureau of Land Management that are now 
charging recreation fees are actually seeing substantial 
increases in visitation in part because with those fees, we are 
able to provide infrastructure that actually attracts people to 
those locations.
    So, no, generally speaking, the fees have not in any way 
adversely affected visitation. The ebbs and flows of visitation 
which have mostly been up are more affected by things like 
economic turn-downs, for example, a little blip after 9-11, as 
one might expect and has occurred with other tourist activity.
    In terms of the challenges, I think as we initially 
implemented the Fee Demo Program, and this was new in 
particular for non-Park Service sites, some of the challenges 
were that we sometimes charged fees where there was not 
significant infrastructure. The public, therefore, wondered why 
am I being charged a fee where I used to just walk, and so we 
have substantially rectified that problem.
    A second perhaps challenge is that often we have not been 
good at explaining to folks that their fees go directly onsite. 
So we have begun to address that by actually putting signage up 
that says your fees goes to support this campsite and so forth. 
When we do that, we find that support, whether it is BLM, Fish 
and Wildlife Service, or the Park Service, and indeed the 
Forest Service is 85 to 90 percent or more for the fee program 
and the benefits it provides.
    Ms. Bordallo. Thank you very much. In essence, then, there 
haven't been any real strong negative points?
    Ms. Scarlett. Well, I think that would be probably 
misleading to say there have been--certainly there have been 
some folks in the public early on in the demo program when we 
were applying fees to areas with no infrastructure that were 
strongly concerned. We believe we have addressed those problems 
largely and certainly will continue to keep our fingers on our 
pulse to address public concerns.
    Ms. Bordallo. The other quick question, Mr. Chairman, is I 
noticed that there is a waiver or discount of fees for I think 
senior citizens and persons with disabilities. Do you suppose 
that we could amend that and include the veterans? Would there 
be any objection to that?
    Mr. Thompson. Certainly I think the discussion is open. 
Certainly there are a lot of opportunities to take notice, and 
we will be willing to work with the Committee.
    Ms. Bordallo. Well, Mr. Chairman, I would like to put that 
on the table in the future, to add the veterans. Thank you very 
much.
    Mr. Radanovich. Thank you, Ms. Bordallo.
    Mr. Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman. I want to thank 
the witnesses for taking their time out of their day to come up 
here to the Hill and share their points of view with us.
    If I could, I would like to just direct the question to all 
three of you. All three of you may not need to answer, but your 
statements indicate the Administration supports Chairman 
Regula's bill; however, the President's budget says the 
Administration will submit its own legislative proposal. Can we 
expect to receive, this Committee expect to receive, an 
administrative proposal, and if so, when would you anticipate 
it being delivered up here to the Hill?
    Mr. Thompson. I might take this opportunity. The Under 
Secretary of Agriculture is here, and if there is an 
opportunity here that he could join in this discussion, I would 
certainly provide that.
    Mr. Mark Udall. I have no objection.
    Ms. Scarlett. Let me take a stab at it. I think at this 
point, with Mr. Regula's bill having been put forth, and on the 
Senate side, of course, Mr. Thomas has a National Parks Service 
fee provision, we are very much looking forward to working with 
Congress as they have developed some ideas, many of which are 
very, very much like what our Recreation Fee Leadership Council 
has outlined. So at this point, I think we are looking forward 
to continuing to work with Congress and the legislative 
provisions that are on the table at this point.
    Mark, did you want to add to that?
    Mr. Rey. I think that is right. Congressman Regula's bill 
is--
    Mr. Radanovich. Mark, would you identify yourself for the 
record?
    Mr. Rey. I am sorry. I am Mark Rey, the Under Secretary of 
Agriculture. I was at a conflicting hearing over on the Senate 
side. I will endeavor not to contradict anything that has been 
said so far, and I have instructed staff to poke me in the back 
if I do, and I will start into a coughing fit.
    But that having been said, the language in Congressman 
Regula's bill is very comparable to what we were working on 
anyway, and I think it would delay the process for the 
Committee to wait for the Administration. We are happy to work 
off of Congressman Regula's bill and the ideas that you all 
have been discussing here today.
    Mr. Mark Udall. OK. Thank you for that clarification.
    Mr. Hill, if I could direct this question to you, there is 
a later witness, Mr. Funkhouser, and I am going to have to 
leave before he gets to testify, but in his testimony, prepared 
testimony, he cites a GAO report as saying that the Forest 
Service has not adequately accounted for the costs of 
collecting fees. Is he accurate about your findings in that 
respect, and if so, how would the bill improve that aspect of 
fee management? I also spoke to this a little bit earlier when 
Chairman Regula was here.
    Mr. Hill. I think that is an accurate statement. As the fee 
demo was unfolding, one of the things we did look at was how 
the various agencies were accounting for the moneys, the fees 
they were collecting, and then for the use of those fees in 
terms of what was the expenditures.
    The Forest Service was new to the fee collection process, 
as you may be well aware. Some of the parks had been charging 
fees prior to fee demo, but the Forest Service and some of 
these other agencies, it was a new endeavor for them to kind of 
start collecting fees.
    So there was some growing pains early on there, and 
furthermore, they were making a concerted effort to use those 
fees to pay for improving visitor services and for working on 
the maintenance projects as opposed to setting up systems to 
account for the maintenance backlog or how those fees were 
being used. At the time we were doing the work when we 
questioned that to the Forest Service, one of the reasons they 
gave us for not establishing those systems to track collections 
and expenditures to the extent perhaps they could have was that 
it was fee demo program. It was not a permanent program. They 
did not want to invest the money in setting up systems for 
something that may not become permanent. They would rather use 
those expenditures on the items that sorely needed the work, 
basically the visitor services and the maintenance problems.
    So I think by making the program permanent, there would be 
some certainty not only in the revenues that would be generated 
in this program, but in also setting up systems that would 
account and track for the expenditures as well.
    Mr. Mark Udall. I appreciate that clarification, and I 
understand that rationale, that it was an experimental program, 
but I would tell you that some of the people I talked to on the 
ground don't factor that into their opinions and their 
perspectives they generate. I mentioned earlier, and I am going 
to pursue this, that there is one site in my district where a 
local for-profit marina operator was actually collecting the 
checks and the cash out of the collection box sometimes a month 
or 6 weeks after it had begun to fill again, and they were just 
astounded that the local land agency didn't have enough 
interest to come and at least collect the money. And so I think 
we have to remedy that if, in fact, we are going proceed with 
this more expanded fee demo program.
    I looked in my sheet for the particular project. I couldn't 
find it. I would note, though, that they didn't include Guam in 
Colorado or Colorado in Guam, but I know that I would like to 
pursue this and at least let the BLM or the Forest Service know 
potentially, and it might even be a Bureau Rec Program, but I 
think that this is the kind of example that we want to try to 
avoid in the future if we are going to reauthorize or more 
broadly authorize the Fee Demo Program.
    Mr. Hill. Most definitely. Here again, very early in the 
program for some of these agencies that were not used to 
collecting these fees, we did find instances where they were 
literally storing the money onsite in a room. A lot of these 
units are out in the middle of nowhere, and they are not real 
ready accessible to banks where they can make these deposits. 
So, I mean, there were some really early growing pains that 
they all went through, and I think hopefully they have resolved 
a lot of them, and if the program were to become permanent, 
that is something we would have to keep an eye on.
    Mr. Mark Udall. Yes. Well, I thank the Chairman. I am 
trying to keep him from getting anymore gray hairs as we all 
run over the time limit here, but again, thanks to the panel. 
Thanks to the land agencies that are here, and I look forward 
to working further with you on this important question.
    Mr. Radanovich. Thanks, Mark.
    Mr. Souder, did you have any more questions?
    Mr. Souder. Yes, if I could. I wanted to take another stab 
at trying to understand the Forest-BLM situation a little bit.
    Are there any fees charged in a National Forest where there 
is timber cutting?
    Mr. Rey. Yes, recreation fees in a National Forest where 
there also happens to be timber cutting. There is no relation 
between the two.
    Mr. Souder. And, Ms. Scarlett, let me ask you are there any 
fees collected in an area that mining occurs in the BLM?
    Ms. Scarlett. The BLM often manages, individual field 
managers often manage, tracts of land that might be a million 
and a half acres, even more. So, for example, if you take the 
Moab, Utah situation that I described, there is a small area 
within that Moab tract where they have the developed campsites 
and where they charge fees. Elsewhere on tracts of land managed 
by that field unit, there is other activity which would include 
in some instances mining or oil and gas development, but they 
are not the same piece of land within the overall area.
    Mr. Souder. This is one of the things that has been 
bothering me just as I move about, because I think that this 
kind of confusion is going to develop a backlash and is 
continuing to develop a backlash against the timber cutting, 
against the ability to mine or develop anywhere, because as 
people think of these as predominantly recreational or 
wilderness-type units and pay a fee for that, they are not 
going to understand because they thought that the timber 
cutting and the leasing was supposed to be paying, for example, 
in a forest, that the forest was there as it was growing and 
people were going to cut down some of the trees, that they 
could camp whenever they wanted, that they could fish whenever 
they wanted, and they weren't paying a fee, and that the 
mission as it changes, some sort of separation of BLM land and 
of National Forest land in saying this is a zone that is going 
to be an entry place where there is a park and we are going to 
push more of the recreation there as we restrict camping spots, 
for example, restrict certain kind of vehicles potentially from 
coming in, if snowmobiles can't go into a park and they only be 
the areas around it.
    That is a different function and you are walking down a 
path with these fees that ultimately I am afraid as an area 
that also depends on natural resources as well as wood that 
this is helping fuel a confusion in the general public.
    Ms. Scarlett. Let me just add to my previous comments. The 
Bureau of Land Management, of course, is a multiple use agency 
and that includes oil and gas development, some forestry 
foraging. It also includes recreation in the portfolio of 
multiple use activities that it is respond responsible for.
    BLM goes through a land use planning process, and in that 
planning process, they designate areas that are suitable for 
oil and gas development. Obviously, the place has to have oil 
and gas as a starting point. There are some areas and, again, 
without totally relying on Moab, where there are really no 
mineral resources in the particular area. In that particular 
case, there are no forests either. It is pinnacles and a river 
and very suited for recreation activities. Through the land use 
planning process, they actually have a special recreation 
designation that there is very clear public comment upon that, 
and so I believe that those distinctions that you set forth, in 
fact, are occurring through that land use planning process.
    Mr. Souder. I personally think we need a different type 
of--while you are managing it inside, for example--this is a 
big debate in this Committee in Utah over whether we do the Red 
Rocks and develop it in Utah, whether it is going to be 
basically one huge park or government-controlled area south or 
how we do this, and with mixed missions in your agencies as 
opposed to setting up a sub-recreation agency and maybe meshing 
certain of the forest lands and BLM lands that aren't being 
used in other ways, I think we are walking down a path that has 
been inevitably restricting our ability in understanding of the 
general public, because I know what those maps are, but I know 
when you drive into the area, you really have little clue. You 
see BLM and you have a BLM fee, or you go into Olympic National 
Forest and see all these trees cut down. If you paid a fee, you 
are going to have a different attitude about whether they cut 
down those trees.
    I am just telling you that is a fact, and we have to figure 
out how we are going to deal with that.
    Mr. Rey. Congressman, I think the concern has some merit to 
it. It is clear that as our Federal lands have become more 
popular for recreation use and as recreation use has increased, 
notwithstanding the fee system, but just as a matter of fact as 
people have become more and more interested in outdoor 
recreation, we have seen some increased conflict between 
recreation use and other uses; but in many cases where we have 
had the opportunity to enhance visitor awareness of the other 
uses of the land through investments made by the Recreation Fee 
Demonstration Program, to interpret the importance of those 
other uses for the recreating public, we have been able to 
diminish that amount of conflict.
    So there really are two sides to this equation, and there 
are places where recreation fee demonstration money, and for 
that matter appropriated dollars as well, have gone into 
interpreting for the recreating public what else is going on on 
BLM or Forest Service lands and why it is important for them to 
understand the necessity of those other uses to meet their 
daily needs.
    Mr. Souder. Thank you.
    Mr. Radanovich. Thank you very much, Mark.
    I do want to get one more question out of the way before we 
dismiss this second panel.
    Ms. Scarlett, I did want to get one thing down on the 
record regarding Imperial Sand Dunes Recreation Area. In the 
next page, Roy Denner, who serves as BLM's technical review 
team for the Imperial Sand Dunes Recreation Area will tell us 
how BLM this year funded a million dollar species monitoring 
study exclusively with rec fee demo money. As part of the 
study, the BLM purchased a $60,000 high-performance sand car, 
whatever that is, as opposed to considering other temporary 
methods of transportation.
    Do you consider that the purchase of this sand car an 
appropriate use of rec fees?
    Ms. Scarlett. Mr. Chairman, I am not familiar with the 
specifics of the purchase of the sand car, but let me speak 
more largely to Imperial Sand Dunes and the issue that has been 
raised there. This is a rather unique situation. There was a 
lawsuit, an endangered species lawsuit. As part of the 
settlement to that lawsuit, some 49,000 acres of previously 
recreated lands were withdrawn from recreation use. In order to 
get some of those lands back into recreation use, the Bureau of 
Land Management moved forward with an adaptive management plan, 
that is a plan that would use the biological opinion of the 
Fish and Wildlife Service, monitor the lands, and then allow 
the recreation to occur alongside with the resource protection.
    There was a time issue there because the monitoring to get 
the baseline information needed to take place in spring. They 
did use, therefore, the recreation fee moneys. That is an 
authorized use. I will say, however, that the Bureau of Land 
Management has proposed, and the President in our 2005 budget, 
a $4 million increase in appropriated funds for monitoring, and 
certainly we would like to work with the Congress on ensuring 
that we have those appropriated dollars for monitoring going 
forward.
    Mr. Radanovich. Very good. Were the rec fees for that 
particular BLM land, were they increased for this study or do 
you recall were they the same?
    Ms. Scarlett. No, they were not increased for that study. 
There is a technical review team that reviews the 
implementation of fees in Imperial Sand Dunes. The technical 
review team had looked at the previously existing fees and 
actually had made proposals for some fairly substantial 
increases entirely unrelated to this monitoring issue. In fact, 
in the end, BLM did move forward with an increase in the fee, 
again unrelated to the monitoring, and, in fact, quite a bit 
lower than the technical review team proposed. That team, I 
will say is made up of local recreators and other stakeholders 
in the process.
    Mr. Radanovich. It was my understanding that the fee was 
increased threefold. So maybe if you will double-check your 
information, recheck it for me, I would sure appreciate it.
    Ms. Scarlett. If I could just clarify, I think what I meant 
to articulate there is they did go through a fee process, and 
it had not been raised in quite a long time. They raised the 
fee, but it was not related to that monitoring issue. It was a 
separate process that was ongoing.
    Mr. Radanovich. Can you also get back to me with a good 
description of what a sand car is?
    Ms. Scarlett. I would like to find out myself.
    Mr. Radanovich. I am thinking a dune buggy here or 
something.
    Ms. Scarlett. I will do that.
    Mr. Radanovich. All right. Thank you very much.
    I would like to thank the panel for being here today. Your 
testimony is finished, and again, thank you very much. We will 
move on to our third panel.
    Mr. Radanovich. Panel number three consists of Mr. Aubrey 
King, who is head of the Gateway Alliance here in Washington, 
D.C.; Ms. Christine Jourdain, Executive Director of American 
Council of Snowmobile Associations, the American Recreation 
Coalition; Mr. Roy Denner, President and CEO of the Off-Road 
Business Association from Santee, California; Mr. David L. 
Brown, Executive Director of the America Outdoors, Knoxville 
Tennessee; and Mr. Robert Funkhouser, President of the Western 
Slope No-Fee Coalition from Dorset, Vermont.
    Ladies and gentlemen, welcome to the Committee. If you 
could, I would ask you to keep your testimony to the 5-minute 
rule. As you will notice, 5 minutes are up when the red light 
shines, and we will hear testimony from everybody and then 
after that open it up for questions from the panel.
    I would like to welcome Mr. Aubrey King to the 
Subcommittee. Aubrey, good to see you and thank you for being 
here, and if you would like to begin, I would sure appreciate 
it. You might want to turn your mike on down there and kind of 
bring it in to you a little bit if you don't mind. Thank you.

   STATEMENT OF AUBREY KING, PRESIDENT, NATIONAL ALLIANCE OF 
             GATEWAY COMMUNITIES, WASHINGTON, D.C.

    Mr. King. Mr. Chairman, thank you very much for the 
opportunity to testify today on behalf of the National Alliance 
of Gateway Communities. We have submitted longer comments which 
we request to be added to the record.
    As you know, our organization represents the interest of 
those communities that serve as gateways for millions of 
domestic and international visitors to our magnificent National 
parks, forests, and other Federal public lands. We commend you 
for holding this hearing on H.R. 3283 and the future of the 
Recreation Fee Demonstration Program. We commend Chairman 
Regula for introducing H.R. 3283, and we certainly agree that 
it provides a good solid start for this reconsideration of fee 
demo.
    After being created and sustained by the Appropriations 
Committee since 1996, it is now time for authorizing committees 
to take over and determine the future of the Fee Demo Program. 
NAGC supports making the Fee Demo Program permanent or 
extending it on a long-term basis, perhaps for 6 years or more. 
H.R. 3283 would accomplish that goal and accomplish important 
fee demo reforms, but we believe further changes are necessary.
    Fee demo generates approximately a $180 million annually 
for the four agencies involved, and, very significantly, 80 
percent or more of this revenue must be spent at the site or 
area where it is collected. This is has enabled the agencies to 
invest in badly needed local infrastructure maintenance that 
has made those lands safer, more convenient, more attractive, 
and more useable for both visitors and for gateway citizens.
    Gateways, obviously, have a vital interest in visitors to 
the Federal lands, enjoying a positive pleasurable experience 
on those lands. Gateways understand the value of fee demo as 
shown in a January 2004 NAGC member survey when 76 percent of 
the respondents expressed support or strong support for fee 
demo. At the same time, gateways are perhaps more familiar than 
anyone with the difficulties the agency have encountered as 
they have implemented fee demo. In our longer written 
submission, we cite what seems to have been many of the major 
implementation problems as well as some of the philosophical 
objections to the program.
    Some agencies have done better than others, but clearly 
there have been problems from the layering of fees to 
inconsistencies and poor interagency and intergovernmental 
coordination. Concessioners and permittees have suffered from 
fee increases levied on both them and their customers without 
sufficient notice or input. Gateway businesses have been 
damaged when fee demo revenue has been used to develop, expand, 
or modernize unnecessary recreation facilities that compete 
unfairly with existing nearby businesses. To their credit, the 
fee demo agencies have recognized many of these problems and 
have taken encouraging steps to correct most of them.
    H.R. 3283 will bring about important permanent fee demo 
reforms, especially by encouraging greater interagency and 
internal governmental coordination, although we do recommend 
that the agencies be directed to make such coordination a top 
priority instead of simply encouraged and by more specifically 
delineating which fees can be charged at which locations and 
for what activities. We believe it is absolutely essential, as 
H.R. 3283 would do, to keep 80 percent of the revenue collected 
at the local level.
    We strongly agree, also, with the bill's allowing gateway 
communities to play a role in collecting fees. We especially 
endorse allowing five different Federal land agencies to 
implement fee demo and would support, in fact, adding the Corps 
of Engineers as the sixth fee demo concern.
    We oppose limiting fee demo to only one or two agencies 
because this would further aggravate the problems of 
inconsistency and lack of coordination. It would not address 
implementation problems in all of the agencies, and it would 
create more of a budget gap between have and have not land 
agencies.
    Before we can give our full support to H.R. 3283, however, 
we believe further reforms are necessary, and we detailed these 
in our written comments. These include providing clear and 
explicit authority for the agencies to collect fees for each 
other. H.R. 3283 suggests that and heads in that direction, but 
we think more explicit authority should be provided. State and 
local tourism offices should be utilized to identify areas with 
special tourism and recreational appeal. There should be an 
authority to utilize differential fee pricing to respond to 
seasonal demand. We recommend utilization of a portion of fee 
demo revenue or public information, education, and 
communication programs with the better known Federal land.
    We suggest development of local advisory process involving 
state tourism offices, gateway communities, as well as 
concessioners and outfitters to help design and plan fee 
structures. We recommend establishment of a National recreation 
fee advisory board to set broader principles and guidelines for 
the country as a whole. We recommend that somewhere in this 
legislation or perhaps in the report language that there be an 
assurance that Federal land budgets will not be cut or have 
their growth rates reduced to offset fee revenues.
    In concluding, let me make clear, Mr. Chairman, while no 
one likes to pay fees, the Recreation Fee Program is essential 
for the fiscal future of the Federal lands. It cannot be the 
only answer, and we suggest a more comprehensive review of all 
the Federal land fiscal outlooks here, and we very much doubt 
that in these times of heavy demands on the Federal Treasury, 
Congress would be likely to replace $180 million in fee demo if 
we allow it to go away. The obligation of all of us must be to 
ensure that the future fee program is as fair and reasonable as 
possible.
    Thank you.
    [The prepared statement of Mr. King follows:]

                Statement of Aubrey C. King, President, 
                National Alliance of Gateway Communities

    Mr. Chairman, it is an honor and pleasure for me to present these 
comments to you this afternoon on behalf of the National Alliance of 
Gateway Communities (NAGC) regarding the recreation fee demonstration 
program (``fee demo''). I am Aubrey King and I am President of the 
NAGC.
    We are here today to testify with regard to H.R. 3283 and to 
express our appreciation to Chairman Regula for introducing it. The 
innovative fee demo program was, of course, originally the creation of 
Chairman Regula and we commend him and others in Congress who have 
supported the program over the years. We have some reservations about 
H.R. 3283, however, and we want to recommend several amendments, which 
we believe will make the recreation fee program as proposed in this 
legislation stronger and more effective.
    Mr. Chairman, it is also appropriate at this time to commend you 
and this subcommittee, as well as other authorizing committees and 
subcommittees in both Houses of Congress, for reviewing the fee demo 
program as part of your authorization responsibilities. Since its 
inception, fee demo has been sustained solely through the Congressional 
appropriations process. The appropriations committees have made a 
significant contribution to the vitality of our Federal lands through 
establishing and extending the innovative fee demo program. But, as the 
appropriators themselves recognize, it is now time for the authorizers 
to decide the future of fee demo.

The National Alliance of Gateway Communities Interest in Fee Demo
    The NAGC is the national trade association that represents the 
interests of those communities that serve as gateways for millions of 
domestic and international visitors to our magnificent national parks, 
forests and other Federal public lands.
    The expenditures of these visitors support the economic base for 
hundreds of gateway communities and serve as the mainstay for economic 
growth. Not only are the Federal lands a critical tourism draw for 
gateway communities, their accessibility also contributes very 
substantially to the quality of life for residents who can so easily 
take advantage of the scenic and recreational appeal of those lands in 
their backyards.
    Since formation of the NAGC in 1999, we have recognized the 
critical importance of the recreation fee demonstration program (``fee 
demo'') and regarded it as a priority issue on the NAGC agenda. We 
believe that the hundreds of millions of dollars that have been 
generated by fee demo, with eighty percent retained for use at the 
lands where it is collected, have enabled thousands of projects to be 
completed, significantly reducing the infrastructure maintenance 
backlog that has plagued these agencies for decades. The result has 
been to improve the Federal lands experience for both visitors and 
residents. We have closely followed the implementation of the program 
by the four Federal agencies given this responsibility by Congress, 
testifying and submitting several statements to Congress during this 
period in broad support of fee demo while recommending substantial 
reforms in the program.
    In a January 2004 survey of the NAGC membership, 76 percent of 
those responding said they either supported or strongly supported the 
fee demo program. Most gateway residents understand how important it is 
to retain 80 percent of fee demo revenue for use at the public lands 
location where it is collected. They understand that fee demo revenue 
has funded numerous projects that have made the Federal lands more 
appealing and more enjoyable for visitors. They understand that it is 
unrealistic to expect that the $180 million now collected annually from 
fee demo will be replaced through the Congressional appropriations 
process. They believe it is imperative that this recreation fee stream 
be continued by Congress.
    Mr. Chairman, we would also note that there has been discussion of 
combining recreation fee legislation with key elements of H.R. 1014, 
the Gateway Communities Cooperation Act, which you introduced. While we 
can see the benefits of such a combined bill, we do not favor anything 
that would delay consideration of H.R. 1014, which, as you know, has 
received careful attention for nearly four years and seems to be moving 
towards passage.

Importance of Fee Demo
    It is clear to us that fee demo has benefitted the Federal lands, 
allowing them to serve their visitors better and, thereby, to have an 
even more positive impact on state and gateway community economies.
    In Fiscal Year 2004, it is estimated that fee demo will generate 
approximately $180.2 million for all four agencies involved, with the 
National Park Service collecting $124.7 million, the Forest Service $42 
million, the BLM $9.5 million and the Fish & Wildlife Service $4 
million. Revenue from fee demo has been used almost entirely to pay for 
badly needed infrastructure maintenance and visitor service facilities 
at the public land sites where the revenue is collected.
    The NAGC believes the case for fee demo transcends budgetary needs 
and that fee demo has the potential to: (1) engender greater public 
appreciation for the Federal lands by showing the value-added benefits 
of those lands and the recreation experience; (2) help agencies manage 
access to overcrowded areas; (3) encourage greater stakeholder 
participation in Federal land management decisions; and (4) encourage 
greater interagency and interdepartmental coordination.

Criticisms of Fee Demo
    We fully recognize that implementation of fee demo has been 
problematic. We are sure that other witnesses before this subcommittee 
will elaborate on criticisms of fee demo implementation. It should be 
noted that these criticisms are, for the most part, much less 
applicable to the National Park Service, which has long experience with 
administering entrance fee programs and as it has implemented fee demo, 
has for the most part simply increased fee levels and expanded the 
number of entrance fee sites. For the Forest Service the BLM and the 
Fish & Wildlife Service, without a tradition of fee collection, and 
often with multiple points of entry onto their lands that make 
enforcement of entrance fees difficult, fee demo implementation has 
necessarily been more varied and more experimental.
    Following is a summary of what appear to us to have been the most 
serious and valid shortcomings of fee demo implementation. While 
significant strides have been made by the agencies to address many of 
these problems, further improvements are needed in new recreation fee 
authorization legislation and many of them are addressed in H.R. 3283.
    1.  Fee demo implementation has too often resulted in ``layering'' 
of fees whereby visitors are required to pay multiple fees for 
different services or activities at the same site.
    2.  Fees levied at different sites by different agencies have not 
been coordinated to prevent duplicate fees and to ensure that 
comparable fees are charged for comparable services.
    3.  Fees have been charged that are disconnected to Federal land 
improvements, with the result that visitors and residents are asked to 
pay for the same services and facilities that have previously been 
available without charge. (This has been a particular complaint of many 
local gateway community residents upset at suddenly having to pay for 
access to the same Federal lands they have always regarded as their 
``backyards'' with virtually unlimited access.)
    4.  Related to the preceding point, fees have been charged for 
access to ``dispersed recreation areas'' where the benefits from such 
fees are not self-evident.
    5.  Concessioners and permittees, who have already paid their 
contractual fees, made their business and marketing plans and set their 
prices accordingly, have objected strongly when their customers on 
short notice have had to pay additional fees under fee demo.
    6.  Local gateway community businesses object that fee revenue has 
been used to modernize or expand facilities on the Federal lands that 
compete unfairly with nearby private businesses.
    7.  The Federal agencies have spent too much on implementation of 
the fee demo program.
    In addition to these implementation criticisms, there have been 
what can be termed philosophical objections to fee demo, with three of 
them especially prominent: (1) that fee demo charges Americans for use 
of Federal lands they own and are already paying for through their 
taxes; (2) that fee demo is economically regressive and inhibits use of 
the Federal lands by those with lower incomes; and (3) that fee demo 
encourages commercialization of the Federal lands by forcing the 
agencies to rely more on revenues generated by more visitors, resulting 
in ecological damage to those lands.
    To the extent that such philosophical objections reflect different 
value judgments they are difficult to rebut, but we would make the 
following points. First, it is not at all uncommon to levy user fees 
for government products and services that are principally beneficial to 
individual citizens. Second, a carefully structured and implemented fee 
program can add considerably to the visitor experience on our Federal 
lands and can actually enhance the protection of the environment and 
the preservation of the resource.

NAGC Position Regarding H.R. 3283 and Further Recommendations
    The NAGC realizes that the agencies themselves have taken 
meaningful steps to reform the fee demo program. The Federal Recreation 
Fee Council, co-chaired by Interior Assistant Secretary Lynn Scarlett 
and Agriculture Under Secretary Mark Rey, has greatly improved 
interdepartmental and interagency coordination and helped make the 
overall program more consistent and rational. Although it does not 
address all the concerns about fee demo implementation, we are also 
encouraged by individual agency initiatives, such as the 2003 Forest 
Service's Blueprint for Recreation Fees, which shows an awareness of 
the problems and outlines several promising initiatives.
    As indicated earlier, the NAGC supports authorization of a 
permanent or long-term, reformed fee demo program. Permanent 
authorization would provide the agencies with maximum certainty to 
facilitate long-term planning. We are pleased, therefore, that H.R. 
3283 would establish a permanent recreational fee program that would 
require agencies to retain no less than 80 percent of recreation fee 
revenues at the specific public lands unit or area where it is 
collected.
    If, however, Congress believes it is advisable to mandate a review 
of the effectiveness of recreational fee program reforms, we believe a 
six-year authorization, as with the Federal surface transportation 
program, would provide a reasonable balance between agency planning 
needs and time to assess the impact of reforms and other changes in the 
program.
    We support expanding the recreation fee program to include the 
Bureau of Reclamation and would also support adding the U.S. Army Corps 
of Engineers. We believe all the Federal land agencies that provide 
recreational services and facilities to the public should be included 
in recreation fee demonstration.
    We cannot support legislation such as S. 1107 which would establish 
a permanent recreation fee program but only for a single agency (i.e., 
the National Park Service). Visitors to the Federal lands often do not 
distinguish between the different agencies managing those lands and 
many of the problems with fee demo legislation have arisen because of a 
lack of cooperation and coordination between the different agencies. 
Congress should address the issue of recreation fees comprehensively.
    We applaud the purposes and principles of the recreation fee 
program as outlined in H.R. 3283. Although the stated purposes and 
principles are stated in general terms and need to be interpreted and 
clarified, they are a significant step towards development of a 
coherent, rational set of guidelines.
    We are especially pleased that H.R. 3283 would encourage greater 
interagency and intergovernmental coordination of recreation fees, in 
particular through the creation of ``regional, multientity passes'' in 
Section 10(b). We recommend, however, that such interagency and 
intergovernmental coordination be more strongly encouraged in the 
legislation. Instead of saying the Secretary ``may'' establish regional 
multientity passes, Section 10(b) should direct that the Secretary 
``shall'' or ``will'' establish them.
    We also support the provision in H.R. 3283--Section 4(f)--allowing 
fee management agreements, as a means of allowing gateway businesses 
and others to provide fee collection and processing services. This will 
not only help reduce agency administration costs, but it will also 
promote closer cooperation between the public land agencies and gateway 
communities.
    In addition, to strengthen H.R. 3283, we strongly recommend the 
following amendments to H.R. 3283:
     1.  Agencies should be explicitly authorized to develop 
cooperative agreements to collect fees for each other. Although this is 
apparently now occurring in some areas, many local agency managers are 
unwilling to enter into such agreements without clear statutory 
authority;
     2.  Agencies should utilize the expertise and experience of state 
and local tourism offices to help identify areas with particular 
tourism and recreation appeal that justify entrance or access fees. 
``Special Places'' with a high degree of such appeal may be identified 
through a selection process similar to that used to designate national 
scenic byways;
     3.  Agencies should be encouraged to use differential pricing for 
fees to recognize seasonal market demand;
     4.  Some fee revenue--perhaps ten percent--should be used to 
develop public information, education and communication programs for 
better known parks, forests and other lands. Such programs can be 
coordinated with ongoing state and local tourism office marketing 
efforts;
     5.  The Federal agencies should work more closely with state 
tourism offices and gateway communities in designing and planning fee 
structures. Local fee boards should be established to review and 
approve proposed Federal public land recreation fees because of their 
impact on gateway communities and their residents;
     6.  A National Recreation Fee Advisory Board, as recommended by 
the American Recreation Coalition, should be established to recommend 
common criteria for fees, oversee agency fee programs, foster 
coordination of fees, review innovative fee proposals, prepare annual 
reports on fee programs and review appeals alleging unjustified or 
inappropriate fees. Both national and local fee advisory groups should 
have members representing those principally paying the fees, including 
concessioners and permittees;
     7.  Following the fee demo model, eighty percent of the revenue 
from special use permit fees should also be retained and used at the 
locations where it is collected. While the National Park Service is 
authorized to retain such special use permit revenue for use at the 
local sites where it is collected, the other Federal land agencies are 
required to turn over all such revenue to the General Treasury, thus 
foregoing substantial revenue for local use. In the thirteen western 
states, for example, the Forest Service collects about $25 million 
annually in revenue from special use permit fees--nearly as much as the 
agency collects from fee demo. Yet the Forest Service must return all 
that revenue to the Federal Treasury;
     8.  The fee program should be carefully monitored in the future 
through the Congressional authorization process;
     9.  Any new recreation fee legislation should include 
Congressional assurance that revenue from fees will not be nullified or 
offset by reductions or lower growth rates in agency budgets; and
    10.  Most attention given recreation fees has focused on how the 
fees are set and collected. Similar attention needs to be given to how 
fee revenue is spent. A major criticism of fee demo expenditures has 
occurred when the result has been to fund projects on the Federal lands 
that duplicate services or activities already available in nearby 
gateway communities. An example is when campgrounds on Federal lands 
are constructed, expanded or upgraded when nearby private campgrounds 
could readily accommodate additional campers. The result is to create 
unfair competition that damages private-sector businesses. We recommend 
that Congress direct the agencies to conduct a study of any new visitor 
service projects that may pose unfair competition for private gateway 
businesses and ensure: (a) that the project is really necessary and 
duplicative of services already available in the community; and (b) 
that any fees charged for services on the Federal lands are comparable 
to those charged in the private sector.
    We are also concerned about potential adverse consequences of H.R. 
3283 on concessioners, outfitters and guides on the Federal lands. In 
the first place, it is important that public lands recreation fees be 
set with full consideration of their impact on these vital private-
sector partners. It is unfair for the agencies to increase recreation 
fees after the concessioners, outfitters and guides have published 
their prices for the season. To avoid this problem, we recommend that 
any long-term recreation fee legislation make clear that Congress 
intends that no fees should be set that will reduce recreation use and 
the prospects for profits by private-sector businesses under existing 
contracts or permits. S. 1107 contains worthwhile notice and 
documentation provisions that should be considered in this context. A 
second serious concern regarding the impact on H.R. 3283 on 
concessioners, outfitters and guides is its repeal of Section 4 of the 
Land and Water Conservation Fund Act of 1965. This would seem to repeal 
current Forest Service and BLM permitting authority. There may also be 
potential conflicts with the National Park Omnibus Management Act. Such 
dramatic changes in these fundamental statutes must be carefully 
considered.
    In addition, the agencies should be encouraged to communicate to 
visitors and the public the benefits of their fee programs in terms of 
providing a better visitor experience. Wherever possible, investments 
from fee revenue should be tangible and visible. Public land recreation 
users, local governments and the tourism and recreation industry should 
be involved in the design and implementation of fee programs.
    Finally, the NAGC realizes that fee revenue will never be 
sufficient to meet the budget needs of the Federal land agencies. At 
the same time, it seems likely that stringent demands on Federal 
finances will create severe pressure on natural resource agency 
budgets. With this in mind, we strongly urge Congress to undertake a 
more comprehensive review of the fiscal needs of these agencies and 
consider a wide range of options, including integrated fee strategies, 
public-private partnerships, Federal land bonds, encouragement of 
volunteer support, technological initiatives and other alternatives.

Summary and Conclusions
    The National Alliance of Gateway Communities supports long-term 
authorization by Congress of the recreation fee demonstration program 
as vital to the viability of the tourism and recreation industry and 
economies of hundreds of gateway communities. Not only does fee demo 
provide essential revenue to fund critical infrastructure and 
maintenance projects to improve the visitor experience, its potential 
benefits can be even greater, including demonstrating to visitors and 
the public the value-added importance of the Federal lands, providing 
an important management tool regarding access to overcrowded areas, 
encouraging a greater stakeholder role in land management decisions and 
encouraging more interagency and intergovernmental coordination. The 
policy of retaining and using at least eighty percent of fee demo 
revenue at the location where it is collected must be continued.
    While H.R. 3283 is a useful beginning to the establishment of a 
permanent or long-term recreation fee program, it also has several 
shortcomings. Clearly, for the fee demo program to fulfill its promise, 
reforms are necessary. The NAGC believes that an effective recreation 
fee program should contain the following elements:
     1.  development of more regional interagency and intergovernmental 
fees;
     2.  clear authority for the agencies to collect fees for each 
other;
     3.  utilization of state and local tourism offices to identify 
areas with special tourism and recreation appeal;
     4.  utilization of state agencies and local gateway businesses to 
collect fees;
     5.  utilization of differential fee pricing to respond to seasonal 
demand;
     6.  utilization of a portion of fee revenue for public 
information, education and communication programs for better-known 
Federal lands;
     7.  development of a local advisory process involving state 
tourism offices and gateway communities to help design and plan fee 
structures;
     8.  establishment of a National Recreation Fee Advisory Board;
     9.  retention and use of eighty percent of revenue from special 
use permit fees at locations where it is collected;
    10.  Congressional assurance that Federal land budgets will not be 
cut nor have their growth rates reduced to offset fee revenue; and
    11.  prevention of expenditures from recreational fees being used 
to fund projects that duplicate and compete unfairly with gateway 
businesses.
    Finally, we urge that Congress undertake a comprehensive review of 
the short- and long-term outlook for Federal land agency budgets, 
realizing that recreation fees must be part of a broader fiscal 
strategy for the Federal lands.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. King.
    I want to welcome Ms. Christine Jourdain, Executive 
Director of the American Council of Snowmobile Associations. 
Welcome to the Subcommittee, and you may begin your testimony.

 STATEMENT OF CHRISTINE JOURDAIN, EXECUTIVE DIRECTOR, AMERICAN 
    COUNCIL OF SNOWMOBILE ASSOCIATIONS, AMERICAN RECREATION 
        COALITION, BOARD MEMBER, EAST LANSING, MICHIGAN

    Ms. Jourdain. Thank you.
    Good morning. I am the Executive Director of the American 
Council of Snowmobile Associations, comprised of 25 state 
snowmobile associations representing over 1.7 million 
snowmobilers in the U.S. I also appear today as a director of 
American Recreation Coalition, a National federation of more 
than 100 organizations.
    Let me begin by expressing appreciation to Congressman 
Regula, author of the legislation under consideration today.
    We perceive fees as one element in assuring the public that 
visits to their lands will be enjoyable and safe. Fees are not 
an end goal. Rather, they are a means to help achieve our goal 
of great experiences in the Great Outdoors, along with an 
appropriated funds, volunteerism, partnerships, and more. ARC 
members took an active part in the National debate on fees 
hosted by the President's Commission on America's Outdoors from 
1985 to 1987. Americans made it clear then that they would pay 
reasonable fees for quality recreation opportunities just as 
they will pay reasonable costs for quality sleeping bags and 
boats, but the agencies had little incentive to charge 
recreation fees since they disappeared into the general 
Treasury accounts.
    We agreed with their call for more financial reliance, but 
not complete reliance upon visitors to Federal recreation 
facilities. We applaud this Committee's involvement in the 
creation of the Fee Demo Program which has provided new 
resources, nearly $200 million annually to protect the Great 
Outdoors legacy and to enhance many of the more than one 
billion visits we make to Federal lands systems each year. We 
have monitored the actions of the agencies involved in the Fee 
Demo Program and consider the program to be successful in the 
most part.
    We believe it is time to move forward, ending the short-
term nature of the demonstration. This brings us to our 
comments on H.R. 3283. The American Recreation Coalition's 
position on Federal recreation fees is very consistent with the 
principle section of this bill. The additional principle we 
urge would reflect the increasing importance of the Great 
Outdoors in boosting the physical and mental health of all 
Americans. Yet, despite our agreement on the principles and 
appreciation for both Mr. Regula and this Committee, we cannot 
support H.R. 3283 in its present form. Our most serious concern 
is this bill would provide permanent authority for recreation 
fees. We disagree.
    We believe that further experimentation is needed in the 
fee area both to over come concerns about specific fee 
demonstration projects and to capitalize on new technology and 
communication opportunities. New understandings achieved 
through this process might modify the desirable provisions for 
Federal recreation fee programs in the future.
    We also believe that both now and again periodically in the 
future, the Congress must make the point to Federal agencies 
that fees are merely one aspect of a program to enhance visitor 
experiences in the Great Outdoors. At the same time, Congress 
should provide direction to the agencies on priority issues of 
the collected fees. This is exactly the pattern used to guide 
the Nation's surface transportation program. Both Federal fuel 
tax and the programs using those taxes are reenacted every 6 
years.
    A second concern is that the legislation before the 
Committee fails to go far enough in encouraging unification and 
simplification of recreation fees. It also fails to cover the 
U.S. Army Corps of Engineers and Bureau of Reclamation.
    A third concern is the failure to address the full range of 
fees paid by special recreation permit holders. We support 
retention of fees to assist in providing and enhancing visitor 
services, but realize the complication, including laying of 
fees under other authorities such as cost recovery. We also 
support David Brown's comments that he will make on this topic.
    A fourth concern is the failure to create mechanisms to 
ensure that fee programs meet H.R. 3283's collaborative 
principle. We urge the creation of a new recreation fee 
advisory board with authority to review program complaints and 
appeals. This board would also be responsible for preparing 
annual reports on Federal recreation fees. Avenues on the local 
level are also needed to achieve the collaborative principle.
    A fifth concern is the failure of H.R. 3283 to establish a 
new recreation fee site investment account allowing 
improvements in advance of new or raised fees. Fees are 
accepted readily if facilities and services are improved and 
least welcomed when new or higher fees are charged without 
instant and obvious results.
    Sixth, we urge that the legislation clarify the language 
authorizing waivers of fees for volunteers. We specifically 
urge creation of a new ``Take Pride in America'' pass.
    Seventh, we applaud H.R. 3283's focus on outcomes, not 
incomes, yet the legislation fails to incorporate adequate 
provisions to this goal. We urge inclusion of rewards for those 
sites that are receptive to alternative means of providing 
services and facilities on Federal lands through partnerships 
and enlisting the assistance of correction agencies.
    Eighth, new authorities for creative and innovative 
partnerships among Federal agencies, non-profits, and 
corporations are needing, including the use of PPVs and NAFIs.
    Finally, we understand the need to limit fee collection, 
yet we are concerned that the limits imposed may preclude some 
fee strategies that would increase convenience, efficiency, and 
other principles that might have broad support.
    Thank you for your interest.
    [The prepared statement of Ms. Jourdain follows:]

 Statement of Christine Jourdain, Executive Director, American Council 
   of Snowmobile Associations, Member, Board of Directors, American 
                          Recreation Coalition

    Mr. Chairman and distinguished Members, I am Christine Jourdain and 
I am the Executive Director of American Council of Snowmobile 
Associations (ACSA), based in East Lansing, Michigan. The Council is 
comprised of 25 state snowmobiler associations comprised of more than 
2,500 local clubs representing over 1,700,000 snowmobilers in the 
United States--and these outdoor enthusiasts are very frequent visitors 
to federal recreation sites. I also serve as a member of the Board of 
Directors of the American Recreation Coalition (ARC), a national 
federation of more than 100 national organizations actively involved in 
meeting the recreation needs of Americans. ARC's members produce 
recreational products ranging from canoes to motor homes to tents, 
provide services ranging from campsites to downhill skiing and 
represent the interests of tens of millions of us belonging to 
individual membership groups including the Good Sam Club and BoatU.S. 
ARC members have a very strong interest in fees at federal recreation 
sites and played a key role in the creation of the National Recreation 
Fee Demonstration Program. I appear in a dual capacity, representing 
both ARC and ACSA.
    Let me begin by expressing appreciation to the author of the 
legislation under consideration today, the Honorable Ralph Regula. His 
work on behalf of public lands and recreation has been extraordinary, 
and ARC presented him with the highest recognition of the recreation 
community, the Sheldon Coleman Great Outdoors Award, in June 2000. 
Moreover, Mr. Regula's commitment to recreation prompted him to work 
closely with ARC and others in crafting the National Recreation Fee 
Demonstration Program, which paved the way for consideration of this 
legislation.
    We perceive fees as one element in assuring members of the public 
that their visits to their lands will be enjoyable and safe. Fees are 
not an end for us--rather they are a means to help achieve our goal of 
great experiences in the great outdoors in conjunction with such other 
tools as volunteerism, appropriated funds, partnerships and more.
    Federal recreation programs have been underfunded for years, 
resulting in an immense backlog of deferred maintenance and a failure 
to develop new capacity as demand for recreation has grown. Prior to 
the creation of the National Fee Demonstration Program, federal fees 
existed but failed to contribute to recreation site operations. 
Campgrounds operating with solely appropriated funding opened later and 
closed earlier--frustrating millions who sought to use their lands and 
were willing to pay, but who found only locked gates. We saw declines 
in interpretive programs--the ranger walks and campfire talks that have 
left indelible impressions on me and tens of millions of others. We saw 
recreationists and federal officials alike frustrated that no monies 
were available to create and manage opportunities for newly popular 
recreational activities, such as mountain biking and rock climbing. And 
we learned that the rules of the funding game taught federal agencies 
to focus on the satisfaction of Congressional appropriators, not 
visitors.
    ARC members took an active part in the national debate on fees 
hosted by the President's Commission on Americans Outdoors (PCAO) 
from1985 to 1987. Americans across the country made it clear that they 
were willing to pay reasonable fees for quality recreation 
opportunities--just as they will pay reasonable costs for quality 
sleeping bags and boats. But we heard that the agencies had little 
incentive to charge recreation fees, since fees generally disappeared 
into general Treasury accounts. We agreed with PCAO's call for more 
financial reliance--but not complete reliance--upon visitors to federal 
recreation facilities to ensure that our national parks, national 
forests, wildlife refuges and public !ands remain hosts to outstanding 
recreation experiences.
    We applaud this committee's involvement in tandem with the Interior 
Appropriations Subcommittee in the creation of the fee demonstration 
program, which has provided a crucial learning opportunity. Across the 
nation, new fees have been tried and fees have been collected in new 
ways. In addition to the learning going on, federal agencies have had 
substantial new resources--approximately $200 million annually--to 
protect the Great Outdoors legacy we share and to enhance many of the 
more than one-billion visits we make to federal land systems each year.
    We have closely monitored the actions of the four agencies involved 
in the fee demonstration program, consulting with local recreationists 
as well as agency officials implementing the program. In general, we 
consider the fee demonstration program to have been a success. We 
believe it is time to move forward, ending the short-term nature of the 
demonstration program and commencing a new, six-year fee program.
    This brings us to our comments on the legislation before the 
Committee today. The American Recreation Coalition's position on 
federal recreation fees is remarkably consistent with the Principles 
section of H.R. 3283. We will address mechanisms seeking to achieve 
these Principles later in this testimony because our experience under 
fee demonstration has been that the details of fee programs can 
seriously undermine program goals. The sole additional Principle we 
seek to include in the legislation would be to reflect the increasing 
recognition of the role of the Great Outdoors in the physical and 
mental health of all Americans, especially in light of the health risks 
arising from inadequate physical activity by more than two-thirds of 
the public.
    Yet despite our agreement on Principles and our appreciation for 
both Mr. Regula and this Committee, we cannot support H.R. 3283 in its 
present form.
    Our most serious concern is that H.R. 3283 would provide permanent 
authority for recreation fees. We disagree with granting this authority 
for several reasons. First, and most importantly, we believe that 
substantial further experimentation is needed in the fee area, both to 
overcome recognized concerns about specific fee demonstration projects 
and to capitalize on new technologies and communications opportunities. 
New understandings achieved through this process might modify the 
desirable provisions for federal recreation fee programs in the future.
    We also believe that both now and again periodically in the future, 
the Congress must make the point to federal agencies that fees are 
merely one aspect of a program to enhance visitor experiences in the 
Great Outdoors. At the same time, the Congress should provide direction 
to the agencies on priority uses of the collected fees. This is exactly 
the pattern employed by the Congress to oversee the nation's surface 
transportation program: Both the federal fuel tax and the programs 
using those taxes are enacted by Congress every six years.
    A second serious concern is that the legislation before the 
Committee fails to go far enough in encouraging unification and 
simplification of recreation fees. For one thing, it fails to cover the 
federal agency hosting the largest number of recreation visits 
annually--the U.S. Army Corps of Engineers--as well as the Bureau of 
Reclamation, a growing factor in recreation in the fast-growing western 
U.S. We would further ask that Section 10(b) of the legislation be 
amended to give strong encouragement to integration of fees charged by 
federal, state and local agencies--an area with minor, but promising, 
achievements to date. The Oregon Coastal Pass is a model in this 
regard.
    A third concern is the failure to address the full range of fees 
paid by special recreation permit holders. We support retention of fees 
paid for those permits to assist in providing and enhancing visitor 
services but note the current and potential future complications 
associated with these fees, including burdensome layering of fees under 
other authorities, such as cost recovery. We recognize that another 
witness at today's hearing, David Brown, will be addressing this issue 
in some depth and wish to express support for his comments.
    A fourth concern is the failure to create sufficient mechanisms to 
ensure that fee programs meet the ``collaborative'' Principle of the 
legislation. We urge new provisions affecting both the national and the 
local levels. First, we endorse the creation of a new National 
Recreation Fees Advisory Board with authority to review fee program 
complaints and appeals. The Board would also be responsible for 
preparing annual reports on federal recreation fees. A significant 
number of the Board members should represent those paying fees. At the 
local level, several agencies have existing RACs--resource advisory 
committees--which can and should be utilized to achieve this principle.
    A fifth concern is the failure of H.R. 3283 to establish a new 
recreation fee site investment account which would allow improvements 
prior to imposition of new or raised fees. Experience in the field 
shows that fees are accepted readily if facilities and services are 
improved, and least welcomed when new or higher fees are charged 
without prompt and observable results. Congress can aid fee acceptance 
by establishing and funding a revolving fund used to create 
enhancements, a fund which could be repaid in part with collected fees.
    Sixth, we urge that the legislation clarify the language 
authorizing waivers of fees for volunteers. We specifically urge 
creation of a new Take Pride in America Pass, available only as 
recognition of significant volunteer efforts at one or more federal 
sites. In addition to promoting volunteerism, the pass could have other 
beneficial effects. It would provide an alternative for access to those 
who face economic or other challenges regarding fees. This pass would 
also eliminate concerns about the legal uncertainties arising from 
giving passes available for purchase to volunteers--including questions 
about coverage under Workmen's Compensation and protection from 
lawsuits. Moreover, the opportunity to recognize volunteers could 
enable federal sites with little or no opportunity to collect fees to 
benefit indirectly from the fee program. These areas could offer their 
volunteers the ability to be exempted from fees at other federal sites.
    Seventh, we applaud the title and purposes of H.R. 3283 to focus on 
outcomes, not incomes. Yet, the legislation fails to incorporate 
adequate provisions to advance this goal. We urge inclusion of rewards 
for those sites that demonstrate a receptivity to alternative means to 
provide services and facilities on federal lands through partnerships 
with state and local agencies, volunteers and ``friends'' organizations 
and concessioners/permittees and/or enlisting the assistance of 
corrections agencies and military units in caring for America's public 
lands and the recreation facilities on those lands One such provision 
would be to permit the Secretary to increase retention from 80% to 90% 
for units and programs demonstrating this principle.
    Eighth, we have grown increasingly interested in new authorities 
for creative and innovative partnerships among federal agencies, 
nonprofits and corporations to meet legitimate public recreation needs, 
including use of PPVs (Private/Public Ventures) and NAFIs (Non-
Appropriated Funding Instrumentalities). We urge inclusion of NAFI 
authority parallel to that recently given to the Department of Veterans 
Affairs on at least a demonstration basis for all agencies covered 
under H.R. 3283 as a means to expand or replace the investments 
contemplated under the new recreation fee site investment account 
described above.
    Finally, we understand the need to constrain fees beyond the limits 
contained under the National Recreation Fee Demonstration Program. 
However, we are concerned that the limits imposed under H.R. 3283 may 
preclude some fee strategies that would increase convenience, 
efficiency and other principles and might enjoy broad public support. 
For this reason, we support granting to the National Recreation Fees 
Advisory Board the power to recommend to the Secretary, and to 
empowering the Secretary with the right to approve, a fee program which 
involves collection of fees at one or more sites at which fee 
collection is limited under Section 6(b) of the legislation.
    We thank you for your interest and for your willingness to address 
the recreation fees issue comprehensively, fairly and creatively. I 
would be delighted to respond to any questions you might have on our 
suggestions and on our assessment of the successes and lessons learned 
from the National Recreation Fee Demonstration Program. I am joined at 
the hearing today by several ARC members and staff, including ARC 
President Derrick Crandall, who will be able to assist me in responding 
to your questions.
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Jourdain. I appreciate your 
testimony.
    I would like to welcome next Mr. Roy Denner, the President 
and CEO of Off-Road Business Association.
    Mr. Denner, I understand you are recuperating well from 
back surgery. I am glad you were able to make the trip out 
here, and I appreciate you being here today.

          STATEMENT OF ROY DENNER, PRESIDENT AND CEO, 
       OFF-ROAD BUSINESS ASSOCIATION, SANTEE, CALIFORNIA

    Mr. Denner. Thank you, Mr. Chairman. I am speaking today on 
behalf of several off-road recreational organizations 
identified in my submitted material, which I would like to have 
entered into the Congressional record.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Denner. OK. Nobody likes to pay fees, but I believe 
most recreation enthusiasts in this country have conceded the 
fact that user fees at recreation sites are a necessary evil. 
The major concern now is that the fees collected are utilized 
in a manner that benefits the people who pay those fees. By way 
of example, I am going to describe a fee demo program that has 
been in existence for 5 years that is actually working to the 
detriment of the people who pay those fees.
    There is an off-highway vehicle, OHV, recreational area in 
the southeastern corner of California known as the Imperial 
Sand Dunes Recreational Area, ISDRA, also known as Glamis. This 
facility managed by the BLM is likely the most actively 
utilized motorized recreation area in the country, especially 
in terms of vehicle operating hours per acre available. It is 
not unusual for the ISDRA to experience 200,000 visitors on a 
holiday weekend. Annually, the facility accommodates almost one 
and a half million visitors.
    The ISDRA was reduced from around 160,000 acres to 
approximately 118,000 acres when part of the sand dune chain 
was designated as wilderness by the 1994 California Desert 
Protection Act. The area available for motorized recreation was 
subsequently cut in half as a result of a settlement by the BLM 
on a lawsuit initiated by three environmental organizations in 
the year 2000. As the area available for motorized recreation 
has drastically reduced in size, the popularity of this area 
for recreation has literally exploded. OHV enthusiasts come 
from all across the country to visit the ISDRA. A recent 
publication released by the BLM and the Forest Service lists 
the ISDRA as one of the top 12 recreation sites in the United 
States.
    Prior to the initiation of the program on January 1, 1999, 
there were two sources of funding to cover the operation and 
maintenance of the ISDRA: Federal allocations and grants from 
the California State Off-Highway Vehicle Program. Grants from 
the California program have traditionally been slightly over $1 
million annually. As of last year, the amount of grant money 
received for O and M at the ISDRA has been reduced to zero. In 
spite the huge number of visitors the area sees each year, the 
total Federal allocated funding for the ISDRA is only two 
$200,000, about 5 percent of the funds needed, not nearly 
enough to keep the gates open.
    So under the BLM's cost recovery program, user fee rates 
are set to pick up the balance of the $4 million it takes to 
operate the ISDRA each year on a minimal no-improvement budget. 
Last year, with the elimination of the state grant funds, users 
saw their fees triple without experiencing any significant 
improvements on the ground to benefit the millions who recreate 
there. The Fee Demo Program is being utilized to replace 
Federal appropriations needed to operate the ISDRA.
    It is not the end of my story. Last year, the BLM completed 
the preparation of a new recreation area management plan, RAMP, 
for the ISDRA. In addition to calling for many on-the-ground 
improvements to benefit users, the plan requires a monitoring 
study for one ESA-listed species and several species of 
concern. The cost of the monitoring plan is almost $1 million. 
The RAMP calls for the effort to be paid for by a combination 
of allocated funds, state grants, and user fees. State grants 
are gone, and the entire Fiscal Year 2004 Federal allocation to 
the ISDRA is only $200,000.
    As I speak to you, the monitoring effort underway is being 
funded entirely by fee demo money. Implementation of on-the-
ground improvements to provide more OHV recreation support are 
held up due to legal action which is preventing the 
implementation of the new management plan. The BLM has decided 
to go ahead with a monitoring study called for by the plan in 
spite of the court's order preventing implementation of the 
plan until the U.S. Fish and Wildlife issues its biological 
opinion on the plan.
    Fee demo money is being spent to whatever degree the BLM 
deems necessary with no user input or consideration of the fee 
demo's intended purpose. The elimination of the state-granted 
dollars to operate the ISDRA coupled with unregulated 
expenditures, such as the ongoing species monitoring program, 
will undoubtedly lead to even higher user fees for next season. 
The BLM will be asking visitors who have not seen a single 
significant improvement in facilities or recreation 
opportunities in at least 3 years to step up and pay for 
environmental efforts that may ultimately be used to reduce OHV 
recreation opportunities there even further. It is sort of like 
being asked to pay for the material to build your own gallows.
    How do we control this problem? Recreationalists nationwide 
believe that is imperative that any fee demo legislation 
adopted including a requirement that the bulk of the dollars 
collected from end users go to improving recreation 
opportunities on the ground at each facility. At the very 
least, expenditure of these funds should be limited to intended 
purpose and should not amount to an off-budget slush fund for 
the BLM.
    As Assistant Secretary of the Interior Lynn Scarlett 
testified to this Committee last month, it was the intent of 
Congress that the Fee Demo Program allow participating agencies 
to retain a majority of recreation fees at the site collected 
and reinvest those fees into, quote, enhancing visitor 
facilities and service. This authority was deliberately broad 
and flexible to encourage agencies to experiment with their fee 
programs, unquote. The BLM's experimentation with feel demo 
money at the ISDRA cannot be seen as enhancing visitor 
facilities or services and could eventually lead to visitor 
fees that price the ISDRA out of the recreation marketplace and 
ultimately closure of the facility, actually satisfying the 
apparent agenda of some anti-access groups.
    The people who recreate at Federal recreation sites should 
expect to see reinvestment of their user fees and should be 
afforded some say at a higher level of advisory as to how their 
fees are spent. I respectfully petition this committee to help 
correct the problem at the ISDRA and to establish controls to 
prevent this example of fee demo gone awry from becoming the 
norm for other recreation areas. federally mandated programs at 
recreation areas, such as species monitoring efforts, should be 
paid for with Federal funding, not user fees.
    Thank you for listening to my story.
    [The prepared statement of Mr. Denner follows:]

               Statement of Roy Denner, President & CEO, 
                  Off-Road Business Association (ORBA)

Geography:
    The Imperial Sand Dunes Recreation Area (ISDRA) in the southeastern 
corner of California is quite likely the most actively utilized 
motorized recreation area in the country. This is certainly true in 
terms of vehicle operating hours per acre available. Originally an area 
of almost 160,000 acres, the area remaining for off-highway vehicle 
recreation after the 1994 California Desert Protection Act (CDPA) was 
approximately 118,000 acres. A significant part of the ISDRA was made a 
wilderness area--disallowing motorized recreation--by that legislation. 
It was Congress's intent at the time that the remaining portions of the 
ISDRA that were not turned into wilderness by the CDPA remain available 
for motorized recreation.
    Then, more recently, the BLM was sued by the Sierra Club, the 
Center for Biological Diversity, and Public Employees for Environmental 
Responsibility for not adequately protecting species within the 
remaining area open to vehicles. The area available for motorized 
recreation was then cut in half as a result of a settlement made by the 
BLM the day before the current U.S. President was inaugurated in the 
year 2000. Supposedly, the new closures are temporary until the BLM 
consults with USFWS and develops a new management plan for the area. 
The area has been closed for 4 years now! As the area available for 
motorized recreation at the ISDRA has reduced drastically in size, the 
popularity of this type of recreation has literally exploded. On major 
holiday weekends, this area sees as many as 200,000 visitors. The 
annual total is over 1.4 million. In California, alone, the OHV 
recreation industry is estimated to have a $9 billion economic impact.

User Reaction to Fees:
    With the implementation of the fee demo program at the ISDRA on 
January 1, 1999, three funding sources were available for the operation 
and maintenance of the facility--Federally appropriated funding; grants 
from the California Off-Highway Motor Vehicle trust fund; and fee demo 
dollars collected. There was a loud outcry from the ISDRA user 
community when the fee demo program was announced. Many people who 
recreate at the ISDRA believe that they have already paid once for the 
right to use the federal recreation area through the payment of their 
Federal taxes. Some suggest that they have paid again for the right to 
use the area through the payment of off-road vehicle license fees and 
off-road fuel tax fees collected at the State level. Funds collected 
through the State of California's Off-Highway Motorized Vehicle 
Recreation (OHMVR) program have traditionally been directed to the 
ISDRA through the State's grant program. Now, with fee demo, users are 
expected to pay again for the right to recreate at the ISDRA by paying 
user camping fees.

Advisory Technical Review Team:
    The BLM, in an effort to diffuse the uproar, agreed to establish a 
Technical Review Team (TRT) composed of user representatives and 
gateway community representatives. The TRT's primary function is to 
advise the ISDRA BLM manager on the expenditure of user fees collected. 
This arrangement enables TRT members to serve as a buffer between the 
BLM and the recreationists who are being required to pay camping fees 
at the ISDRA. Attached to this testimony is an article that I wrote 
when the new management plan for the ISDRA was completed titled ``Fees 
In The Dunes--A Necessary Evil?'' This article explains how, under the 
BLM's cost recovery mandate, any costs necessary to run a particular 
recreation area that are not provided by other sources must be made up 
from user fees. The article also attempts to rationalize that, if users 
want to see the operation stay in business, they must expect to pay a 
share of the tab. Of course, no one expected that user fees would 
subsequently triple at the ISDRA! It became difficult for me and other 
members of the TRT to rationalize the fee increase. Attached is a 
letter from the ISDRA Technical Review Team to Secretary of the 
Interior Gale Norton regarding the Fee Demo Program at the ISDRA.

The Fee Demo Program at the ISDRA:
    With that background information, let me address what has taken 
place with the ISDRA fee demo program since its inception.
    Historically, the ISDRA received over $1 million each year in 
grants from the CA State Off-Highway Motorized Vehicle trust fund to 
help with operation and maintenance of the recreation area. This grant 
to the BLM was deemed to be appropriate since so many Californians 
recreate at the ISDRA. An OHMVR Commission, composed of concerned 
citizens, decides on grants to be made from the State fund each year. 
The current OHMVR Commissioners, who have been appointed by CA State 
Legislators have, over the last few years, directed State grants away 
from operation and maintenance activities to support conservation and 
environmental issues. As I speak to you, not one dollar of the 
California OHMVR trust fund goes to assisting operation and maintenance 
of the ISDRA--a loss of funding to the tune of over $1 million!
    The total Federally allocated annual funding that goes to the ISDRA 
operation is $200,000. When compared to appropriated funding provided 
to other Federal recreation areas with similar visitor counts, the 
ISDRA is obviously seriously underfunded! This most popular high-
intensity visitor use area gets the least appropriated funding. To add 
fuel to the fire, the BLM and the Forest Service recently published a 
promotional document titled ``Discover US--Great Escapes--a dozen 
trips--America's Public Lands'' that promotes the 12 most desirable 
recreation areas in the country and, you guessed it, the ISDRA is 
listed as number 9 in that publication. So, while the Federal 
Government is encouraging people from across the U.S. to visit the 
ISDRA, not nearly enough funding to manage the recreation area is being 
provided!
    So, here we are with a recreation area that, by the BLM's 
admission, is one of the most popular in the United States. Total 
appropriated funding is $200,000. Other sources of funding are 
nonexistent. The actual cost to operate this area is around $4 million 
per year. Without the fee demo program, this operation would be out of 
business.
    But, that's not all!

New Recreation Area Management Plan for the ISDRA and its Species 
        Monitoring Requirement:
    The BLM recently prepared a new Recreation Area Management Plan 
(RAMP) for the ISDRA. One of the provisions of this Plan is the 
requirement for an intensive monitoring effort for various species of 
concern in the ISDRA. The RAMP calls for funding to be provided from 
three sources which include: 1) appropriated dollars; 2) the State OHV 
grant program; and 3) fee demo money. The cost of this effort is almost 
$1 million. The BLM decided that it would be beneficial to perform this 
monitoring effort before the new management plan was approved. They 
argued that it would be necessary to satisfy the U.S. Fish & Wildlife 
Service's Carlsbad Office. That USFWS office has been working on a 
Biological Opinion for the RAMP for many months with no commitment for 
a decision at any particular date.
    Where did the funding for this million-dollar effort come from? 
Obviously, it didn't come out of the 200,000 appropriated dollars. 
Grant funds from the State OHV Trust Fund have been eliminated! So the 
full-blown monitoring effort--without concern for economic or user 
impact--is being conducted and is being paid for out of fee demo money. 
No public input or TRT vote on this use of fee demo money was 
solicited. No negotiations took place to consider using existing 
information or to consider paring down the effort to minimize the cost 
of the task. In fact, the very first expenditure was a high-
performance, long-travel, 4-seater, $60,000 sand car to transport 
survey participants and an enclosed trailer to transport the vehicle. 
No one even considered renting a 4-wheel drive, 9-passenger Suburban 
with paddle tires for the four-month period of the monitoring survey! I 
have attached an article that I wrote regarding the use of user fees to 
pay for the BLM mandated effort at the ISDRA titled ``Here's My 
Checkbook--You Fill in the Name and the Amount.''
    The reduction of dollars available to operate the ISDRA coupled 
with unregulated expenditures--such as the million-dollar species 
monitoring program--will lead to even higher user fees for next season. 
We will be asking visitors--who have not seen a single significant 
improvement in facilities or recreation opportunities in at least 4 
years--to step up and pay for environmental efforts that may ultimately 
be used to further reduce OHV recreation opportunities at the ISDRA. 
Sort of like being asked to pay for the material to build your own 
gallows!

Congressional Intent for Fee Demo:
    When Interior Assistant Secretary Lynn Scarlett testified last 
month it was pointed out that, when Congress established the Recreation 
Fee Demonstration program for several Federal Agencies in 1996, ``it 
was the intent that the program allow participating agencies to retain 
a majority of recreation fees at the site collected and reinvest those 
fees into enhancing visitor facilities and services. This authority was 
deliberately broad and flexible to encourage agencies to experiment 
with their fee programs.''
    Was it the intent of Congress in 1996 that the ``flexibility'' of 
the recreation fee program should allow managing Federal Agencies to 
use fees collected to conduct extensive arbitrary species monitoring 
studies while none of the fees are used for ``enhancing visitor 
facilities and services'' at a given recreation area? (The balance of 
fees collected at the ISDRA covers operation and maintenance). The 
BLM's ``flexible fee experimentation program'' at the Imperial Sand 
Dunes Recreation Area may well lead to the ISDRA's pricing itself out 
of the recreation market place and ultimate closure of the facility as 
a result of unreasonably high user fees coupled with the BLM's effort 
to provide data (at user expense) on species that will give anti-access 
groups more ammunition to use in future lawsuits against the use of 
vehicles in the ISDRA.
    Attached is my letter to Congressman Pombo, and a letter sent to 
Secretary of the Interior Gale Norton by the attorney for the American 
Sand Association, asking for help with the unfair utilization of user 
fees at the Imperial Sand Dunes Recreation Area.

Recommendation to Subcommittee:
    How do we control this problem?
    Recreationists nationwide believe that it is imperative that any 
fee program legislation adopted include a requirement that the bulk of 
the dollars collected from end users go to improving recreation 
opportunities on-the-ground at each facility. Wasn't this actually the 
intent of Congress when the fee demo program was established for 
Federal Agencies in 1996?
    Furthermore, the people who recreate at Federal recreation sites 
should have some say--at a higher level than advisory--as to how their 
fees are spent! And, of course, this needs to somehow be compatible 
with the Endangered Species Act so that anti-access groups can't sue to 
force Agencies to use fees collected for environmental studies that can 
ultimately be used to close out recreation. This is precisely what's 
happening at the Imperial Sand Dunes Recreation Area..
    As part of the Congressional Record, I respectfully request that 
this Subcommittee do a comprehensive review of how fees collected at 
the Imperial Sand Dunes Recreation Area are being utilized before 
establishing a new Federal Recreation Fee Program. I am convinced that 
this example of a fee program that has no controls and no user input 
will help prevent implementation of a National Program with similar 
pitfalls.
    Recreation enthusiasts are, for the most part, reconciled to the 
idea that we need to pay to play. We just want to be assured that the 
bulk of the fees that we pay go to improving recreational 
opportunities.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Denner.
    For the benefit of the panel and those in the audience, 
there is going to be a series of votes coming up between 12:15 
and 12:30, and we are going to try to get all of the testimony 
done, and we may be doing rapid fire questioning if we can get 
that done as well, but we will make sure that everybody gets 
their questions in as well, including me.
    Mr. Brown, I want to welcome you to the Committee.
    David Brown is Executive Director of American Outdoors from 
Knoxville, Tennessee.
    Welcome, and again, if you could try to abide by that 5-
minute rule, it would be much appreciated.

       STATEMENT OF DAVID L. BROWN, EXECUTIVE DIRECTOR, 
             AMERICA OUTDOORS, KNOXVILLE, TENNESSEE

    Mr. Brown. Mr. Chairman, Members of the Committee, thank 
you for giving me the opportunity to testify on H.R. 3283. 
America Outdoors represents the interest of more than 1200 
outfitters and guides, recreation service providers, operating 
in 43 states. I will summarize my full testimony and 
respectfully ask that it be entered into the record.
    Outfitters and their customers have paid fees for access to 
federally managed land for decades. We understand the 
importance of recreation fees and the role in helping Federal 
agencies accomplish their mission. That being said, while H.R. 
3283 has several commendable provisions and good intentions, we 
do not support the legislation in its current form. I will 
offer suggestions on changes to the bill that we hope will 
enable us to support the legislation.
    Outfitters and guides are concerned about the overlays of 
fees proposed in H.R. 3283 coupled with other agency fee and 
cost recovery initiatives outside the scope of this 
legislation. Despite numerous hearings on the Recreation Fee 
Demonstration Program on the need to consolidate permits across 
agency boundaries, some of the same problems persist in the fee 
with duplicative and unreasonable fees. H.R. 3283 does not 
adequately address these issues.
    The bill also repeals existing agency outfitter and guide 
permitting authorities for BLM and the Forest Service. That 
concerns us. Those authorities are contained in Section IV of 
the Land and Water Conservation Fund Act. This worries 
outfitters and guides because it may result in new permitting 
policies. H.R. 3283 appears to be in conflict with the National 
Park Omnibus Management Act of 1998. By revising Park Service 
fees for outfitters and guides, it describes a permit. Many of 
our people operate under a contract currently.
    To resolve these issues, with urge the following: The 
inclusion of language in the bill to prohibit the impact of 
permit fees, recreation fees, road fees, cost recovery from 
prohibiting the reasonable opportunity for a profit for a 
permittee. Without profit, businesses simply can't survive. The 
public is not well served by businesses that are struggling and 
marginalized by unreasonable fees. To attract quality 
operators, Federal agencies need outfitters who are able to 
replace worn equipment and enjoy a reasonable standard of 
living.
    H.R. 3283 should also defer to the National Park Omnibus 
Management Act of 1998 for outfitter contracts and fees and 
follow the language in S. 1107 for NPS recreation fees. H.R. 
3283 should defer to the outfitter policy guide, S. 1420, 
introduced by Senator Craig for guidance on outfitter 
permitting policies.
    We strongly urge that the Forest Service and BLM fees and 
their cost recovery initiatives be consolidated into one 
reasonable predictable fee. We also recommend the 6-year 
authorization for these recreation fees with the understanding 
that the fees would be reauthorized periodically.
    Perhaps one of the most important issues that we believe 
deserves addressing in this fee legislation is a broader 
initiative to secure adequate funding for management of public 
lands through a variety of revenue sources. That legislation 
should also authorize an independent review of agencies' 
organization structures, backlog, and operating overhead to 
ensure that funding is not consumed by unnecessary overhead and 
outdated process, and I know the Forest Service, for one, has 
began some of this review with their process predicament paper 
and some of their planning processes.
    This full testimony provides more detail on our proposals 
in this area. Improved public participation and oversight in 
the fee initiatives is needed, and the proposals in H.R. 3283 
are not adequate. We don't believe that the provisions for 
public participation are legally binding in here and it is 
simply encouraged. Unless this requirement is strengthened, the 
same inconsistent application and administration that has 
diminished support for the recreation fee demonstration program 
will likely continue. With over 200 groups organized, by some 
counts, to oppose the implementation of fee demo, it is 
apparently that business as usual will not work.
    I have recommended state-level fee councils appointed by 
the secretaries with binding authority to coordinate fees and 
direct spending in each state. State-level oversight is 
preferable to a National-level council because it is closer to 
the action. The division of labor afforded by state-level fee 
councils also appropriately scale to the magnitude of the 
oversight task and ensures a higher level of public 
participation. I believe that there is a role for a National 
council to oversee the overall program, to recommend best 
practices, and perhaps nominate members of the state council.
    My full testimony provides more detail on that proposal. I 
will be happy to answer any questions. Thank you.
    [The prepared statement of Mr. Brown follows:]

   Statement of David L. Brown, Executive Director, America Outdoors

    Mr. Chairman and members of the Committee, thank you for giving me 
the opportunity to testify on H.R. 3283, The Federal Lands Recreation 
Enhancement Act. America Outdoors represents the interests of more than 
1,200 outfitters, guides and recreation service providers, who are 
members of America Outdoors and our affiliate state organizations 
operating in 43 states. The majority of these companies operate on 
lands managed by the agencies covered by this legislation. Our members 
and affiliate members provide recreation services to more than 
2,000,000 Americans each year.
    Mr. Chairman, please accept my sincere appreciation on behalf of 
outfitters and guides for your interest in this issue and for your 
careful consideration of all the testimony presented to you on this 
important legislative initiative.
    We also understand that the sponsors of H.R. 3283 are sincere in 
their desire to address a significant funding problem that is likely to 
worsen as entitlements seize a larger and larger portion of federal 
budgets. As is often the case, legislation is proposed to stimulate 
debate and input in an effort to make improvements to the legislation. 
It is my hope that this testimony will make a positive contribution to 
this debate.
    Outfitters and their customers have paid fees for access to 
federally-managed lands for decades. We understand the importance of 
recreation fees and their role in helping federal agencies accomplish 
their missions. We also believe that many worthwhile projects have been 
completed under the recreation fee demonstration program. That being 
said, while H.R. 3283 has several commendable provisions and good 
intentions, we do not support the legislation in its current form. I 
will offer several suggestions on changes to the bill that we hope will 
enable us to support the legislation.

Need for a comprehensive approach to funding federal land managing 
        agencies.
    We believe fee legislation should be coupled with a broader 
initiative to secure adequate funding for management of public lands 
through a variety of revenue sources. That legislation should also 
authorize an independent review of agencies' organizational structures, 
backlog, and operating overhead to ensure that funding is not consumed 
by unnecessary overhead and outdated processes. Then, legislation 
should specify adequate funding for management of public lands based on 
realistic projections of need through a variety of revenue sources to 
include:
    <bullet>  Secure, stable funding from offshore oil and gas 
royalties;
    <bullet>  Congressional appropriations;
    <bullet>  Recreation fees;
    <bullet>  Corporate and charitable contributions; and
    <bullet>  Other unique strategies.
    Others have proposed this approach, including Carl Wilgus, 
representing the Western States Tourism Council, at an oversight 
hearing on recreation fees held in the Senate last April. <SUP>1</SUP> 
Such an approach is difficult, but without it the future of funding for 
public lands is at risk. At one point, Congress wrestled with the 
difficult process of closing unneeded military bases despite their 
impact on certain Congressional districts. While this issue is somewhat 
different, the base-closing initiative is indicative of Congress's 
ability to successfully tackle tough issues.
---------------------------------------------------------------------------
    \1\ Testimony of Carl Wilgus, Idaho Department of Commerce, 
Oversight Hearing on the Recreation Fee Demonstration Program, 
Subcommittee on Public Lands and Forests, Senate Energy and Natural 
Resource Committee, United States Senate, Wednesday, April 21, 2004.
---------------------------------------------------------------------------
    We believe Congress and the Administration need to take a hard look 
at agency cost structures. The Forest Service has 121 Administrative 
units each headed by a Forest Supervisor in addition to Regional 
Offices and Deputy Chiefs. One former Senior Executive in the Forest 
Service candidly admitted to me that the agency needed restructuring to 
reduce overhead costs. He cited a $200,000 appropriation for the 
Continental Divide Trail of which only $60,000 actually reached the 
ground. On the other hand, field offices in the agency appear to be 
overwhelmed with process-oriented work.
    There are indications that the National Park Service may have 
similar issues. Secretary Norton recently commented that the National 
Park Service, in spite of some recent public pronouncements, has more 
dollars per acre, per unit, per employee than ever before.
    To their credit the Forest Service has made some progress in the 
reduction of duplicative processes. The Forest Service's own white 
paper, ``The Process Predicament'' (June 2002), <SUP>2</SUP> estimates 
that 40% of direct work at the forest level is consumed by planning and 
assessments that cost the agency $250 million annually. The same 
document estimates that $100 million could be saved through revisions 
to their processes and they have begun to take actions to reduce these 
costs through revised planning regulations.
---------------------------------------------------------------------------
    \2\ ``Process Predicament'', USDA Forest Service, June 2002, page 
5.
---------------------------------------------------------------------------
    In most cases, BLM appears to be the leanest of all the agencies 
that we deal with and the least conflicted by duplicative, arresting 
processes. Still, there is significant functional overlap between BLM 
and the Forest Service where their boundaries abut. Some of our members 
are facing a difficult time with long-standing permits for trips that 
cross agency boundaries because each agency is completing separate 
management plans for adjoining resources. Consolidation of these 
functions, offices and activities may make sense. There are examples of 
where the agencies have successfully consolidated some functions, but a 
more careful review of these opportunities is in order.
    Unfortunately, H.R. 3283 does nothing to improve agency operating 
efficiencies. H.R. 3283 has a set of principles, many of which are 
well-meaning, but that are general, vague and unenforceable. One 
provision is commendable in its intent. Section 2, subparagraph 2 calls 
for ``Fair and Equitable Fees'' and states that fees ``should be 
affordable and not significantly impact visitation levels.'' We very 
much support this provision, but believe that it is unrealistic to 
increase consumers' costs to visit public lands and to then expect 
visitation levels to remain the same.

Need for Clear Policy Direction in H.R. 3283.
    Legislation authorizing recreation fees should have a clear policy 
statement. Is the fee authorization designed to restore backlogged 
maintenance or are they to pay for salaries for recreation managers and 
others? What happens to the fees when backlogged maintenance is 
complete? Where does the money go? Is it used to add staff or offset 
appropriated revenues?
    Fees should only be levied for basic, necessary projects and 
improvements. Otherwise, fee users may become the new source of funding 
for well-intentioned, but unnecessary, spending. The recreation economy 
in rural areas simply cannot support unnecessary spending. We believe 
fees will be supported for backlogged maintenance, necessary services, 
and modest construction of necessary facilities, if the users have a 
voice in levying, collecting, spending and discontinuing the fees as 
may be appropriate. Many users are eager to help the agencies if the 
money is spent wisely.

Dangerous notions about fees.
    A dangerously naive notion prevails that since everyone pays the 
fee, it can be easily passed on to the consumer with little impact on 
demand.
    Most outfitters and guides are currently wrestling with increased 
fuel and insurance costs, not to mention healthcare cost increases if 
they are lucky enough to have coverage. All these increases cannot be 
absorbed by the consumer who places a value on an experience in 
comparison to the other options that they have for discretionary 
spending on leisure, home improvements or retirement. Once the price of 
a trip exceeds a perceived value, for all but the very rich, demand 
declines.
    Outfitters also operate in a competitive environment. While this 
environment is generally beneficial to the consumer, it also results in 
price competition that can lower pricing power and effect margins. 
These are among the factors that often preclude outfitters from passing 
on all fee increases. It is also why some fees threaten to dramatically 
reduce an operator's bottom line.
    Another notion often heard is that users should pay the cost of 
federal recreation management on public lands. Users have little 
control over these management costs, which are the result of years of 
legislative direction from Congress and highly evolved bureaucratic 
management structures and processes reinforced by court rulings. While 
we can help, to expect users to suddenly bear these costs, or a 
substantial portion of them, is unrealistic. In some cases, agency 
administrative overhead already consumes 60% to 70% of appropriations. 
We would like to work with Congress to address both the revenue and 
cost side of the equation. I have made suggestions in this testimony on 
how to proceed on this dual track. Until the cost side is addressed, we 
reserve the right to oppose this and other recreation fee initiatives, 
including temporary reauthorization of fee demo. I realize there is 
some risk to making such a strong statement, but I am compelled to do 
so because the survival of the hard-working families that I represent 
is put at risk by the unfettered fee authority currently available to 
agencies under fee demo.

Fees should not be implemented everywhere just because agencies have 
        the authority.
    Many outfitters and guides are providing services to the public 
that are fundamental to the agencies' missions at a resource. Some of 
these outfitter operations are in very challenging business 
environments that have survived for years on their resourcefulness, wit 
and intuition. Margins are very thin for many of these operators. 
Another wave of fees would eliminate the recreation opportunities these 
operators provide to the public.
    Recreation fees should not be implemented in these areas just 
because the agency has the authority to do so. We have already seen the 
quest for fees destroy previously successful outfitter operations 
because an agency was unrelenting in its demand when business went soft 
in the wake of 9/11. We thank the Secretary of Interior for urging 
restraint among her agencies during this difficult period and 
appreciate the extent to which most agencies cooperated.
    Some outfitters are already paying higher fees in Park units as a 
result of agency cost recovery or concessions fee initiatives. Another 
layer of fees would seriously compromise some of these operations, 
especially where weather, fire or economic downturns have disrupted 
demand. The Buffalo National River is a good example. Canoe liveries 
there are struggling with increased concessions fees and adverse 
weather conditions that have persisted for several years. Many are 
losing money after NPS raised minimum concession fees to 4% for the 
first $100,000 and 7% for revenues over $100,000. The state and county 
also collects 9% for sales and tourism taxes.

Improved public participation and oversight in fee initiatives is 
        needed.
    Two significant omissions in H.R. 3283 include:
    <bullet>  the lack of effective oversight of the fee implementation 
and expenditures, and
    <bullet>  inadequate public participation in setting and 
administering fees.
    While collaboration is encouraged, there is no legally binding 
requirement for agencies to involve the public in a significant way. 
Unless this requirement is strengthened, the same inconsistent 
application and administration that has hampered support for the 
recreation fee demonstration program will likely continue. With over 
200 groups, by some counts, organized to oppose the implementation of 
recreation fees, it is apparent that business as usual will not work.
    The only accountability provision in the legislation is a provision 
in the purposes and guidelines that the agencies ``should collect data 
and publish annually public documentation showing how the recreation 
fee program is administered.'' This level of disclosure is inadequate.
    We are concerned that without better oversight both at the local 
and national levels, fees may be misdirected and used for purposes 
other than to benefit recreation. There have been runs on fee demo 
money that attempted to divert the money away from their original 
intent--reducing back-logged recreation maintenance. The Forest Service 
did not follow through on those initiatives, but it underscores the 
need for oversight, as well as, clearer policy direction.
    The General Accounting Office Report of September 2003 found a lack 
of documentation of progress in reducing the Forest Service's 
maintenance backlog. Reducing this backlog was one of the primary 
justifications for fee demo. There is no question that much fee revenue 
has been used for this purpose, but the lack of documentation limits 
the extent to which progress can be measured.
    Other examples of the need for better oversight come from the 
field. On the Salmon Challis National Forest, the Resource Advisory 
Committee was given a report of proposed projects for use of fee demo 
money in 2003, but the agency could not provide an accurate accounting 
of the expenditures for 2002 and did little to document progress on the 
projects initiated. Then, after promising last year to implement annual 
meetings of user group representatives to prioritize projects, the 
agency did not follow through with the meeting.

Recommendation on oversight and public participation--Recreation Fee 
        Councils.
    We recommend that the legislation authorize the Secretary for each 
agency to appoint members to State-level Recreation Fee Councils 
(members may be appointed by each Secretary in proportion to the 
acreage for each agency in the State) to oversee recreation fees where 
fee collections or expenditures for all agencies exceed $200,000 
annually. One agency Secretary could oversee the Fee Council with 
nominees offered by the other Secretaries. These Fee Councils would 
have the authority to oversee recreation fees in each state for all 
federal agencies and have binding authority to set fee levels, approve 
projects and oversee expenditures.
    State-level oversight is preferable to a national-level council 
because it is closer to the action. The division of labor afforded by 
state Fee Councils is also appropriately scaled to the magnitude of the 
oversight task and ensures a higher level of public participation.
    Resource Advisory Councils (RAC) are not adequate for public 
participation and involvement. They are advisory in nature and the 
agency has the authority to set the agenda for an RAC.
    State-level Fee Councils, if representative of users' interests, 
will help develop stakeholder support for appropriate fees and avoid 
the overlap and duplication of fees that we see in some areas in the 
field. They will ensure that fees are meshed appropriately with state 
fee initiatives and that fee-sharing arrangements are facilitated. In 
some states, such as Montana, the State is attempting to regulate 
rivers on federal lands in a manner that overlaps federal regulation. 
In other areas, outfitters are subject to two or three agency fees 
without any corresponding improvement in the experience. Fee Councils 
should help avoid those problems.
    We strongly recommend that legislation specify the make-up of 
state-level Fee Councils subject to appointment by the Secretary. They 
should be comprised of
    <bullet>  at least six (6) representatives from groups who are 
actually paying the fees, specifying no less than two representatives 
from the outfitting and guiding industry or a number that is in direct 
proportion to percentage of fees paid by each group;
    <bullet>  representatives from the federal agencies not to exceed 
four (4) representatives; and
    <bullet>  two (2) representatives nominated by the governor in each 
state, one from travel and tourism, and one attorney familiar with the 
various state and federal legal authorities.

Notice of fee implementation.
    The notice and documentation provisions in S. 1107 for the 
implementation of recreation fees are also important to consider for 
inclusion as a provision in H.R. 3283. Currently, outfitters are 
finding that agencies sometimes announce fee increases at the onset of 
a season after prices have been published. On the Deschutes River in 
Oregon in March 2003, the BLM quadrupled fees on weekends effective 
that season with no significant input from outfitters. The 
justification for this increase was based solely on the agencies' 
management cost, which involves overlapping management by the State of 
Oregon. The increase was imposed at a time when outfitters were 
struggling through a recession and skyrocketing insurance rates. It 
underscores the frustration that we have with the unfettered authority 
in the current fee program which is perpetuated in H.R. 3283. The 
autocratic implementation of the fee demonstration program in some 
areas is a reason we support state Fee Councils.

National Recreation Council
    A national Fee Council (National Recreation Council) should be 
authorized:
    <bullet>  to provide oversight and national coordination for 
federal passes and for the overall recreation fee program (except for 
permit and NPS concessions contract fees);
    <bullet>  to review the State Recreation Fee Council's performance;
    <bullet>  to coordinate regional activities as may be appropriate;
    <bullet>  to develop documentation systems;
    <bullet>  to recommend best practices;
    <bullet>  to coordinate regional initiatives;
    <bullet>  to oversee spending of fees that are returned to the 
agency at the national level; and
    <bullet>  to resolve disputes.
Specific uses of fee revenue.
    The first priority for recreation fee proceeds should be to benefit 
projects for users paying fees in the areas where the fees are being 
collected. Fees should not be used to offset appropriated revenues. Fee 
Councils should have the authority to discontinue fees when they are 
not needed or are not beneficial. These issues should be addressed in 
the legislation.
    We strongly recommend that at least 15% of the fee revenue be 
returned to the agency for use at the national level to promote 
sustainable use and enjoyment of federally-managed lands.
Fee retention for permit fees.
    We strongly support fee retention of outfitter and guide permit 
fees at the resource where they are collected if the provision that 
prohibits the total fee burden from crippling the opportunity for a 
profit is included in the legislation.

If reauthorized, we recommend a six-year authorization for recreation 
        fees.
    The requirement for periodic reauthorization of the recreation fee 
demonstration program has helped make the agencies more sensitive to 
users and more customer service-oriented. We support a six-year 
authorization if the oversight and policy issues outlined in this 
testimony are addressed accordingly. Periodic reauthorization allows 
for corrections and adjustments to the program based on the experiences 
of the preceding period.

Issues in H.R. 3283 that are specific to outfitters and guides.
    1. The repeal of existing permitting policies concerns us. H.R. 
3283 has the potential for significant impact on outfitters and guides 
because it repeals Section 4. of the Land and Water Conservation Fund, 
thereby repealing the current Forest Service and BLM permitting 
authority. Guest ranches and other small businesses operating on public 
lands may find themselves subject to a new, as yet undetermined, policy 
for permit issuance. There are also some potential conflicts with the 
National Park Omnibus Management Act. Solution: We believe that the 
bill should make reference to existing agency permitting policies or 
follow the language authored by Sen. Craig in S. 1420, The Outfitter 
Policy Act. It should also defer to the National Park Omnibus 
Management Act of 1998 on outfitter concessions contract fees.
    2. A provision should preclude overlays of fees from threatening 
the viability of outfitter and guide operations. After several 
Congressional hearings where the overlap and duplication of fees have 
been brought to the attention of Congress, we still have areas where 
trips span agency boundaries where each agency is levying recreation 
fees. H.R. 3283 does not require fee consolidation in those cases.
    At least two fees are authorized by H.R. 3283, which will apply to 
outfitters and which the agency has unilateral authority to set 
according to their own needs. Separately, the Forest Service and Bureau 
of Land Management (BLM) are proceeding with cost recovery initiatives 
for permit administration. In some areas, the Forest Service is trying 
to collect road fees in addition to permit fees. The National Park 
Service has a set of fees and cost recovery requirements for various 
authorities under the National Park Omnibus Management Act of 1998, 
some of which conflict with the provisions in H.R. 3283. Solution: We 
strongly urge that any legislation include a provision that ``prohibits 
the cumulative fee burden from permit fees, basic recreation fees, cost 
recovery and other fees levied on outfitter and guide operations from 
precluding a reasonable opportunity for a profit or successful business 
venture.''. These fees should also be consolidated into one predictable 
fee. Outfitter permit fees should not be subject to approval by the 
state Fee Councils, but standardized in each agency and subject to 
comment in the Federal Register.
    3. Recreation fees should not float from year to year throughout 
the term of a National Park Service contract. Outfitters, who are 
required to meet obligations under NPS contracts, should not be subject 
to recreation fees that float throughout the term of the contract. When 
a proposal is accepted by NPS, an outfitter is required to meet their 
obligations and endure the associated overhead throughout the term of 
the contract. They cannot be expected to do so if the majority of 
revenue collected by NPS comes from a separate recreation fee (fee 
demo) that floats through the term of the contract. Solution: Allow for 
a review of the franchise fee and the recreation fee after a five-year 
period, or immediately in the event of extraordinary circumstances.
    4. The exemption for schools and academic institutions needs to be 
narrowed. ``Outings conducted for noncommercial educational purposes by 
schools or bonafide academic institutions'' are exempted from basic 
recreation fees although some institutions run trips that are very 
similar to commercial trips. It is not clear to us why universities can 
collect fees for their educational services, but agencies are precluded 
from collecting a modest recreation fee for significant recreation 
activities. In some cases paying customers are included on trips that 
are accredited for course credit. Customers of commercial services 
provided by colleges and universities and customers of recreation 
activities should not be exempted from the basic recreation fee.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Brown. I 
appreciate it.
    Next is Mr. Robert Funkhouser, President of the Western 
Slope No-Fee Coalition from Dorset, Vermont.
    Mr. Funkhouser, welcome to the Committee, and you may begin 
your testimony.
    Pardon me. Robert, would you mind grabbing your neighbor's 
mike there. That would be great.

STATEMENT OF ROBERT FUNKHOUSER, PRESIDENT, WESTERN SLOPE NO-FEE 
                   COALITION, DORSET, VERMONT

    Mr. Funkhouser. Thank you, Mr. Chairman. I would like the 
summarize my statement and have a full statement submitted into 
the Committee hearing.
    Mr. Radanovich. Absolutely no problem.
    Mr. Funkhouser. Thank you very much.
    Mr. Radanovich. Speak into that mike one more time for me.
    Mr. Funkhouser. Is that better?
    Mr. Radanovich. Yes. I think it is fine. Thanks.
    Mr. Funkhouser. Mr. Chairman, I am Robert Funkhouser, 
President of the Western Slope No-Fee Coalition. The 
legislation before you authorizes the land management agencies 
to charge a basic access tax of Americans who simply put foot 
or tire on any one of the 640 million acres managed by the 
these agencies. The Fee Demo Program long ago stopped being a 
user fee and became an access fee. It threatens to destroy the 
premise that the American public, not the management agencies, 
owns our public lands. The owner is the citizens of the United 
States who elected the Representatives and Senators who made up 
this body. If we allow the agencies to charge a fee or acquire 
a permit to enter these lands, we have given ownership of these 
lands to the agencies and have taken it away from the people.
    Under H.R. 3283, access to these lands would now be a 
privilege you pay for and no longer a right. Although we do not 
oppose a fee program for the National parks, we do have serious 
concerns about the incentive this authority brings with it to 
maximize revenue beyond what is fair and equitable to American 
taxpayer. The public knows full well the difference between the 
National parks and lands and waters managed by these other 
agencies.
    To start with, they know that the National parks are where 
the toll booths are. The National Parks is where it costs $50 
in some locations to enter with their families. The public 
knows that there is a vastly higher level of infrastructure 
that needs to be maintained in the parks and a higher level of 
service. Yet even with fee retention authority in the last 8 
years, the National Parks are still in financial trouble. 
Visitation is down at least partially due to the cost of the 
entrance fees, and the National Park Service is cutting back on 
services.
    Much of the budgetary woes that plague the National parks 
are due to the enormous maintenance needs of its aging 
infrastructure. The fundamental dilemma is does the American 
public demand that all 640 million acres of public land be 
managed as National parks? Is the public really demanding that 
the land management agencies spend hundreds of millions of 
taxpayer dollars to build capital infrastructure to enhance 
what God has already given us, or would the public and the 
local land managers be better served by taking a course that 
emphasizes the use of our limited resources to maintain what we 
already have first, to adhere to fiscal responsibility in 
emphasizing maintenance and operation and the courts that 
uphold public ownership and public access and at the same time 
gives our local land managers the tools they need to accomplish 
their mission?
    The more the Government develops our public lands, the more 
maintenance is required. The more fees that are imposed, the 
fewer number of people that can enjoy the special places. In 
this vicious circle, we lose access to our National areas. The 
use of appropriated funds as well as fee revenues to establish 
a higher level of capital infrastructure and service on public 
lands would directly compete with the private sector in 
communities adjacent to these lands. The loss of tourist 
dollars, jobs, and tax revenues in these local communities to 
taxpayer subsidized land management agencies and their partners 
would be irreplaceable.
    Opposition to the current Fee Demo Program has been 
overwhelming and widespread. It is clear that even more 
Americans will oppose this new National lands access tax that 
H.R. 3283 represents.
    Fee demo has been a financial failure as well. The General 
Accounting Office recently audited the Fee Demo Program in the 
Forest Service. They found that in Fiscal Year 2001, the Forest 
Service used $10 million of appropriated funds for 
administration of the Fee Demo Program, and the cost to manage 
the programs is over 50 percent.
    H.R. 3283 revokes the ability of our seniors to purchase a 
lifetime Golden Age passport for entrance into National parks. 
H.R. 3283 would make criminals out of taxpayers that calls for 
a Class B misdemeanor for those who enter public lands without 
a pass. Citizens should not face jail time or a $5,000 fine for 
simply walking in the woods without paying a five dollar fee.
    Fee demo is not the solution and neither is H.R. 3283. The 
solution is a matter of will, the will to hold the agencies 
truly accountable for the appropriated taxpayer dollars that 
they already receive every year, the will to tear down the fire 
wall between capital infrastructure budgets and the recreation 
budgets so that those millions can be used by for backlog 
maintenance and operations, not for building more visitor 
centers and paved parking lots that only add to the maintenance 
needs, the will to find effective avenues for appropriated 
dollars to get to the ground, the will to restrict the 
pilfering of recreation operations and maintenance budgets for 
other purposes, the will to create incentives that encourage 
the agencies to identify their maintenance backlogs, encourage 
them to be addressed, and the will of Congress to ultimately 
adequately fund these agencies through the appropriations 
process.
    We believe that the public will only support fees, except 
for the National parks, for services specified in the Land and 
Water Conservation Fund Act. All funding for those agencies 
should come from our tax dollars through the appropriations 
process with more oversight and not less. We urge you to 
recognize the distinct differences between the National parks 
and the land managed by the other agencies. We urge you to 
choose the financially responsible course to maintain what we 
already have first, to stop the spiral of Government growth, 
and to hold public ownership of public lands.
    We ask you not to support this legislation, H.R. 3283.
    Mr. Chairman, thank you very much for the opportunity, and 
I will be happy to answer questions.
    [The prepared statement of Mr. Funkhouser follows:]

              Statement of Robert Funkhouser, President, 
                     Western Slope No-Fee Coalition

    Mr. Chairman and distinguished members of the Subcommittee;
    Thank you for the privilege of testifying before you today 
concerning H.R. 3283, The Recreational Fee Demonstration Program, and 
Public Ownership of Public Lands.
    I am Robert Funkhouser, President of the Western Slope No-Fee 
Coalition, a coalition that has come to represent hundreds of 
organizations and millions of Americans nationwide in advocating for 
the continued tradition of public ownership of public lands and the 
rejection of the access tax approach to public land management. Our 
mission is to end the Recreational Fee Demonstration Program, to 
require more accountability within the land management agencies, and to 
encourage Congress to adequately fund our public lands.
    The current Fee Demo program began as an appropriation rider in 
1996 and has been extended five times through the appropriations 
process. After eight years of a demonstration program it is clear that 
the program has not been a success outside of possibly the National 
Park System. After eight years it is clear that Americans do not 
support fees to access federally managed public land and waters. It is 
clear that Americans prefer fiscal responsibility to the seemingly 
endless use of appropriated funds for capitol infrastructure. And after 
eight years it is clear that Americans will not give up their ownership 
of their public lands to become customers and trespassers.
    The legislation before us today, H.R. 3283 authorizes the National 
Park Service, as well as the Forest Service, Bureau of Land Management, 
U.S. Fish and Wildlife Service, and the Bureau of Reclamation, to 
charge a basic access tax of Americans that simply set foot or tire on 
any of the 640 million acres managed by these agencies. The Fee Demo 
Program, as we know it, long ago stopped being a ``user fee'' and 
became an access or entrance fee. The premise that the American public, 
not the management agencies, owns our public lands, and pays to 
maintain them through our taxes is alive today as much as ever. The 
owner is the citizen of the United States who voted and sent to 
Congress the Representatives and Senators who make up this body. 
Congress then established agencies to manage certain Forests and public 
domain lands, to provide fair, equitable means by law and regulation 
for the goal and benefit of settlement, resource development and 
recreation activity. Every citizen of the United States has the 
statutory right as well as the Constitutional heritage to enter the 
forests and public domain lands to explore, or recreate in those 
resources. If we allow the agencies to charge a fee or require a permit 
to enter these lands then we have given ownership of the lands to the 
agencies and taken it away from the people. Under H.R. 3283 access 
these public lands would now be a privilege you pay for and no longer a 
right. The Fee Program as we know it today and even more so with this 
proposed legislation represents an across-the-board double taxation on 
the taxpayer.
    The National Parks differ greatly from the Bureau of Land 
Management, U.S. Fish and Wildlife Service, U.S. Forest Service, and 
Bureau of Reclamation in regards to fee collection authority. The 
Parks, unlike the other agencies, have a long history of charging 
entrance fees. They have the existing collection infrastructure, a 
higher level of development and service that the public expects.
    Fee authority for the Parks is about fee retention. It is about 
allowing the National Park Service to retain the fees that the agency 
has been collecting for decades. In the BLM, the Fish and Wildlife 
Service, and the Forest Service, the Fee Demo Program is about 
establishing new fees and it is this new authority that has been so 
controversial and unpopular that we are opposed to.
    Although we do not oppose a fee program in the National Parks, ( 
but not the language of H.R. 3283), we do have serious concerns about 
the incentive this authority brings with it to maximize revenues beyond 
what is fair and equitable to the American taxpayer. The National Park 
Service, under Fee Demo, has doubled and sometimes tripled the entrance 
fees at some National Parks. On top of that the agency now charges for 
such basic services as parking and mass transportation. The agency is 
also charging additional fees for such activities as backcountry hiking 
and trail head use.
    The public knows full well the difference between the National 
Parks and the lands and waters managed by the Bureau of Land 
Management, U.S. Fish and Wildlife Service, Bureau of Reclamation, and 
the Forest Service. To start with they know that the National Parks is 
where the tollbooths are. The National Parks is where it costs $50.00, 
in some locations, to enter with their families. The public knows that 
there is a vastly higher level of infrastructure that needs to be 
maintained in the Parks and a higher level of service.
    Yet, even with fee retention authority for the last eight years the 
National Parks are still in financial trouble. Visitation is down, at 
least partially due to the cost of entrance fees, and the NPS is 
cutting back on services. Much of the budgetary woes that plague the 
Parks is due to the enormous maintenance needs of its aging 
infrastructure.
    As opposed to the implementation of the Recreational Fee 
Demonstration Program in the National Park Service, Fee Demo has proven 
to be a failure in the Forest Service, BLM, and Fish and Wildlife 
agencies. These fees were formerly limited to developed campgrounds and 
a few highly developed recreational sites carefully defined by Congress 
in the Land and Water Conservation Fund Act of 1965. Under Fee Demo, 
fees have been allowed to spread to hundreds of undeveloped and 
minimally developed areas. Americans are now being charged fees for 
such basic services as picnic tables, roads, and trails, and for access 
to vast tracts of undeveloped public land.
    The fundamental dilemma is, does the American public demand that 
all 640 million acres of public land be managed as National Parks as 
H.R. 3283 calls for? Is the public really demanding that the land 
management agencies spend hundreds of millions of taxpayer dollars to 
build capital infrastructure to ``enhance'' what God has already given 
us?
    Or, would the public and the local land managers be better served 
by taking a course that emphasizes the use of our limited resources to 
maintain what we already have first? To adhere to fiscal responsibility 
in emphasizing maintenance and operations over uncontrolled growth. A 
course that upholds public ownership and public access and, at the same 
time, gives our local land managers the tools they need to accomplish 
their mission.
    In all the thousands of contacts I have had with organizations, 
individuals, local and State governments in the last few years on this 
subject I do not recall anyone advocating for the kind of agency growth 
that the incentives created by this legislation would produce. The 
incentive to ``build it and they will pay'' is clearly not in the 
public's best interests. Nor, can we as a nation afford to maintain 
that level of capital infrastructure. Again, look what's happening to 
the Parks. It becomes a vicious circle: The more the government 
develops its public lands--the more maintenance is required--the more 
fees are imposed--the fewer number of people who can enjoy these 
special places. And in this circle, we lose access to our natural 
areas. This ``Spiral of Government Growth'' is also known as ``Empire 
Building.'' Examples of this are widespread.
    The BLM at the Escalante National Monument are building three new 
visitor centers. One alone costs over $10,000,000. At the same time 
Monument managers want to start charging for backcountry use and car 
camping because they do not have the funds to deal with those uses.
    At the Maroon Bells in Pitkin County, Colorado, the Forest Service 
has built a toilet for $1,600,000, but has to charge a fee because they 
say they don't have the funds for toilet paper.
    The Forest Service at Yankee Boy Basin in Ouray, Colorado, 
threatened to close this world class Jeeping and hiking area unless the 
Fee Program was allowed citing lack of funds for toilet maintenance. 
The following year the Forest Service spent over $650,000 to expand a 
concessionaire-run campground across the highway.
    Furthermore, the use of appropriated funds as well as fee revenue 
to establish a higher level of capital infrastructure and service on 
the public lands allowed by this legislation competes directly with the 
private sector located in the communities adjacent to these lands. The 
loss of tourist dollars, jobs, and tax revenue in these local 
communities to taxpayer-subsidized land management agencies or their 
partners would be irreplaceable. Many of these local governments are 
already hurting because of the underfunding of PILT.
    H.R. 3283 is a regressive tax. It puts the burden of public land 
management on the backs of Americans who live adjacent to or surrounded 
by federal land. In rural counties, such as mine in western Colorado, 
where 87% of the land is federally managed, public lands are an 
integral part of life. To mandate that those local residents carry a 
heavier burden of funding our land management agencies is unjust and 
unfair. The nation as a whole has and should continue to provide 
adequate funding. There is much that the Federal Government funds that 
I will never benefit from, for instance most discretionary spending.
    H.R. 3283 is also a regressive tax because it discriminates against 
lower-income and working Americans. A Forest Service study showed that 
23 percent of lower-income Americans no longer visited our public lands 
due to the fees. It stated that 49 percent of all Americans regardless 
of income use the public lands significantly less due to the fees.
    Opposition to the current Fee Demo program has been overwhelming 
and widespread. It is clear that even more Americans will oppose this 
``National Public Lands Access Tax'' that H.R. 3283 represents. From 
New Hampshire to California, from Idaho to Arizona, Americans from all 
walks of life and all political persuasions are raising their voices 
against this program. Resolutions of opposition have been sent to 
Congress by the State Legislatures of Colorado, Oregon, California, and 
New Hampshire. Thirteen counties in western Colorado alone, as well as 
counties, cities, and towns across the nation have passed resolutions 
opposing the program. Hundreds of organized groups oppose Fee Demo, and 
civil disobedience to it is rampant.
    Fee Demo has been a financial failure as well. The General 
Accounting Office recently released the findings of an audit concerning 
the Fee Demo program in the Forest Service (GAO-03-470). They found 
that in FY2001 the Forest Service used $10 million of appropriated 
funds for administration of the Fee Demo program and to augment 
collection costs. This $10 million, almost one-third of their total fee 
revenues, had been previously unreported in the agency's annual report 
to Congress. The GAO also found that the agency had been under-
reporting the costs of administration, collection, and fee enforcement. 
Although the Forest Service claimed the program was a success, with 
gross revenue in FY2001 of $35 million, the truth is that the program 
brought in far less than $15 million because the cost of overhead, 
collection, and enforcement was well over 50%.
    Until the GAO audits the BLM and Fish and Wildlife Service Fee Demo 
programs, their true financial results are uncertain, but, as it 
stands, the net revenues for these two agencies in FY2001 are estimated 
at less than $4 million.
    The Fee Demo program has changed the mission of the land management 
agencies from one of resource management and stewardship to one of 
revenue generation. It allows the three agencies to appropriate their 
own funds without any congressional oversight. This creates a perverse 
incentive to maximize revenue at the public's expense, and has resulted 
in excesses of implementation and enforcement, such as charging fees 
for unimproved backcountry areas, forest wide fees, simple picnic 
tables, and parking.
    Under Fee Demo, it is not just the public that has suffered. The 
agencies are experiencing an increasingly strained relationship with 
local communities and the public as a whole. The land management 
agencies are a tentative guest in many communities to begin with. When 
they assume a heavy enforcement role, as Fee Demo forces them to do, it 
erodes any positive relationship that had been built. Gene Chandler, 
the New Hampshire Speaker of the House, has said, ``This program drives 
a wedge between local governments and public on one hand and the 
federal land management agencies on the other.'' The longer the wedge 
stays in place, the harder it will be to repair the damage. 
Volunteerism suffers and community involvement suffers.
    H.R. 3283 further encourages the focus on revenue generation over 
stewardship and service. H.R. 3283 revokes the ability of our seniors 
to purchase a lifetime Golden Age Passport for entrance to our National 
Parks. Seniors on limited budgets will now have to purchase an annual 
pass to enter not only the Parks, but to access any of our public 
lands.
    H.R. 3283 would make criminals out of taxpayers. The legislation 
calls for a Class B misdemeanor for those that have entered upon public 
land without a pass. It is clear that compliance with Fee Demo is, 
indeed, dismal. The program has not won over the hearts and minds of 
the public and a Big Stick approach will only alienate more Americans. 
If a $100 fine has been insufficient to deter the public from using 
their public lands, a $5,000 fine most likely will. Citizens should not 
face jail time or a $5,000 fine for simply walking in the woods without 
paying the $5.00 fee.
    H.R. 3283 would take away the Constitutional presumption of 
innocent until proven guilty. Again, in an effort to enforce the 
unenforceable our Constitutional protections are being trampled on.
    H.R. 3283 is forcing a square peg in a round hole.
    The American taxpayer has already done their part. Surely we, as a 
nation, are above charging for public restrooms, dirt roads, parking 
and picnic tables.
    We believe that Fee Demo is not the solution. Nor is it all about 
more appropriated funds. There are already funds available that with 
re-prioritization can be used to address maintenance needs and to keep 
public lands operating.
    We firmly believe that the solution is a matter of will.
    ``The will of Congress to hold the agencies truly accountable for 
the appropriated taxpayer dollars that they already receive each year. 
Again, the GAO has reported that the Forest Service ``has not been able 
to provide Congress or the public with a clear understanding of what 
the Forest Service's 30,000 employees accomplish with the approximately 
$5 billion the agency receives every year.'' It is time to bring 
``Sound Fiscal Science'' to public land management.
    ``The will of Congress to tear down the firewall between the 
Capital Infrastructure budget and recreation budgets so that those 
millions can be used for maintenance and operations, not for building 
more visitor centers and paved parking lots that only add to the 
maintenance needs of the agencies.
    ``The will of Congress and the agencies to find effective avenues 
for appropriated dollars to get to the ground. Operations and 
maintenance at the local level should be paramount.
    ``The will of Congress and the agencies to restrict the pilfering 
of recreation, operations, and maintenance budgets for other purpose so 
that the local agency managers have the funds they need to fulfill 
their goals and objectives.
    ``The will of Congress to create incentives that encourage the 
agencies to identify their maintenance backlogs and encourage them to 
be addressed.
    ``And the will of Congress to adequately fund these agencies 
through the appropriations process. Adequate funding goes hand in hand 
with accountability and redirecting priorities.
    Fee Demo is an attempt to introduce the concept of ``direct 
taxation'' into the management of our public lands, completely 
reversing the previous system of public ownership supported by public 
funding. The Land and Water Conservation Fund Act (LWCF) of 1965 
contained carefully crafted language defining what services were 
appropriate to charge fees for, such as developed campgrounds and 
mechanized boat launches. It also specified what services are 
prohibited from charging a fee, such as roads, visitor centers, scenic 
overlooks, toilets, and picnic tables either singly or in any 
combination. Those guidelines served the American public well for over 
thirty years.
    We believe that the public will support fees, for the agencies 
outside of the National Parks, for services only as specified under the 
Land and Water Conservation Fund Act and that the provisions 
restricting fees should be kept intact. We believe that all funding for 
these agencies should come from our tax dollars, through the 
appropriations process with more oversight, not less.
    We urge those of you on this Committee to recognize the distinct 
differences between the National Parks and the land managed by the 
other agencies. We urge you to choose the financially responsible 
coarse, to maintain what we already own first, to stop this ``Spiral of 
Government Growth,'' and to uphold Public Ownership of Public Lands. We 
ask you not to support this legislation, H.R. 3283.
    Mr. Chairman, and members of the Subcommittee, thank you for your 
consideration of this important issues.
                                 ______
                                 

                     WESTERN SLOPE NO-FEE COALITION

                              P.O. Box 403

                           Norwood, CO 81423

                             July 29, 2003

                               Appendix 1
General Accounting Office Report GAO-03-470 Highlights:

TWO-THIRDS OF FS OPERATING COSTS UNREPORTED.
    In what amounts to an absence of accountability on the part of the 
Fee Demo managers, the Forest Service has failed to report in its 
annual Fee Demo Progress Reports to Congress that (in 2001) close to 
$10 million in appropriated funds was used as a taxpayer subsidy to 
administer the program. (GAO p.32)
    This alone triples the $5 million which the Forest Service was 
declaring as the true cost of collection and administration for the 
program. This, $15 million for cost of collection and administration 
represents, by itself, 43% of the Forest Service's reported Fee Demo 
gross revenue of $35 million in FY 2001. The Forest Service is limited 
by Congress to 15% for cost of collection expenses.

THE FS DOES NOT ACCOUNT FOR ALL FEE COLLECTION COSTS.
    The Forest Service does not report commissions to vendors for 
selling Fee Demo passes (GAO p.25-27). In the Adventure Pass fee 
program, the Pacific Northwest and Sedona's Red Rock fee sites in 
Arizona, among others, the Forest Service uses private vendors to help 
sell Fee Demo passes. In the Adventure Pass fee program, vendors buy a 
$5 daily pass discounted to $4 and a $30 annual pass for $27.
    ``Forest officials at the locations where this was occurring could 
not tell us the total amount of vendor discounts that the agency has 
permitted. Excluding vendor discounts from the cost of collection is 
also inconsistent with federal financial accounting standards and the 
U.S. Department of Agriculture financial manual. These standards 
require that total revenues and expenses be reported'' (GAO p.25-26)
    Although the Forest Service did not make vendor figures available 
to the GAO the figures were obtained, in 2002, through FOIA for the 
Adventure Pass fee program. Vendors sold 56% of all passes in FY2001 
and those sales represent hundreds of thousands of dollars that had 
gone unreported as cost a collection in one fee area alone. It is 
unknown what this figure might be nationwide.

OTHER COSTS OF COLLECTION ARE HIDDEN
    A percentage of the $8.6 million categorized as program-operations 
in the FY 2001 Annual Report to Congress is actually Fee Demo 
administrative overhead. This increases the cost of operating the 
program (GAO p.32).
    Local Fee program managers have been inconsistent with their 
categorizing of costs of collection. Costs related to fee enforcement 
and cost of collection had been reported in other categories. This also 
raises the costs of collection higher (GAO p.7 and p.17).
BOTTOM LINE: FEE DEMO IS NOT WORTH IT
    The Forest Service gross Fee Demo revenue for FY 2001 was over $35 
million (GAO p.6). We must subtract the reported cost of collection, 
5,05 1,000 (GAO p.9), the unreported use of $10 million of appropriated 
funds to subsidize the program (GAO p.32), the unreported vendor 
commissions nationwide, and a further $4.6 million (this represents the 
amount raised at some Fee Demo sites that already produced fee income 
[campgrounds, boat launches, etc.] before Fee Demo began in 1997) 
(April 2002 interim report to Congress on Fee Demo, p.23). The Forest 
Service claims the program is a success with gross revenues of $35 
million. The bottom line is that the program brings in far less than 
$15 million and the cost of overhead, cost of collection and the 
enforcement is well over 50 percent. The public has rejected the notion 
of Fee Demo and financially it is of little or no value to the American 
taxpayer.
    Until the General Accounting Office audits the Bureau of Land 
Management and U.S. Fish and Wildlife Service's Fee Demo programs the 
amount of cost of collection and the use of appropriated funds for 
program management in those agencies remains unclear. As it stands, the 
net revenues for the BLM and USFWS combined is less than $4 million.
    The Forest Service has pointed to backlog maintenance needs as its 
justification for the program. The General Accounting Office reports 
that the Forest Service puts less priority on paying down the backlog 
than other agencies and does not even know how much Fee Demo revenue 
they spend on the backlog. In fact, the agency does not know how large 
the backlog really is (GAO p.4,19-20,22). The Forest Service continues 
to put its emphasis instead on capital infrastructure.

[GRAPHIC] [TIFF OMITTED] T3531.003

[GRAPHIC] [TIFF OMITTED] T3531.004

[GRAPHIC] [TIFF OMITTED] T3531.005


    Mr. Radanovich. Thank you, Mr. Funkhouser. I appreciate 
your testimony.
    I am going to ask you each of you a couple of questions for 
the record.
    Mr. King, I wanted to start it off by asking you in your 
opinion what has caused so much hostility against the Rec Fee 
Demo Program, if you can outline that for me.
    Mr. King. Well, that is very difficult to characterize the 
position of a whole lot of other people, and we certainly 
understand the criticisms of the program, and I think much of 
it justified. I think that I have heard it said about the 
Forest Service that they made the mistake of hearing about this 
fee demo program and they thought it was a fee demo program, 
and, consequently, they tried a lot of experimental approaches, 
many of which did not pan out. I think the agencies have 
realized the error of their ways in many respects, and I think 
they are taking steps, have taken steps, to correct this.
    Certainly nobody likes to pay fees. I don't. I resent it 
when the gas tax goes up, but I also understand that sometimes 
the cost of progress is involved in those fees and I think we 
probably have not done a good enough job stressing the benefits 
that result from the revenue that has been collected through 
fee demo. I think the fact of the matter is there have been 
improvements on the Federal lands, improvements to make them 
more attractive, more appealing to visitors, and I think we 
really have not done a good enough job of telling the public 
about that.
    Mr. Radanovich. Thank you. In your opinion, Mr. King, have 
gateway communities seen an increase or a decrease in business 
because of the new or increased fees?
    Mr. King. I can't identify a decrease, certainly, and 
again, I think the point should be made that while anything 
that adds to the cost of vacations or the work place or 
anything else is a disincentive to continue that activity. 
Economists would probably tell you that it depends on what the 
return is, and I think it depends on what you are getting for 
your money. If you are getting better services, if you are 
getting more attractive, more usable facilities, I don't think 
it is going to have a significant negative effect on 
visitation. It may actually increase it.
    Mr. Radanovich. One more for you: If a National and/or a 
local fee review and oversight bodies were established, do you 
have an opinion as to who should be named to them?
    Mr. King. I think certainly I would strongly urge that 
concessioners and permittees be included. You have heard many 
of the problems that they have from Mr. Brown. We would endorse 
those concerns. I think they should be part of it. I think 
leaders in the gateway community who are affected by visitation 
to the public lands should be included, and I think probably 
somebody from the state and local tourism offices should be 
involved as well. They, better than anyone else I think, know 
the impact that fees have on the levels of visitation.
    Mr. Radanovich. Thank you, Mr. King. I appreciate that.
    Ms. Jourdain, in your testimony, you endorse the creation 
of a new National recreation fees advisory board with authority 
to review complaints and appeals. Can you expand on this and 
describe your vision of who would make up this board; and, 
second, are you concerned that such a board might amount to 
little more than another layer of bureaucracy?
    Ms. Jourdain. Well, we would certainly not want another 
layer of bureaucracy. I think creating a board like that would 
give users input, and I think when you have users included in 
the board like that in the beginning, then they are part of the 
process and therefore feel some ownership into the overall fee 
program. So I think I would certainly include those folks that 
Aubrey just mentioned, and I would also include some users in 
that group.
    Mr. Radanovich. Very good. Thank you.
    Mr. Denner, as a member of the BLM's technical review team, 
has BLM sought the TRT's advice on the cost and how they 
anticipate that they will fund their species monitoring program 
for next year, 2005?
    Mr. Denner. We have asked that question. I think they are 
hoping that they will see a significant increase in 
appropriated money next year. If they don't, they have no other 
source to funding it but user fees.
    Mr. Radanovich. Is there a way in your mind that the BLM 
might justify using rec fee monies to fund their monitoring 
study if the alternative would be further closures and less 
visitor access into the ISDRA?
    Mr. Denner. Unless I misunderstand your question, you are 
asking me if there is a way that we can use the money I pay to 
do more studies to shut me down.
    Mr. Radanovich. Well, if the alternative was to shut it 
down if those studies are unfunded.
    Mr. Denner. No. I understand what you are saying now. I 
really don't think that the people that recreate there object a 
hundred percent to using user fees for environmental studies. 
We see that as a necessary evil; however, to fund a hundred 
percent of those kinds of efforts out of user fees without 
building a new camping pad or installing a new toilet facility 
at that recreation area, you know, it takes the pendulum all 
the way to one side, and we gain no benefit and we are actually 
helping to do things that could reduce our opportunities. You 
know, that is not fair.
    Mr. Radanovich. All right. Thank you very much.
    One further question.
    Mr. King. Mr. Chairman, if I could just add one comment.
    Mr. Radanovich. Sure.
    Mr. King. I think it is absolutely critical what Mr. Denner 
is saying, and that is I think the public, the users, must see 
the benefits.
    Mr. Radanovich. Correct.
    Mr. King. Of their payments. I think that is critical to 
any recreation fee approach.
    Mr. Radanovich. Which makes it not an access fee, but 
actually what a user fee should be, I think. Right?
    Mr. Denner, one more question: Can you give me an idea what 
the fees are? It was mentioned that they are tripled. What are 
the fees now?
    Mr. Denner. Yes. Since the program started, the fees 
typically for a person to camp there for a weekend would be $10 
and for an annual pass would be $30. Last year, the weekend 
camping fee went up to $25, and the annual pass is now $90, and 
under the cost recovery program, that just covers what it takes 
to run that facility. Not a single new improvement has been 
made, yet we can spend a million dollars for an environmental 
study.
    Mr. Radanovich. Mr. Brown, if the Committee were to move 
forward with some type of permanent authorization for the Rec 
Fee Program, what specific side bars would you recommend for 
the Forest Service and the Bureau of Land Management?
    Mr. Brown. Well, the first side bar, I think would be, at 
least for outfitters and guides, we need some statement that 
mentioned that controls the total fee burden from all forms of 
fees, and certainly the language that has been in National Park 
Omnibus Management Act that says that we would have to prohibit 
the fees. The total fee burden can't prohibit the reasonable 
opportunity for a profits is the kind of language that I think 
would work there.
    I think that I recommended in my written testimony that the 
fees be used for necessities and for basic projects where the 
user does see a benefit, because I share some of the same 
concerns. One of the things, concerns, our people have in the 
field is that the fee is established, and once the project is 
completed, then the agency starts looking around for other ways 
to spend the money, and it is not always spent appropriately. 
And so that is why I think this local state-level fee council 
that could help coordinate the fees among the different Federal 
agencies and that could also provide better oversight of the 
fees would be very helpful there, and I think if you have that 
kind of thing with better policy direction in the bill, then 
you will have better stakeholder involvement and buy-in.
    Mr. Radanovich. Thank you. Mr. Brown, also could you offer 
this Committee a specific example of how the Rec Fee Program 
has negatively affected an outfitter and what could be done to 
prevent these negative impacts from happening again in the 
future?
    Mr. Brown. Well, in the Deschutes River last March, the BLM 
walked in and told the outfitters it was going to quadruple 
their fees on weekends when their prices were already set. So 
it was very hard to recover that. I think it was too steep to 
begin with. The fees there, when I see fees reaching 15 percent 
of gross for seasonal business, the only way that the outfitter 
can survive that is when the economy is booming or doing quite 
well. That is a good example.
    The language in S. 1107, the Senate side, requires a year 
notice and notice in the Federal Register before fees are 
increased, and so I think that sort of notice should be 
required; and again, I think the local involvement in setting 
the fees will help preclude some of that negative effect.
    Mr. Radanovich. Very good. Thank you.
    Mr. Funkhouser, you made it pretty clear that you believe 
that funds derived from the Rec Fee Program are no longer 
associated with user fees, but have been, in fact, transformed 
into an access fee, and therefore should be terminated for BLM, 
Fish and Wildlife and U.S. Forest Service. That being said, why 
do you view those same funds as appropriate for, say, the 
National Park system? What is your view on the difference?
    Mr. Funkhouser. Well, to begin with, outside of the 
National parks, I don't think Americans oppose use fees, for 
instance, for services, specifically for campgrounds, 
mechanized boat launches that are specified under the Land and 
Water Conservation Fund Act. With that said, the parks vary 
greatly, as I mentioned in my testimony, from the other land 
management agencies, the higher level infrastructure, the 
higher level service that the public has come to expect, the 
historic use of entrance fees to the parks in some places since 
1908.
    For us, also, we are supporting Senate Bill 1107 over on 
the Senate side in part as a compromise to move this issue 
forward and in part that the Park Service should retain those 
fees. The Park Service, it should be important to point out, 
has brought in 80 percent, roughly, of all the fee revenues, 
and that has not been brought out today, fee revenues under the 
Recreational Fee Demonstration Program. It has been vastly 
successful financially largely because it has been able to 
retain the fees, but of course, as I pointed out in testimony, 
that also brings with it--and again, this has to do with 
outfitter permits across the board, the incentive the fee 
retainage brings with it inherently to the agency.
    Now, the Park Service has been dealing with collecting 
fees, has limited number of access points, for some time. I 
think with oversight and control, I think they can do a good 
job with the situation. Outside of the National Park Service, 
the BLM, Fish and Wildlife Service, Bureau of Land Management, 
and Forest Service, the incredible amount of size of land, 
incredible amount of access points, the difference between the 
gateway communities to local communities and those lands which 
in some cases, like in my county, it is 87 percent BLM and 
Forest Service, is vastly different than the National Park 
Service. The impacts of the fees system together with the 
incentives that it gives the agencies really produces a 
negative effect, not just in a sense a double taxation, but 
changes to relationship to the land, and the management 
agencies in those local communities is totally different.
    Mr. Radanovich. Thank you. Since the Rec Fee Demo program 
was implemented, do you believe that you have benefited from 
any improvements on Federal lands that were a result of the rec 
fees? Have they provided improvements?
    Mr. Funkhouser. I think that, well, financially, the Rec 
Fee Program in these other agencies has been questionable at 
best. As I mentioned 50 percent, the GAO found, including 
appropriated funds for administration and cost of collection in 
the Forest Service, and we don't know how much in the other 
agencies, is limited. You know, it has essentially become a way 
for the agencies to get money onto the ground. If you are using 
33 percent of your gross revenues is appropriated dollars to 
administer the program, what the program has become is 
essentially an avenue to get revenues on the ground. In other 
words, we will pay to run this program, but you have to collect 
it from the public.
    Essentially what happens is the public is loser again, and 
that is a problem, and I would like the point out, also, 3283 
does not address any of the issues that have been brought up 
and have been a mistake. I know the agencies have said we have 
learned by our mistakes, but then they go ahead and ask for 
full-blown authority above and beyond what the current Fee Demo 
Program is today.
    What we have attempted to do both in the Senate and here in 
the House is bring alternative to that suggestion in a full-
blown. We need to define what the sideboard should be, what is 
appropriate to charge for a fee and what is not. I think the 
land and water, the reason we point to the Land and Water 
Conservation Fund Act is people are still very much used to 
that where campgrounds are improved and that certain specific 
uses, amenities on public lands are not allowed to be charged 
for, roads, water fountains, picnic tables, bathrooms, visitor 
centers, either singularly or in any combination. And I think 
those are defined guidelines accepted by the public. Again, we 
suggest very heavily that the agencies--although we suggested 
fees for that were appropriate because the public is willing to 
pay for an extra service like that, that retainage of the fees 
by the agency still creates the incentive to use appropriated 
dollars inappropriately to continue to build infrastructure or 
to pull money elsewhere for other uses.
    I think that it doesn't solve the problem of funding and 
maintenance backlog, which has not been a priority of the 
agencies under the Fee Demo Program. So I think that while 
allowing to charge for those services, that the money should 
still come back to Congress and still should be allocated 
through the appropriations process with oversight. Fee Demo 
allows vastly too much freedom of movement and money in 
agencies that have accountability problems to begin with. 
Although they are beginning to be addressed, we feel that, I 
think, tighter Congressional control is needed.
    Mr. Radanovich. Very good. Thank you.
    One last question for you, Mr. King. Have gateway 
communities been forced to compete with Federal lands that have 
enhanced their recreation opportunities as a result of the Fee 
Demo Program?
    Mr. King. I don't know of any examples of competition along 
that line. I think it is really more a case of the gateways 
benefiting from the increased appeal, the increased 
attractiveness of the public lands that results from the 
investment of those fee demo revenues in visitor service 
facilities and other projects on the lands. I have not really 
detected competition. I think the gateway communities with 
which I am familiar certainly would welcome improvements on the 
Federal lands that add to their visitor appeal.
    Mr. Radanovich. Very good. Thank you.
    Those are the last of my questions. I want to thank--
    Mr. Denner. Mr. Chairman, could I add something to that 
statement?
    Mr. Radanovich. Yes.
    Mr. Denner. I serve on the BLM's California Desert District 
Advisory Council. So I attend meetings all over California, and 
I could cite a number of examples that back up what Mr. King 
just said. There is no level of competition. In fact, we have 
representatives of some local governments and local cities and 
counties coming to our advisory council meetings asking the BLM 
to open up more recreation opportunities because that brings 
dollars to their town. There is no competition whatever that we 
find.
    Thank you.
    Ms. Jourdain. I would also like to add one thing. I think I 
certainly agree from the user side to both what Mr. King and 
Mr. Denner said, because the money collected from fee demo goes 
straight to the ground, whereas a dollar collected in 
Washington virtually disappears by the time it gets back to the 
region.
    Mr. Radanovich. Got it. All right.
    Again, panel, thank you so much for making the trip here to 
Washington to testify. I really do appreciate it. It is 
valuable information, and again, with that, this hearing is 
closed. Thank you very much.
    [Whereupon, at 12:34 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
